<html>
<title> - AN EXAMINATION OF THE VIEWS OF RELIGIOUS ORGANIZATIONS REGARDING GLOBAL WARMING</title>
<body><pre>[Senate Hearing 110-1092]
[From the U.S. Government Publishing Office]



                                                       S. Hrg. 110-1092
 
AN EXAMINATION OF THE VIEWS OF RELIGIOUS ORGANIZATIONS REGARDING GLOBAL 
                                WARMING

=======================================================================

                                HEARING

                               before the

               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                              JUNE 7, 2007

                               __________

  Printed for the use of the Committee on Environment and Public Works


      Available via the World Wide Web: http://www.access.gpo.gov/
                            congress.senate

                               __________




                  U.S. GOVERNMENT PRINTING OFFICE
61-968                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a7c0d7c8e7c4d2d4d3cfc2cbd789c4c8ca89">[email&#160;protected]</a>  

               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                       ONE HUNDRED TENTH CONGRESS
                             FIRST SESSION

                  BARBARA BOXER, California, Chairman
MAX BAUCUS, Montana                  JAMES M. INHOFE, Oklahoma
JOSEPH I. LIEBERMAN, Connecticut     JOHN W. WARNER, Virginia
THOMAS R. CARPER, Delaware           GEORGE V. VOINOVICH, Ohio
HILLARY RODHAM CLINTON, New York     JOHNNY ISAKSON, Georgia
FRANK R. LAUTENBERG, New Jersey      DAVID VITTER, Louisiana
BENJAMIN L. CARDIN, Maryland         LARRY E. CRAIG, Idaho
BERNARD SANDERS, Vermont             LAMAR ALEXANDER, Tennessee
AMY KLOBUCHAR, Minnesota             CHRISTOPHER S. BOND, Missouri
SHELDON WHITEHOUSE, Rhode Island

       Bettina Poirier, Majority Staff Director and Chief Counsel
                Andrew Wheeler, Minority Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page

                              JUNE 7, 2007
                           OPENING STATEMENTS

Boxer, Hon. Barbara, U.S. Senator from the State of California...     2
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     4
Bond, Hon. Christopher S., U.S. Senator from the State of 
  Missouri.......................................................    93
Klobuchar, Hon. Amy, U.S. Senator from the State of Minnesota....    95
Lieberman, Hon. Joseph I., U.S. Senator from the State of 
  Connecticut, prepared statement................................   242

                               WITNESSES

Schori, The Most Reverend Dr. Katharine Jefferts, Presiding 
  Bishop, The Episcopal Church...................................    97
    Prepared statement...........................................    99
Carr, John L., secretary, Department of Social Development and 
  World Peace, U.S. Conference of Catholic Bishops...............   102
    Prepared statement...........................................   104
Ball, The Reverend Jim, Ph.D., signatory to the Evangelical 
  Climate Initiative.............................................   107
    Prepared statement...........................................   109
Saperstein, Rabbi David, director and counsel, Religious Action 
  Center of Reform Judaism.......................................   117
    Prepared statement...........................................   120
Moore, Russell D., dean, School of Theology, senior vice 
  president for Academic Administration, associate professor of 
  Christian Theology, The Southern Baptist Theological Seminary..   122
    Prepared statement...........................................   124
    Responses to additional questions from Senator Inhofe........   183
Tonkowich, The Reverend Dr. James, president, Institute on 
  Religion and Democracy.........................................   194
    Prepared statement...........................................   195
Barton, David, author and historian..............................   204
    Prepared statement...........................................   206
    Responses to additional questions from Senator Inhofe........   210

                          ADDITIONAL MATERIAL

The Cornwall Declaration on Environmental Stewardship............  9-92
Appendixes:
    Southern Baptist Convention:
        Environmental Stewardship, June 1990.....................   129
        Environmentalism and Evangelicals, June 2006.............   131
        Resolution No. 5 on Global Warming, June 2007............   185
    Climate Change and the Responsibility of Civil Society: Some 
      Biblico-Theological Aspects of the Global Warming Debate, 
      by E. Calvin Beisner, April 2007...........................   134
    Interfaith Stewardship Alliance:
        A Call to Truth, Prudence, and Protection of the Poor: An 
          Evangelical Response to Global Warming, 2006, by E. 
          Calvin Beisner, Paul K. Driessen, Ross McKitrick, and 
          Roy W. Spencer.........................................   145
        An Open Letter to the Signers of ``Climate Change: An 
          Evangelical Call to Action'' and Others Concerned About 
          Global Warming, Interfaith Stewardship Alliance........   175
    Policy Statement on Global Warming, August 2005, The Ethics & 
      Religious Liberty Commission, by Andrew R. Lewis...........   169
    Pro-Abortion Foundation Aided Evangelical Climate Effort, by 
      Tom Strode, Baptist Press, March 2006......................   189
    A Selected List of Scientists and Scholars with Relevant 
      Experience Who Question the Validity of the Theory of 
      Catastrophic, Human-Caused Global Warming.................200-203
Petition Project, La Jolla, CA...................................   211
Letter from Rabbi Daniel Lapin, June 12, 2007....................   214
Chart, the Sun is a more likely and dominant driver of the 
  recorded Arctic temperature variations.........................   216
Principles for Federal Policy on Climate Change..................   220
Gallup poll, National Post (Canada), Copyright 2007 Financial 
  Post, 
  June 2, 2007, Lawrence Solomon.................................   224
Statements:
    The Reverend Mark S. Hanson, Presiding Bishop, Evangelical 
      Lutheran Church in America.................................   244
    National Council of Churches of Christ in the USA, June 7, 
      2007......................................................252-299
Brief, Economic and Budget Issue, Congressional Budget Office, 
  April 25, 2007, by Terry Dinan.................................   300


AN EXAMINATION OF THE VIEWS OF RELIGIOUS ORGANIZATIONS REGARDING GLOBAL 
                                WARMING

                              ----------                              


                         THURSDAY, JUNE 7, 2007

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:05 a.m. in 
room 406, Dirksen Senate Office Building, the Hon. Barbara 
Boxer (chairman of the committee) presiding.
    Present: Senators Boxer, Inhofe, Carper, Isakson, Bond, 
Klobuchar, and Whitehouse.
    Senator Boxer. The committee will come to order.
    I would ask the members of the panel to please kindly take 
your seats behind your name. We are very honored that you are 
here.
    I want to just welcome everybody here. Senator Inhofe and I 
are very honored that you are here this morning.
    I did want to give Senator Inhofe a gift this morning, 
because we are always under pressure and rushing. But he gave 
me a very funny and very cute gift the first day----
    Senator Inhofe. A very useful gift.
    Senator Boxer. An extremely useful gift. It was a cup, a 
global warming cup. When you pour hot water into it, the coast 
melts away. So he gave me that. So I have something for him. 
This will only take 30 seconds.
    I don't know how useful it is, but it is from me to you, 
from my heart.
    Senator Inhofe. Well, let me open it right now.
    [Laughter.]
    Senator Inhofe. That is really neat. You know, we have 20 
kids and grandkids. They are going to relish this.
    They are particularly happy because in the last 50 years, 
the polar bear population has doubled and it is on the increase 
now.
    [Laughter.]
    Senator Inhofe. Of the 19 populations of the polar today, 
with the exception of Western Hudson Bay, they are all on the 
increase. So I am really happy and they will be rejoicing with 
us, and thank you very much.
    Senator Boxer. You are very welcome. I knew you would use 
that as an opportunity to explain your views on the polar bear. 
But I couldn't resist it, Senator, when I saw it.
    So here is where we are. Because we have back to back votes 
at 11 o'clock, which is just the way it goes, we will just go 
with the flow. Senator Inhofe and I are going to make opening 
statements. Then to the extent possible, we are going to turn 
to our panel. I will return with Senator Inhofe after the votes 
and I will stay as long as it takes to hear all your testimony. 
So let me begin.
    If you could set the clock for 8 minutes for each of us.

STATEMENT OF HON. BARBARA BOXER, U.S. SENATOR FROM THE STATE OF 
                           CALIFORNIA

    Senator Boxer. Today we will hear testimony from witnesses 
representing over 100 million Americans of faith who are 
joining together to protect God's creation from global warming. 
Americans are coming together, calling for action and our 
common values are bringing us together. This is coming from the 
people, from the ground up.
    Evangelical Christians, Catholics, African Methodist 
Episcopals, Jews, mainline Protestant Christians, and many 
other people of faith see the need for action on global warming 
as a moral, ethical and Scriptural mandate. In my own State, I 
was called by an ecumenical coalition. They wanted me to see 
the work they are doing on energy efficiency. This was a couple 
of years ago, before I took the chairmanship of this committee. 
Just from the ground up, they were teachers, they were telling 
me that they saw the problem and they were taking action.
    I also want to recommend a book called The Creation, which, 
if you haven't read it, you should read it. It is written by a 
scientist who was raised in a very religious home. In the 
height of his science, he always felt that there was a clash 
between science and religion. It always hurt his heart, he was 
always crushed about it. He believes that this issue is going 
to bring together science and religion. It is a wonderful book 
and I do recommend it.
    So as for me, I so welcome your support, your insight, your 
leadership as we work toward this great challenge of global 
warming.
    The people of faith that have contacted us recognize that 
our best scientists say global warming's impacts will fall most 
heavily on the poor people throughout the world. Many times we 
hear in this committee, we can't do this and we can't do that, 
because it will hurt poor people. Well, the bottom line is the 
worst impacts of global warming will fall on the shoulders of 
poor people in developing nations and in rich nations like 
ours, all we have to do is look at what happened during 
Katrina. Even the wealthiest of nations, major flooding or 
storms hit the poor the hardest.
    So people of faith tell us we must prevent these harms and 
protect the poor from bearing an undue burden, and joining 
together with common purpose and common values, we will solve 
this problem. The warming of our earth is one of the great 
challenges of our generation. It is a challenge that I 
certainly want to meet with hope, not fear, a challenge that 
will make us stronger as a Nation and as a people.
    I just held a bipartisan briefing in the room right next to 
this with the Secretary of the Environment from Great Britain. 
His message to us is that, as in Great Britain since 1990, the 
carbon emissions have gone down about 19 percent, the GDP has 
grown by 45 percent, that the number of jobs in environment-
related industries have gone from 100,000 to 500,000. So if we 
do this in the right way, it is going to be a boon to our 
economy and it is going to give us a sense of purpose as a 
Nation. We can lead the world. Of course, that is my view.
    Our generation faces a choice. Will we, in the stirring 
words of the 2004 Nobel Peace Price Laureate, give our 
children, ``a world of beauty and wonder''? I ask, will we 
leave them lush forests teeming with wildlife and fresh air and 
clean streams? Will our grandchildren know the thrill of 
holding their child's hand, watching with excitement, towering 
snow capped mountains or awesome calving glaciers? Will they 
have plentiful food and ample water and be able to wiggle their 
toes in the same beach that we did? Will our generation leave 
them a climate that supports the awe-inspiring diversity of 
creation?
    I have a vision for my 11-year-old grandson and for my new 
grandson, who is expected any day now. My vision is that these 
children and yours will grow up and be able to know these gifts 
of God, that they will understand we made the right choice for 
them when we had to, that we protected the planet that is their 
home. I see this vision pretty clearly: cars that are running 
on clean, renewable fuels that don't pollute, and that the 
United States is a leader in exporting clean technologies and 
products that are the engine of a new, green economy. We will 
lead the way in showing how to live well in a way that respects 
the earth.
    Of course, we have started in California in a bipartisan 
way. That is what I want to point out. This should be a 
bipartisan issue. I know Senator Bond is one of the Senators 
that has been to all of these hearings and always reminds us 
that we have to be so cautious when it comes to protecting the 
poor. Senator, I think one of the main points I made before you 
got here is that if you look at the predictions that the people 
who will suffer the most if we don't do this right will be the 
poor of the world and the poor of our Nation as well. So we 
have to join together in solving this problem.
    Now, we have had many hearings, I think we are up to about 
11 hearings on this subject. This is No. 12. What we are 
developing is a record. What I am developing are partners in 
this battle. To add many of you as partners in this fight, 
religious leaders, is just a tremendous boon to our cause. You 
are fighting for what many of you call creation care, the 
protection of the gifts we have inherited from our Creator. We 
share common concerns about what scientists are telling us 
about the future.
    When we put your panel, after you are done, and as I say, 
we will have a break, but we will complete this panel, we put 
this together with what we have heard from the United Nations 
International Intergovernmental Panel on Climate Change, where 
we have been told very clearly, right here in this room by 
scientific experts that as many as 40 percent of the species on 
earth may be at risk of extinction from global warming. When we 
put together all of you partners, I think we come out with a 
very clear path to go down.
    Today I want to enter into the record a document being 
released today by over 15 major national religious 
denominations and organizations representing tens of millions 
of Americans, ranging from the African American Methodist 
Episcopal Church, AME, to Jewish, Evangelical, Lutheran, 
Methodist, Presbyterian and many other religious groups. They 
are calling for an 80 percent reduction in global warming 
emissions by the year 2050.
    Many in the religious community add a strong voice to this 
discussion, calling for a strong actions needed to protect the 
future of our planet. Believe me, we need your voice, because 
we have still voices of dissent, voices that are challenging 
the science, even when the science is very obvious.
    So we can move forward toward energy independence, with 
increased reliance on home-grown, clean fuels and clean, 
renewable energy sources. Again, as the British have shown us, 
with hundreds of thousands of green collar jobs, we can 
invigorate our economy.
    So my vision includes a Nation driven by innovation, energy 
efficiency, green technology that we export around the world. I 
see a strong American economic base with entrepreneurs and 
businesses thriving. Yesterday I had a whole slew of businesses 
in from California, they met with Senator Warner. These are 
CEOs of major corporations, these are Republicans, they are 
Democrats, they are Independents, urging us to mandate these 
cuts in carbon.
    So I will close, as my time has wound down, as the ancient 
religious writings say, see to it that you do not destroy any 
of my world, for there is no one to repair it after you. 
Working together, I think we can repair this. Thank you very 
much.
    Senator Inhofe.

STATEMENT OF HON. JAMES M. INHOFE, U.S. SENATOR FROM THE STATE 
                          OF OKLAHOMA

    Senator Inhofe. Thank you, Senator Boxer, and I thank all 
the witnesses for coming. I sincerely appreciate it. As Senator 
Boxer said, we have had hearing after hearing after hearing, 
that is all we do in this committee is have hearings on global 
warming. It is kind of interesting. While that is happening, 
other committees are usurping our jurisdiction on energy issues 
and other things. So I hope to get to some of those.
    Here is another thing I would like to suggest. We have had 
all these hearings, we have a couple, at least two bills, cap 
and trade, CO<INF>2</INF> bills that are out there. Let's bring 
them up and consider them. I think we have had a lot of 
hearings.
    This hearing, though, I am kind of looking forward to. So 
we will go on with this. I am not surprised that there has been 
no effort to bring up these bills and have them considered, 
because when you do, it comes out as to what the real serious 
problems are with the science, with the costs and everything 
else. I think we all remember what the Wharton Econometric 
Survey did back during the initial Kyoto effort. They came out 
and said that it would cost about $338 billion, which would 
cost each family of four in America $2,700 a year. This is not 
Jim Inhofe, this is the Wharton study.
    Just a couple of weeks ago, there was another study that 
came out from MIT. This was interesting, it said the report 
found that the costs to the energy consumers of instituting the 
Sanders-Boxer bill would be an amount equal to $4,500 per 
family, per year, or on the Lieberman-McCain bill, $3,500 a 
year. Now, each and every one of the proposes out there is a 
disaster in one way or another that if exposed to serious 
discussion would make the American public think twice about 
these so-called solutions.
    In the past, and I would ask that witness John Carr listen 
to this, because he probably knows this individual, Tom Mullen. 
Tom Mullen is the president of the Catholic Cleveland 
Charities, testified before this committee about the rising 
cost of energy that would be caused by the imposition of a 
carbon cap and trade scheme. Specifically he said that the one-
fourth of the children in his city living in poverty would, and 
I am quoting him now, ``will suffer further loss of basic needs 
as their moms are forced to make choices as to whether to pay 
rent or live in a shelter, pay heating bills or see their child 
freeze, buy food or risk availability of hunger centers.'' If 
we add to that the recent CBO study, it found that an allowance 
allocation scheme would increase costs to the poor who already 
spend up to five times as much of their monthly outlays on 
energy as other people do. He said the report found that it 
would transfer wealth from the poor to the rich, a reverse type 
of Robin Hood thing, I suppose.
    These thoughts were echoed in a letter to me yesterday by 
Barrett Duke, vice president of the Ethics and Religious 
Liberty Commission of the Southern Baptist Convention, which I 
would ask to be entered into the record at the conclusion of my 
remarks, along with their resolution passed just June, and this 
is the Southern Baptist Convention, on Environment and 
Evangelicals. Duke wrote in his letter that the science was 
unsettled, which we all know is true, and if global warming 
policies make the delivery of electricity to the developing 
nations more difficult, millions of people will be condemned to 
more hardship, more disease, shorter lives and more poverty. I 
am particularly sensitive to this, as some people, such as Mr. 
Barton, know that I have been very active in Africa. These 
people are barely holding on as it is.
    What makes all this more tragic is the science of global 
warming hysteria is so shaky. That has led to increasing 
numbers of political leaders coming forth to make public 
statements. We have heard statements in the past by Czech 
Republic president Vaclav Klaus and former French Socialist 
Party leader Claude Allegre, who was, incidentally, marching 
down the streets 10 years ago with Al Gore and now is on the 
other side, the skeptics' side of this issue.
    The statement that was made just a couple of days ago by 
German Chancellor Helmut Schmidt, he said ``The topic of global 
warming is hysterical, overheated and that is especially 
because of the media. We have had warm and ice ages for 
hundreds of thousands of years.'' He added that, ``Believing we 
can alter global warming by any plans made at the G-8 is 
idiotic.'' This is echoed by a lot recently, and we plan to 
come forth with a list before long as to many hundreds of new 
scientists that are becoming outspoken on this side of the 
issue. They are really refuting what is this doctrine, this 
theology of Al Gore, the United Nations, the Hollywood elitists 
and the media's version of climate science.
    Even putting the issue of science aside, religious leaders 
who have bought into the global warming hype need to consider 
the big picture of unintended consequences of legislative 
solutions. One example by the climate crusaders was the recent 
proclamation by a U.K. supermarket company announcing it would 
usher in carbon-friendly policies and stop importing food from 
faraway nations. As of February 21, 2007, current, just a 
couple of weeks ago, BBC Report found, ``Kenyan farmers whose 
lifelong carbon emissions are negligible compared to their 
counterparts in the west, are fast becoming the victims of a 
green campaign that could threaten their livelihood.''
    Now, I would say that one of the most brilliant things, 
ideas, that anyone had in trying to promote this idea that 
manmade gases causes climate change was the idea if they could 
somehow divide and conquer in the evangelical community and get 
people to quit worrying about their core values, whether it is 
gay marriage or abortion or any of the other issues and start 
worrying about the environment, along came Richard Cizik. 
Richard has a little portrait of himself there, it shows 
himself dressed like Jesus walking on water. Can you see the 
water down here? Can't see it too well there.
    Anyway, he is frequently cited in the media to show that 
there is a split in the evangelical community. This actually is 
just flat not true. When you look at his beliefs, when he talks 
to liberal groups, you find out he does have a philosophy of 
population control. In May 2006, in a speech to the World Bank, 
he told the audience, ``I'd like to take on the population 
issue. We need to confront population control and we can. We're 
not Roman Catholics, you know.'' That was a brilliant idea to 
divide and conquer.
    I have skipped a page here. I know you regret that, Senator 
Boxer. Don't worry, I will get it back.
    Senator Boxer. No, I really enjoy your musings here.
    [Laughter.]
    Senator Inhofe. Anyway, I did somewhere. But the alarmists, 
the reason you are seeing the desperation set in is because as 
you look at the science that is coming out now and the science 
that is changing on a daily basis, those are the individuals, 
and when we stood right down the hall and had Al Gore here for 
about a 3-hour confrontation, I started naming the names and we 
printed it, we had hundreds of names on charts of scientists 
who 10 years ago were believing that this global warming or 
manmade gases were causing climate change who are now on the 
other side of the issue. I mentioned Claude Allegre. He was one 
who was on the other side. David Bellamy in the United Kingdom 
was on the other side of the issue. He has now come over as a 
scientist. Nir Shariv from Israel was on the other side of the 
issue and he came over.
    So let me just conclude by saying that the idea, it was a 
brilliant idea on divide and conquer, and I am glad we are 
having this hearing today.
    I would like at this time just to introduce for the record 
the Cornwall Declaration, which I think provides a Biblical-
based interpretation of God's calling to be stewards. I will 
leave you with this idea. I believe as I study the Scriptures 
that we were forewarned that something like this was going to 
happen. I would only quote that that was found in Romans 1:25 
when they said ``They gave up the truth about God for a lie and 
they worshipped God's creation instead of God, who will be 
praised forever, amen.''
    Thank you, Madam Chairman.
    [The prepared statement of Senator Inhofe and referenced 
material follow:]

       Statement of Hon. James M. Inhofe, U.S. Senator from the 
                           State of Oklahoma

    Madame Chairman, I would like to thank you for having a hearing 
that I personally find interesting. Before I address the topic of 
today's hearing, however, I must again repeat my concern that other 
Committees encroach on this Committees jurisdiction while we sit idly 
by.
    We have had hearing after hearing after hearing on global warming. 
But we have yet to have legislative hearings on the climate bills that 
are supposedly the reason for this endless parade of hearings. When we 
considered multi-emission legislation, we had two dozen legislative 
hearings examining the hard questions that need to be examined when 
crafting legislation. If this issue is so urgent and important, why are 
we delaying the beginning of that process?
    In fact, we would have benefited yesterday when this Committee 
passed a small piece of legislation on a carbon capture demonstration 
project for the Capitol power plant. Although many technologies were 
praised as possibly being used for the plant, none of those 
technologies actually would qualify under the bill. Yet few Senators 
understood this because we never had a hearing on it before voting on 
it. That is simply unacceptable.
    I'm not surprised that no effort has been made to seriously examine 
the many cap and trade proposals that have been introduced. Each of 
these bills would have massive economic consequences. An MIT report 
found that the costs to energy consumers of instituting the Sanders-
Boxer bill would be an amount equal to $4,500 per family and more than 
$3,500 for the Lieberman-McCain bill.
    Each and every one of the proposals out there has warts that, if 
exposed in serious discussion, would make the American public think 
twice about these so-called solutions.
    In the past, Tom Mullen, President of Catholic Cleveland Charities, 
testified on his concern about the rising costs of energy that would be 
caused by the imposition of a carbon cap and trade scheme. 
Specifically, he said that the one-fourth of children in his city 
living in poverty:
    ``will suffer further loss of basic needs as their moms are forced 
to make choices of whether to pay the rent or live in a shelter; pay 
the heating bill or see their child freeze; buy food or risk the 
availability of a hunger center.''
    Recently, the Congressional Budget Office found that an allowance 
allocation scheme would increase costs to the poor--who already spend 
up to five times as much of their monthly outlays for energy. The 
report found that it would transfer wealth from the poor to the rich. A 
reverse Robin Hood, if you will.
    These thoughts were echoed in a letter sent to me yesterday by 
Barrett Duke, Vice President of the Ethics & Religious Liberty 
Commission of the Southern Baptist Convention--which I request be 
entered into the record along with a resolution passed last June by the 
Southern Baptist Convention on Environment and Evangelicals. Duke wrote 
in his letter that that the science was unsettled and if global warming 
policies:
    ``make the delivery of electricity to [undeveloped countries] more 
difficult, millions of people will be condemned to more hardship, more 
disease, shorter lives and more poverty.''
    What makes this all the more tragic is the science to buttress 
global warming hysteria is so shaky. That has led to increasing numbers 
of political leaders coming forth to publicly say so.
    The latest is former German Chancellor Helmut Schmidt just this 
week said the topic of global warming is ``hysterical, overheated, and 
that is especially because of the media. We've had warm- and ice-ages 
for hundreds of thousands of years.'' He added that believing we can 
alter global warming by any plans made at the G-8 is ``idiotic.''
    Schmidt's comments follow similarly strong statements by Czech 
President Vaclav Klaus and former French Socialist Party Leader Claude 
Allegre.
    The global warming alarmists are becoming increasingly desperate as 
more and more scientists convert from belief in a man-made catastrophe 
to skeptics as new science becomes available. We will be issuing a 
report soon detailing the hundreds of scientists who have spoken out 
recently with differing views from Al Gore, the United Nations, 
Hollywood elitists, and the media's version of climate science.
    Even putting the issue of science aside, religious leaders who have 
bought into the global warming hype need to consider the big picture of 
unintended consequences of legislative `solutions.' One example of 
unintended consequences by climate crusaders was the recent 
proclamation by a UK supermarket company announcing it would usher in 
`carbon friendly' policies and stop importing food from faraway 
nations. As a February 21, 2007 BBC report found:
    ``Kenyan farmers, whose lifelong carbon emissions are negligible 
compared with their counterparts in the West, are fast becoming the 
victims of a green campaign that could threaten their livelihoods.''
    We need to consider what Danish statistician Bjorn Lomborg 
discovered: diverting precious resources to solve a so called ``climate 
crisis'' is not in the best interests of the developing worlds poor. 
`Solutions' to global warming may be much worse than the feared 
problem.''
    Next, let me discuss someone who the media frequently cites in an 
attempt to show evangelicals are moving toward the side of global 
warming activism--Rev. Richard Cizik, a global warming alarmist.
    A 2006 Vanity Fair Magazine article had Cizik posing for a picture 
where he was walking on water dressed like Jesus. Cizik shares the 
beliefs of liberals on the issue of population control. In a May 2006 
speech to the World Bank, he told the audience, ``I'd like to take on 
the population issue. We need to confront population control and we 
can--we're not Roman Catholics after all--but it's too hot to handle 
now.''
    In short, Cizik does not represent the views of most evangelicals.
    My final thoughts are about biblical perspectives. While I read the 
Bible, I do not pretend to be a scholar. But I have read what has been 
written by some scholars on the topic of man's relation to creation and 
what stewardship means from a biblical perspective.
    I would like at this time to introduce for the record the Cornwall 
Declaration, which I think provides a biblically based interpretation 
of God's calling to us to be stewards.
    We should respect creation and be wise stewards, but we must be 
careful not to fall into the trap of secular environmentalists who 
believe that man is an afterthought on this Earth who is principally a 
polluter.
    Rather, we are made in God's image and should use the resources God 
has given us. I'll leave you with a final thought from Romans 1:25. 
``They gave up the truth about God for a lie, and they worshiped God's 
creation instead of God who will be praised forever. Amen.''

[GRAPHIC] [TIFF OMITTED] T1968.131

[GRAPHIC] [TIFF OMITTED] T1968.132

[GRAPHIC] [TIFF OMITTED] T1968.133

[GRAPHIC] [TIFF OMITTED] T1968.134

[GRAPHIC] [TIFF OMITTED] T1968.135

[GRAPHIC] [TIFF OMITTED] T1968.136

[GRAPHIC] [TIFF OMITTED] T1968.137

[GRAPHIC] [TIFF OMITTED] T1968.138

[GRAPHIC] [TIFF OMITTED] T1968.139

[GRAPHIC] [TIFF OMITTED] T1968.140

[GRAPHIC] [TIFF OMITTED] T1968.141

[GRAPHIC] [TIFF OMITTED] T1968.142

[GRAPHIC] [TIFF OMITTED] T1968.143

[GRAPHIC] [TIFF OMITTED] T1968.144

[GRAPHIC] [TIFF OMITTED] T1968.145

[GRAPHIC] [TIFF OMITTED] T1968.146

[GRAPHIC] [TIFF OMITTED] T1968.147

[GRAPHIC] [TIFF OMITTED] T1968.148

[GRAPHIC] [TIFF OMITTED] T1968.149

[GRAPHIC] [TIFF OMITTED] T1968.150

[GRAPHIC] [TIFF OMITTED] T1968.151

[GRAPHIC] [TIFF OMITTED] T1968.152

[GRAPHIC] [TIFF OMITTED] T1968.153

[GRAPHIC] [TIFF OMITTED] T1968.154

[GRAPHIC] [TIFF OMITTED] T1968.155

[GRAPHIC] [TIFF OMITTED] T1968.156

[GRAPHIC] [TIFF OMITTED] T1968.157

[GRAPHIC] [TIFF OMITTED] T1968.158

[GRAPHIC] [TIFF OMITTED] T1968.159

[GRAPHIC] [TIFF OMITTED] T1968.160

[GRAPHIC] [TIFF OMITTED] T1968.161

[GRAPHIC] [TIFF OMITTED] T1968.162

[GRAPHIC] [TIFF OMITTED] T1968.163

[GRAPHIC] [TIFF OMITTED] T1968.164

[GRAPHIC] [TIFF OMITTED] T1968.165

[GRAPHIC] [TIFF OMITTED] T1968.166

[GRAPHIC] [TIFF OMITTED] T1968.167

[GRAPHIC] [TIFF OMITTED] T1968.168

[GRAPHIC] [TIFF OMITTED] T1968.169

[GRAPHIC] [TIFF OMITTED] T1968.170

[GRAPHIC] [TIFF OMITTED] T1968.171

[GRAPHIC] [TIFF OMITTED] T1968.172

[GRAPHIC] [TIFF OMITTED] T1968.173

[GRAPHIC] [TIFF OMITTED] T1968.174

[GRAPHIC] [TIFF OMITTED] T1968.175

[GRAPHIC] [TIFF OMITTED] T1968.176

[GRAPHIC] [TIFF OMITTED] T1968.177

[GRAPHIC] [TIFF OMITTED] T1968.178

[GRAPHIC] [TIFF OMITTED] T1968.179

[GRAPHIC] [TIFF OMITTED] T1968.180

[GRAPHIC] [TIFF OMITTED] T1968.181

[GRAPHIC] [TIFF OMITTED] T1968.182

[GRAPHIC] [TIFF OMITTED] T1968.183

[GRAPHIC] [TIFF OMITTED] T1968.184

[GRAPHIC] [TIFF OMITTED] T1968.185

[GRAPHIC] [TIFF OMITTED] T1968.186

[GRAPHIC] [TIFF OMITTED] T1968.187

[GRAPHIC] [TIFF OMITTED] T1968.188

[GRAPHIC] [TIFF OMITTED] T1968.189

[GRAPHIC] [TIFF OMITTED] T1968.190

[GRAPHIC] [TIFF OMITTED] T1968.191

[GRAPHIC] [TIFF OMITTED] T1968.192

[GRAPHIC] [TIFF OMITTED] T1968.193

[GRAPHIC] [TIFF OMITTED] T1968.194

[GRAPHIC] [TIFF OMITTED] T1968.195

[GRAPHIC] [TIFF OMITTED] T1968.196

[GRAPHIC] [TIFF OMITTED] T1968.197

[GRAPHIC] [TIFF OMITTED] T1968.198

[GRAPHIC] [TIFF OMITTED] T1968.199

[GRAPHIC] [TIFF OMITTED] T1968.200

[GRAPHIC] [TIFF OMITTED] T1968.201

[GRAPHIC] [TIFF OMITTED] T1968.202

[GRAPHIC] [TIFF OMITTED] T1968.203

[GRAPHIC] [TIFF OMITTED] T1968.204

[GRAPHIC] [TIFF OMITTED] T1968.205

[GRAPHIC] [TIFF OMITTED] T1968.206

[GRAPHIC] [TIFF OMITTED] T1968.207

[GRAPHIC] [TIFF OMITTED] T1968.208

[GRAPHIC] [TIFF OMITTED] T1968.209

[GRAPHIC] [TIFF OMITTED] T1968.210

[GRAPHIC] [TIFF OMITTED] T1968.211

[GRAPHIC] [TIFF OMITTED] T1968.212

[GRAPHIC] [TIFF OMITTED] T1968.213

[GRAPHIC] [TIFF OMITTED] T1968.214

    Senator Boxer. Thank you.
    Senator Bond, Senator Inhofe and I agreed at the beginning 
we would each take 8 minutes and members would have 3 minutes. 
So you have your 3 minutes.
    Senator Bond. Madam Chair, could I impose on your good 
nature and good will, since you have been so kind, if I could 
slip over a few minutes? I have a few things to say and I would 
welcome having a little slack.
    Senator Boxer. The rule was 3 minutes. I will give you an 
extra minute.
    Senator Bond. I will go fast like a bunny. Thank you very 
much.
    Senator Inhofe. Correct me if I am wrong on the rule, but I 
think that if anyone who is not here at the time we start in on 
our witnesses would have to forego until later with their 
opening statement, is that what normally takes place?
    Senator Boxer. Well, that is not what we have done in the 
past. But why don't you proceed?

 STATEMENT OF HON. CHRISTOPHER S. BOND, U.S. SENATOR FROM THE 
                       STATE OF MISSOURI

    Senator Bond. Thank you, Madam Chair, for hosting this 
hearing. It is a great honor to have such distinguished leaders 
of the faith community here. I trust we are all leaders of 
faith. As I look down the listing of your distinguished 
backgrounds, I don't see any of my fellow Presbyterians here, 
so I will try to speak for--oh, thank you very much, Doctor. 
Well, as a matter of fact, we are members of the same cult.
    Faith, as far as I am concerned, should inform our 
decision. Faith should form our values. One of those values I 
have shared with the committee, as the Chair has so kindly 
pointed out, is the need to care for the weak and vulnerable. 
While I am strongly supportive of reducing emissions through 
investments in technology and infrastructure that can conserve 
energy and the environment, I have spoken out against some of 
the climate change bills, such as Boxer-Sanders, which is 
supported by the Presidential candidates on their side, because 
I fear, as our Ranking Member does, that these will target the 
poor and vulnerable with the greatest degree of relative 
hardship.
    Senator Inhofe has already pointed out how Boxer-Sanders 
would hit the poor. A recent MIT study showed that emission 
decreases required under this bill would cost $210 for each 
emitted ton of CO<INF>2</INF>. Now, those aren't paid just by 
the companies. Those are ultimately paid by the consumers. My 
Missouri electricity organization estimated it would increase 
Missouri electricity prices by 275 percent. Nearly tripling our 
electricity bills is unacceptable. The problem is that many 
can't even afford today's energy prices.
    I introduced to the committee this young girl in a previous 
hearing. She was featured in a Hill newspaper ad for heating 
subsidies for the poor. As you see in this coat, the girl has 
two coats, one she wears outside and one for inside. She is an 
example of 29 million Americans who cannot afford to pay their 
heating bills. Thus, she must wear a coat in the winter to 
survive. I support and will continue to support and work for 
low-income energy subsidies. Even if we double our LIHEAP 
funding, we will still leave out in the cold two of three 
families who cannot afford their heating bills. It is easy to 
see why. Families significantly below the poverty level spend 
as much as 19 percent of their income on utility bills. Those 
with family incomes above $50,000 spend only 4 percent on 
energy. That means the poor are hit five times harder than 
middle class. That is not protecting the weak and vulnerable.
    A recent study on the consequences of energy from poverty 
in Missouri called Paid but Unaffordable, found that 46 percent 
of poor households surveyed went without food in order to pay 
their home energy bill, 45 percent failed to take medicines, 38 
percent went without needed school books. But even more 
disturbing, in some areas of the United States, as many as one-
quarter of low-income renters are evicted due to inability to 
pay their heating bills.
    Another study from my home State of Missouri explored the 
connection between eviction due to unpaid utility bills and 
poor educational attainment. We know if the kids cannot have a 
decent home, and they don't have adequate food, they are poor 
students. Now, some are rightly concerned we ought to focus on 
the Third World poor. We need to fight drought, lack of potable 
water. This is where the truly poor really are, living on less 
than $2 or $1 a day. That is why I have strongly supported and 
continue to support plant biotechnology to develop seeds that 
are disease, pest and drought resistant, to empower farmers in 
poor countries to support their families and feed their people. 
New advances with the beta carotene enriched rice, the golden 
rice, should reduce not only the blindness which afflicts a 
half a million children in lesser developed countries, but 
kills as many as 5 million a year.
    These are steps that we can and must take. But to fight 
endemic poverty, India is using manufacturing to lift the poor, 
hopefully all the way to the middle class. Then how can we 
expect India to accept measures that would strangle good-paying 
Indian manufacturing jobs in the cribs? That is not the way to 
protect their weak and vulnerable.
    I support measures to reduce our carbon footprint. I 
supported the Green Buildings bill yesterday. But I cannot 
support measures that unfairly target the poor, measures that 
target the Midwest, measures that unfairly target coal-
dependent States, its manufacturing jobs, hard-working blue 
collar workers and struggling middle class. We need to develop 
clean coal technology which will utilize that coal, make our 
coal areas the Dubai of the Midwest and put money into clean 
coal technology, coal-to-liquids, coal-to-gas. I hope we can 
come together to include the entire world, not leaving out 
polluting countries, to rely on what we do best without hurting 
those who have the least. That is the way to protect the weak 
and vulnerable.
    Madam Chair, I appreciate your indulgence and I thank very 
much our witnesses for coming.
    Senator Boxer. Thank you, Senator Bond.
    Senator Klobuchar, I am going to call on you in just a 
moment. I have a few things to put in the record. You will have 
up to 5 minutes, is what Senator Bond took.
    So I want to place in the record the titles of the four 
anti-global warming bills we passed out of the committee, one 
of which was referred to by the good Senator from Missouri. 
Also to announce that on June 26, we will be having a hearing 
on all of the various cap and trade bills that have been 
introduced relating to the utility sector. These are bipartisan 
proposals. We will be having that hearing.
    I also want to place into the record the members of U.S. 
Climate Action Partnership, who in addition to Al Gore and the 
Hollywood elite have called for cuts in carbon, up to 60 to 80 
percent: Alcoa, Caterpillar, Duke Energy, Dupont, PG&E and so 
on, GE. So I want to do that.
    I also want to place into the record the Members of the 
Congress, how we voted on that last LIHEAP vote, that low-
income energy assistance program, because there is no question 
we are going to have to help people. That is why we have the 
program. So I think it will be interesting to see where we fall 
on that.
    Also put into the record the names of the 29 States and the 
400 mayors who have called for caps on carbon.
    Senator Inhofe. I have something to put into the record 
also, if I might.
    Senator Boxer. Surely.
    Senator Inhofe. I would like to place into the record the 
article on the front page of the Washington Post this morning 
where they recognize that we are going through natural cycles 
and the northern hemisphere is getting a little bit warmer. Now 
it is turning around and it will start going the other way. But 
they are all rejoicing up there, the sheep farmers now have 2 
additional months, the cod fishermen are----
    Senator Boxer. Senator, I will be happy to put that into 
the record.
    Senator Inhofe. So that will be a part of the record.
    Senator Boxer. I am happy to do that.
    Senator Inhofe. There are some happy people out there 
rejoicing.
    Senator Boxer. We are going to Greenland to talk to the 
happy people up there. So I hope you will come with us.
    [Laughter.]
    Senator Boxer. Senator Klobuchar.

STATEMENT OF HON. AMY KLOBUCHAR, U.S. SENATOR FROM THE STATE OF 
                           MINNESOTA

    Senator Klobuchar. Thank you very much, Chairman and thank 
you, all of you, for coming today. I am so proud of the work we 
have been doing.
    As you know, before this new Congress came in, there were a 
lot of debates about whether or not global warming exists. I 
think that we have changed, thanks to our Chairman, the 
discussion to talking about solutions. I know that before I 
came in I was at another meeting about immigration, which we 
have been working with a number of your congregations and 
communities on this, which is also a very emotional issue.
    But I heard from my staff here that there were discussions 
by Senator Bond and others about the effect this would have on 
poor people. When I look at this climate change issue, and we 
have had several witnesses, I look at it differently. I am very 
concerned that if we don't do anything that inaction will hurt 
the poor and the more vulnerable more. I am looking at the 
studies that we have seen about the effects it is going to have 
all over the world. I think of some of my own constituents. I 
was up in northern Minnesota last week where we had rampant 
fires in the forest, and 150, 200 houses down.
    I can tell you, meeting with the people whose homes had 
been destroyed by a prolonged drought that the people with a 
lot of money who had built houses up there, they are going to 
be OK. But the waitresses and people that make a living off 
some of the tourism out there, it is not as easy for them, or 
the people who work at the ski places who told me that they 
have lost 35 percent in the last few years, because there is no 
snow. It is not as easy for the workers in those places to be 
able to have a safety net. So I look at this as a different 
issue in terms of the economics. That is not to say that we are 
not going to have to put safety nets in place for people if we 
see changes. It is our Democratic caucus which has been pushing 
for LIHEAP funding and other assistance for people who can't 
afford heating.
    But what I am interested about with this panel is that we 
have heard and I have heard from all kinds of people before, 
Governors and mayors, and we have had CEOs in, we have had a 
former Vice Admiral of the Navy, we have had a Vice President 
in, we have talked to tugboat operators, I have talked to 
boaters and snowmobilers from all over my State, and people who 
ice-fish who are concerned that it takes months for them to put 
their fish house out.
    But it is a little different here with this panel. You have 
not come to us because of your concern that it takes 42 more 
trips to haul the same amount of cargo across Lake Superior due 
to the water levels, because we have seen so much evaporation 
that the water levels in the Great Lakes are going down. You 
haven't come to us because your snowmobile business is 
shrinking or because your favorite coldwater stream no longer 
holds prize trout. You have come to us because your faith and 
the faith of those that you represent moves you.
    This morning as I was preparing this hearing, I was struck 
by a passage in the National Council of Churches' written 
statement, where it says ``The scientific community, in 
addition to providing us with a better understanding of the 
global warming threat we are facing, has also provided us with 
the knowledge of how we can solve this growing concern. 
Considering the interconnectedness of God's creation, both 
human and non-human, we must act now to protect God's planet 
and God's people, both now and in the future.'' I think that 
this eloquently sums up our mission.
    Madam Chair, we have a picture in our office, and I don't 
know where I got it, but when I was district attorney I didn't 
feel comfortable putting it up. I put it up in our Senate 
office. It is a picture of a woman holding the earth in her 
hand. The words say, the angel shrugged, and she placed the 
world in the palms of our hand, and she said, if we fail this 
time, it will be a failure of imagination.
    I think that is what we are dealing with here, as we 
approach a very challenging issue. But we have to have God on 
our side, and we have to have a mission on our side.
    So I am just very excited and honored that you are here 
today, and humbled to have you with us. Thank you.
    Senator Boxer. Thank you so much, Senator.
    Now we get to our witnesses. It is my understanding, 
Reverend Schori, you are the Presiding Bishop of the Episcopal 
Church. Are you also speaking for the National Council of 
Churches today?
    Bishop Schori. That is correct.
    Senator Boxer. OK. The National Council of Churches 
represents 45 million Americans, is that correct?
    Bishop Schori. I believe it is 100 million Americans.
    Senator Boxer. One hundred million Americans. Well, I thank 
you very much. Please go ahead, Dr. Katharine Jefferts Schori.

 STATEMENT OF THE MOST REVEREND DR. KATHARINE JEFFERTS SCHORI, 
             PRESIDING BISHOP, THE EPISCOPAL CHURCH

    Bishop Schori. Thank you. On behalf of the panel, I would 
like to express our condolences to all the Members of the 
committee at the recent death of Senator Thomas.
    Senator Boxer. Thank you.
    Bishop Schori. Know that he and his family are in our 
prayers.
    Good morning, Madam Chair, Senator Inhofe, my fellow 
panelists. It is my great honor and privilege to join you here 
this morning. I am the Most Reverend Dr. Katharine Jefferts 
Schori, elected last summer to be Presiding Bishop of the 
Episcopal Church. Thank you for inviting me to participate in 
this very important hearing on global warming.
    Before my ordination to the priesthood, I was an 
oceanographer. I learned that no life form can be studied in 
isolation from its surroundings or from other organisms. All 
living things are deeply interconnected and depend on the life 
of others. At the end of the creation account, the writer of 
Genesis tells us that God saw everything that he had made, and 
indeed, it was very good.
    While many in the faith communities represented here may 
disagree on a variety of issues, in the area of global warming 
we are increasingly of one mind. The crisis of climate change 
presents an unprecedented challenge to the goodness, 
interconnectedness and sanctity of the world God created and 
loves. As one who has been formed both through a deep Christian 
faith and as a scientists, I believe that science has revealed 
to us without equivocation that climate change and global 
warming are real, and caused in significant part by human 
activities. They are a threat not only to God's good creation, 
but to all of humanity.
    The connectedness of creation is part of what Paul meant 
when he spoke of Christians being part of the one body of 
Christ. Indeed, a later theologian, Sallie McFague, speaks of 
creation as the Body of God, out of the very same understanding 
that we are intimately and inevitably connected. We are 
connected to those who are just now beginning to suffer from 
the consequences of climate change and to those living 
generations yet to come who will either benefit from our 
efforts to curb carbon emissions or suffer from our failure to 
address the challenge that climate change presents.
    The scientific community has made clear that we must reduce 
carbon emissions globally by 15 to 20 percent by the year 2020 
and by 80 percent by the year 2050 in order to avoid the most 
catastrophic impacts of climate change. On behalf of the 
Episcopal Church and the National Council of Churches, I 
implore you to make these goals a national priority.
    To my colleagues in the faith community who doubt the 
urgency of addressing global warming, I urge you to reconsider, 
for the sake of God's good earth and all humanity. Many of us 
share a profound concern that climate change will most severely 
affect the most vulnerable and those who live in poverty. I 
want to be absolutely clear: Inaction on our part is the most 
costly of all possible courses of action for those who live in 
poverty.
    In this decade, Americans have become increasingly aware of 
extreme global poverty, the kind of poverty that kills 30,000 
people around the globe each and every day. Global poverty and 
climate change are intimately related.
    As temperature changes increase the frequency and intensity 
of severe weather events around the world, poor countries--
which often lack infrastructure--will divert resources away 
from fighting poverty in order to respond to disaster. A warmer 
climate will increase the spread of disease. Changed rain 
patterns will increase the prevalence of drought in places like 
Africa, where only 4 percent of cropped land is irrigated, and 
leave populations without food and unable to generate income.
    Climate change and poverty are linked at home, as well. In 
the United States, minorities in particular, will suffer a 
disproportionate share of the effects of climate change. The 
Congressional Black Caucus Foundation report, ``African 
Americans and Climate Change: An Unequal Burden,'' concluded 
that there is a stark disparity in the United States between 
those who benefit from the causes of climate change and those 
who bear the costs of climate change. The report finds that 
African Americans are disproportionately burdened by the health 
effects of climate change, including increased deaths from heat 
waves and extreme weather, as well as air pollution and the 
spread of infectious diseases.
    While you may debate about how to deal with climate change, 
the answer is that we must reduce carbon emissions. I find hope 
in this, because it means that the solution is good leadership 
and vision. I am reminded of the book of Proverbs that says 
that where there is no vision, the people perish.
    Congress has many of the necessary tools, through existing 
programs such as the Low-Income Home Energy Assistance Program 
and changes in tax policy to provide for middle- and low-income 
people. In the spirit of our Nation's historical 
entrepreneurial and innovative prowess, we can lead the world 
with new technologies, renewable sources of energy, and 
innovations not yet dreamed of that will allow for new markets, 
new jobs and new industries as we move away from the use of 
fossil fuels.
    Madam Chair, I will close where I began, by recalling that 
the Scriptural account of creation and God's proclamation, that 
all of it was good and the whole of it was very good. 
Ultimately, Scripture is an account of relationships, the bond 
of love between God and the world and the inter-connectivity of 
all people and all things in that world. It is only when we 
take seriously those relationships, when we realize that all 
people have a stake in the health and well-being of all others 
and of the earth itself that creation can truly begin to 
realize the abundant life that God intends for every one of us.
    I will pray for each of you and for this Congress that you 
may be graced with vision and truth. May be the peace of God be 
upon this Senate and this committee. Thank you.
    [The prepared statement of Bishop Schori follows:]

Statement of The Most Reverend Dr. Katharine Jefferts Schori, Presiding 
                     Bishop of The Episcopal Church

    God has not given us a spirit of fear, but power, and of love, and 
of a sound mind. 2 Timothy 1:7
    Good Morning. Madam Chair, Senator Inhofe, my fellow panelists, it 
is my great honor and privilege to join you here this morning. I 
appreciate your kind introduction. I am the Most Reverend Dr. Katharine 
Jefferts Schori, elected last summer to be Presiding Bishop of the 
Episcopal Church. Thank you for inviting me to participate in this very 
important hearing on global warming--which I believe to be one of the 
great human and spiritual challenges of our time.
    Before my ordination to the priesthood, I was an oceanographer and 
I learned that no life form can be studied in isolation from its 
surroundings or from other organisms. All living things are deeply 
interconnected, and all life depends on the life of others. Study of 
the Bible, and of the Judeo-Christian religious tradition, made me 
equally aware that this interconnectedness is one of the central 
narratives of Scripture. God creates all people and all things to live 
in relationship with one another and the world around them. At the end 
of the biblical creation account, the writer of Genesis tells us that 
``God saw everything that he had made, and indeed, it was very good.''
    I believe that each of us must recall ourselves to the vision that 
God has for us to realize in our own day. It is a vision in which all 
human beings live together as siblings, at peace with one another and 
with God, and in right relationship with all of the rest of creation. 
While many of the faith communities represented here today may disagree 
on a variety of issues, in the area of global warming we are 
increasingly of one mind. The crisis of climate change presents an 
unprecedented challenge to the goodness, interconnectedness, and 
sanctity of the world God created and loves. This challenge is what has 
called our faith communities to come here today and stand on the side 
of scientific truth. As a priest, trained as a scientist, I take as a 
sacred obligation the faith community's responsibility to stand on the 
side of truth, the truth of science as well as the truth of God's 
unquenchable love for the world and all its inhabitants.
    The Church's history, of course, gives us examples of moments when 
Christians saw threat, rather than revelation and truth, in science. 
The trial and imprisonment of Galileo Galilei for challenging the 
theory of a geocentric universe is a famous example of the Church's 
moral failure. For his advocacy of this unfolding revelation through 
science, Galileo spent the remainder of his life under house arrest. 
The God whose revelation to us is continual and ongoing also entrusts 
us with continual and ongoing discovery of the universe he has made.
    As one who has been formed both through a deep faith and as a 
scientist I believe science has revealed to us without equivocation 
that climate change and global warming are real, and caused in 
significant part by human activities. They are a threat not only to 
God's good creation but to all of humanity. This acknowledgment of 
global warming, and the Church's commitment to ameliorating it, is a 
part of the ongoing discovery of God's revelation to humanity and a 
call to a fuller understanding of the scriptural imperative of loving 
our neighbor.
    Each one of us is also connected with our neighbor in many 
unexpected ways. The connectedness of creation is part of what Paul 
meant when he spoke of Christians being a part of the One Body of 
Christ. Indeed a later theologian, Sallie McFague, speaks of creation 
as the Body of God, out of the very same understanding that we are 
intimately and inevitably connected.
    Each one of us is connected to those who are just now beginning to 
suffer from the consequences of climate change and to those living 
generations from now who will either benefit from our efforts to curb 
carbon emissions or suffer from our failure to address the challenge 
which climate change presents.
    The scientific community has made clear that we must reduce carbon 
emissions globally by 15 to 20 percent by 2020 and 80 percent by 2050 
in order to avoid the most catastrophic impacts of climate change. On 
behalf of the Episcopal Church, as a Christian leader representing 
today not only the concerns of Episcopalians, but the concerns of the 
many denominations that are part of the National Council of Churches, I 
implore you to make these goals a national priority. To my colleagues 
in the faith community who doubt the urgency of addressing global 
warming, I urge you to re-consider for the sake of God's good earth.
    I join many of my colleagues and many of you on this committee in 
sharing a profound concern that climate change will most severely 
affect those living in poverty and the most vulnerable in our 
communities here in the United States and around the world. I want to 
be absolutely clear; inaction on our part is the most costly of all 
courses of action for those living in poverty.
    The General Convention, (the governing body of the Episcopal 
Church), the National Council of Churches, and many Christian 
denominations have called on Congress to address both climate change 
and the needs of those living in poverty in adapting to curbs in fossil 
fuel use. On their behalf, I would like to offer into the record their 
own statements.
    Over the past five years, Americans have become increasingly aware 
of the phenomenon of global poverty--poverty that kills 30,000 people 
around the world each day--and have supported Congress and the 
President in making historic commitments to eradicating it. We cannot 
triumph over global poverty, however, unless we also address climate 
change, as the two phenomena are intimately related. Climate change 
exacerbates global poverty, and global poverty propels climate change.
    Let me give you a few examples. As temperature changes increase the 
frequency and intensity of severe weather events around the world, poor 
countries--which often lack infrastructure such as storm walls and 
water-storage facilities--will divert resources away from fighting 
poverty in order to respond to disaster. A warmer climate will also 
increase the spread of diseases like malaria and tax the ability of 
poor countries to respond adequately. Perhaps most severely, changed 
rain patterns will increase the prevalence of drought in places like 
Africa, where only four percent of cropped land is irrigated, leaving 
populations without food and hamstrung in their ability to trade 
internationally to generate income. By 2020, between 75 and 250 million 
Africans are projected to be exposed to an increase of water stress due 
to climate change.
    Conversely, just as climate change will exacerbate poverty, poverty 
also is hastening climate change. Most people living in poverty around 
the world lack access to a reliable energy source, an imbalance that 
must be addressed in any attempt to lift a community out of poverty. 
Unfortunately, financial necessity forces many to choose energy sources 
such as oil, coal or wood, which threaten to expand significantly the 
world's greenhouse emissions and thus accelerate the effects of climate 
change. This cycle--poverty that begets climate change, and vice 
versa--threatens the future of all people, rich and poor alike.
    This relationship between deadly poverty and the health of creation 
was not lost on the world's leaders when, at the turn of the 21st 
century, they committed to cut global poverty in half by 2015. Their 
plan, which established the eight Millennium Development Goals, 
included a specific pledge of environmental sustainability. This year 
marks the halfway point in the world's effort to achieve these goals, 
and while progress has been impressive in some places, we are nowhere 
close to halfway there. Addressing climate change is a critical step 
toward putting the world back on track.
    Climate change and poverty are linked at home as well. We know that 
those living in poverty, particularly minorities, in the United States 
will suffer a disproportionate share of the effects of climate change. 
In July of 2004, the Congressional Black Caucus Foundation released a 
report entitled African Americans and Climate Change: An Unequal Burden 
that concluded ``there is a stark disparity in the United States 
between those who benefit from the causes of climate change and those 
who bear the costs of climate change.'' The report finds that African 
Americans are disproportionately burdened by the health effects of 
climate change, including increased deaths from heat waves and extreme 
weather, as well as air pollution and the spread of infectious 
diseases. African American households spend more money on direct energy 
purchases as a percentage of their income than non African Americans 
across every income bracket and are more likely to be impacted by the 
economic instability caused by climate change, than other groups. That 
report makes a strong case for our congressional leaders to propose 
legislation to reduce carbon emissions that does not put a greater 
share of the cost on those living in poverty.
    Climate change is also disproportionately affecting indigenous 
cultures. Nowhere is this more evident than in our Lutheran brothers' 
and sisters' northernmost congregation, Shishmaref Lutheran Church, 
located 20 miles south of the Arctic Circle on the Chukchi Sea, Alaska. 
The forces unleashed by global climate change are literally washing 
away the earth on which these 600 Inupiat Eskimos live. Due to 
increased storms, melting sea ice, thawing permafrost, and rising sea 
levels, their island home will soon be under water. They must uproot 
themselves and their 4,000 year-old culture and find a new place to 
live.
    In other parts of the Arctic, the exploitation of fossil fuels that 
contribute to global warming threaten both the subsistence rights of 
the Gwich'in people--more than 90 percent of whom are Episcopalian--and 
their culture as well. The calving grounds of the Porcupine Caribou in 
Alaska's North Slope are sacred to the Gwich'in people and the 
Episcopal Church supports the Gwich'in in calling for full protection 
of the Arctic National Wildlife Refuge.
    Science, regardless of the field, is the pursuit of answers to 
questions that scientists raise in observing creation. While there may 
be great debate about how to deal with climate change, in fact the 
answer is known and the solution is clear. We must reduce carbon 
dioxide emissions. I find hope in this because it means the solution is 
simply good leadership and vision. And I am reminded by the Book of 
Proverbs that where there is no vision, the people perish.
    In addressing climate change, Congress already has many of the 
necessary tools--through existing programs and resources that could 
aggressively help those with limited means to adapt to climate change. 
Tax policy can be adjusted and targeted to encourage middle and low 
income taxpayers to take advantage of new technologies or to adjust to 
potentially higher energy costs. The Low Income Home Energy Assistance 
Program could be fully funded and expanded where necessary to protect 
the neediest among us. Other policy options include a cap and trade 
system with a directed revenue stream that could be used to help 
vulnerable communities to access new technologies, equipment, or 
appliances.
    In the spirit of our nation's historic entrepreneurial and 
innovative prowess, we can also find opportunity to lead the world with 
new technologies, renewable sources of energy and innovations not yet 
dreamed of, that will allow for new markets, new jobs, new industries 
and the ability to provide job training and transition for American 
workers as we move away from the use of fossil fuels.
    Those innovations can benefit all of humanity. As the National 
Academies report ``Understanding and Responding to Climate Change'' 
concluded: ``Nations with wealth have a better chance of using science 
and technology to anticipate, mitigate, and adapt to sea-level rise, 
threats to agriculture, and other climate impacts. . .The developed 
world will need to assist the developing nations to build their 
capacity to meet the challenges of adapting to climate change.''
    Madam chair, I will close where I began, by recalling the 
Scriptural account of creation and God's proclamation that each piece 
of it was good, and that the whole of it--when viewed together and in 
relationship--was very good. Ultimately, scripture is an account of 
relationships: the bond of love between God and the world, and the 
interconnectivity of all people and all things in that world. It is 
only when we take seriously those relationships--when we realize that 
all people have a stake in the health and well-being of all others and 
of the Earth itself--that creation can truly begin to realize the 
abundant life that God intends for every one of us.
    As I conclude I offer you this prayer from the Episcopal Book of 
Common Prayer:
    ``O merciful Creator, your hand is open wide to satisfy the needs 
of every living creature; Make us always thankful for your loving 
providence; and grant that we, remembering the account that we must one 
day give, may be faithful stewards of your good gifts; through Jesus 
Christ our Lord, who with you and the Holy Spirit lives and reigns, one 
God, for ever and ever. Amen''--BCP page 239.
    I will pray for each of you and for this Congress that you will be 
graced with vision and truth. May the Peace of God be upon this Senate 
and this Committee. Thank you.

    Senator Boxer. Thank you so much for your eloquence.
    Now we turn to John Carr, the secretary of the Department 
of Social Development and World Peace, of the U.S. Conference 
of Catholic Bishops. As I understand it, that is 69 million 
people, correct?
    Mr. Carr. On a good day.
    [Laughter.]
    Senator Boxer. Well, this is a very good day to have you 
all here.

  STATEMENT OF JOHN L. CARR, SECRETARY, DEPARTMENT OF SOCIAL 
   DEVELOPMENT AND WORLD PEACE, U.S. CONFERENCE OF CATHOLIC 
                            BISHOPS

    Mr. Carr. My name is John Carr, and I am honored to be a 
part of this important and timely hearing, and this 
distinguished panel. It is obvious I am not a presiding bishop 
and I am not a rabbi, I am not a scientist and I am not a 
Senator, but I think I may have the most pompous title in the 
room. You stumbled over it.
    I am secretary for Social Development and World Peace for 
the U.S. Catholic Bishops. I was once introduced with that 
rather pompous title in an elevator to a woman and she looked 
at me and said, ``You need to do a better job.''
    [Laughter.]
    Mr. Carr. What this hearing is about is we all need to do a 
better job. We need to do a better job of protecting both God's 
people and God's planet. The Catholic Bishops Conference 
welcomes this important and timely hearing on an issue that 
clearly affects God's creation and the entire human family. We 
believe our response to global climate change will be a moral 
measure of our Nation's leadership and stewardship.
    In their statement Climate Change: A Plea for Dialogue, 
Prudence and the Common Good, the U.S. Catholic Bishops insist, 
at its core, global climate change is not simply about economic 
theory or political platforms, nor about partisan advantage or 
interest group pressure. Rather, global climate change is about 
the future of God's creation and the one human family. It is 
about our human stewardship of God's creation and our 
responsibility to those generations who will succeed us. If we 
harm the atmosphere, we dishonor our Creator and the gift of 
creation.
    The Bishops' approach to climate change in this statement 
is nuance, not alarmist, traditional, not trendy. Our church 
has been called a lot of things, I have never heard us called 
trendy. It is an expression of faith, not politics. For us, 
this concern began with Genesis, not Earth Day.
    The Catholic Church has focused on these challenges at the 
highest level, and on a global basis, at the Vatican, by other 
Bishops' conferences and the teaching of the Holy Father. In 
light of the new initiatives in the Congress, the 
Administration and now at the G-8, this is a crucial time to 
buildup the common ground for common action to pursue the 
common good for all of God's children and creation.
    The Bishops Conference has sought to listen and learn and 
discern the moral dimensions of climate change. The Bishops 
accept the growing consensus on climate change, represented by 
the IPCC, but also recognize continuing debate and some 
uncertainties. However, it is neither wise nor useful to 
minimize the consensus, the uncertainties or the policy 
challenges.
    The U.S. Catholic Bishops seek to offer constructive 
contribution as a community of faith, not an interest group. We 
are not the Sierra Club at prayer. We are not the Catholic 
Caucus of the coal lobby. The Catholic Bishops seek to help 
shape this debate by drawing on three traditional moral 
principles. First, prudence. This old-fashioned virtue suggests 
that we do not have to know everything to know that human 
activity is contributing to climate change with serious 
consequences for both the planet and for people, especially the 
poor and vulnerable. Prudence tells us that we know that when a 
problem is serious and worsening, it is better to act now 
rather than wait until more drastic action is required.
    Second, the common good. The debate over climate change is 
too often polarized and may in fact be paralyzed. Climate is a 
preeminent example of we are all in this together. This ethic 
of solidarity requires us to act to protect what we hold in 
common, not just our own interests. The Bishops Conference, 
working with the new Catholic Coalition on Climate Change, is 
participating in gatherings, promoting the search for common 
ground and the common good, among religious leaders, public 
officials and representatives from business, labor and 
environmental groups and those most affected. We have already 
been part of this in Florida, in Ohio and I this past weekend 
was in Alaska and saw this first-hand.
    Third principle: priority for the poor. We should look at 
climate change from the bottom up. The real inconvenient truth 
is that those who contribute least to climate change will be 
affected most and have the least capacity to cope or escape. 
The poor and vulnerable are most likely to pay the price of 
inaction or unwise action. We know from our everyday experience 
that their lives, homes, children and work are at most at risk. 
We also know from bitter experience who gets left behind in 
catastrophes.
    We must act to ensure that their voices are heard, their 
needs addressed and their burdens eased as our Nation and the 
world addresses climate change. This priority for the poor 
cannot be a marginal concern in climate policy, but rather must 
be a central focus of legislation and policy choices. Responses 
to climate change need to provide significant new resources to 
help those at greatest risk and least able to cope. If we do 
not address climate change and poverty together, we will fail 
both morally and practically. Human creativity, 
entrepreneurship and economic markets can help develop the 
knowledge and the technology to make progress and limit the 
damage. Sharing these tools is prudent policy and a requirement 
of solidarity and justice.
    The Catholic Bishops Conference looks forward to working 
with this committee. I wish to submit for the record an appeal 
for action along these lines from Bishop Thomas Lenski, chair 
of the Bishops International Committee.
    Senator Boxer. Without objection, it will be so.
    Mr. Carr. These are not easy matters, nor do they have easy 
answers. But the religious community can reaffirm our 
traditional message of restraint, moderation and sacrifice for 
our own good, the good of the least of these and the good of 
God's creation. We are convinced that the moral measure of 
decisions on climate change will be whether we act with 
prudence to protect God's creation, advance the common good and 
protect the lives and lift the burdens of the poor. Both faith 
and our national values call us to these essential moral 
priorities.
    Thank you.
    [The prepared statement of Mr. Carr follows:]

Statement of John L. Carr, Secretary, Department of Social Development 
          and World Peace, U.S. Conference of Catholic Bishops

                              INTRODUCTION

    I am John Carr, Secretary of the Department of Social Development 
and World Peace of the United States Conference of Catholic Bishops 
(USCC13). At a time of growing attention to the challenges of global 
climate change, the United States Catholic Bishops welcome these 
hearings and your leadership on an issue that clearly affects God's 
creation and the entire human family.
    The religious leaders here today share an abiding love for God's 
gift of creation and the biblical mandate and moral responsibility to 
care for creation. As people of faith. we are convinced that ``the 
earth is the Lord's and all it holds.'' (PS 24:1) Our Creator has given 
us the gift of creation: the air we breathe, the water that sustains 
life, the climate and environment we share--all of which God created 
and found ``very good.'' (GEN: 1:31) We believe our response to global 
climate change is a sign of our respect for God's creation and moral 
measure of our nation's leadership and stewardship.
    A decade ago, the U.S. Catholic bishops insisted that
    ``(A)t its core, global climate change is not simply about economic 
theory or political platforms, nor about partisan advantage or interest 
group pressures. Rather, global climate change is about the future of 
God's creation and the one human family. It is about protecting both 
the `human environment' and the natural environment. It is about our 
human stewardship of God's creation and our responsibility to those 
generations who will succeed us... As people of faith, we believe that 
the atmosphere that supports life on earth is a God-given gift, one we 
must respect and protect. It unites us as one human family. If we harm 
the atmosphere, we dishonor our Creator and the gift of creation.'' 
(Global Climate Change: A Plea for Dialogue, Prudence and the Common 
Good, U.S. Catholic Bishops, 2001).
    With new initiatives in Congress, by the Administration, and at the 
08 Summit meeting, this is an essential time to build up the common 
ground for common action to pursue the common good for all of God's 
children and creation. On climate change, it is now time to act with 
clear harrow, creativity, care and compassion, especially for our 
sisters and brothers who will suffer the most from past neglect and, if 
we turn our back, our future indifference.

              CLIMATE CHANGE AND THE U.S. CATHOLIC BISHOPS

    The Catholic Bishops are not scientists, climate experts, or policy 
makers. They are moral teachers, pastors, and leaders. For a decade, 
the USCCB has sought to listen, learn, and discern the moral dimensions 
of climate change. The bishops accept the growing consensus on climate 
change represented by the International Panel on Climate Change, but 
also recognize continuing debate and some uncertainties about the speed 
and severity of climate change. However, it is not wise or useful to 
either minimize or exaggerate the uncertainties and challenges we face.
    The U.S. Catholic Bishops seek to offer a constructive, 
distinctive, and authentic contribution based on our religious and 
moral teaching and our pastoral service, especially among the poor in 
our country and around the world. For us this is not a new concern, but 
a call to apply traditional values to new challenges. It is:
    <bullet> Distinctive in voicing the principled concerns of a 
community of faith, not an interest group. We are not the Sierra Club 
at prayer or the Catholic caucus of the coal lobby.
    <bullet> Authentic in drawing directly on traditional principles of 
the Catholic Church--the life and dignity of the human person, the 
option for the poor, subsidiarity and solidarity, as well as the duty 
to care for God's creation.
    In this testimony, I draw directly on an unprecedented statement of 
the entire body of United States bishops, Global Climate Change: Plea 
for Dialogue, Prudence and the Common Good. This statement is nuanced, 
not alarmist. It is traditional, not trendy. It is an expression of 
faith, not politics. For us, this began with Genesis not Earth Day. I 
also submit to the Committee a recent appeal for action which reflects 
the demands of prudence, the pursuit of the common good, and a priority 
for the poor from the Chair of the Bishop's Committee on International 
Policy, Bishop Thomas Wenski, to leaders of Congress, the 
Administration, business, environmental organizations, and other 
groups.

                           A MORAL FRAMEWORK

    The USCCB's approach to climate change reflects these three central 
and traditional ideas: the virtue of prudence, the pursuit of the 
common good, and the duty to stand with and for the poor and 
vulnerable.
    Prudence--This old fashioned virtue suggests that while we may not 
know everything about global climate change we know that something 
significant is occurring. We do not have to know everything to know 
that human activity is contributing to significant changes in the 
climate with serious consequences for both the planet and for people, 
especially those who are poor and vulnerable. Prudence requires wise 
action to address problems that will most likely only grow in magnitude 
and consequences. Prudence is not simply about avoiding impulsive 
action, picking the predictable course, or avoiding risks, but it can 
also require biking bold action weighing available policy alternatives 
and moral goods and taking considered and decisive steps before the 
problems grow worse. Prudence tells us that ``we know that when a 
problem is serious and worsening it is better to act now rather than 
wait until more drastic action is required.'' (Global Climate Change, A 
Plea for Dialogue, Prudence and the Common Good, U.S. Catholic Bishops, 
2001.)
    Common Good.--The debate over climate change is too often polarized 
by powerful stakeholders seeking to advance their own agendas and 
interests and using or misusing science for their own purposes. 
However, the universal nature of climate change requires a concerted 
and persistent effort to identify and pursue the common good on climate 
with an attitude of ``we are all in this together.'' This ethic of 
solidarity requires us to act to protect what we hold in common, not 
just to protect our own interests.
    Our response to climate change should demonstrate our commitment to 
future generations. We believe solidarity also requires that the United 
States lead the way in addressing this issue and in addressing the 
disproportionate burdens of poorer countries and vulnerable people. 
This is not simply a technical question of drafting legislation and 
fashioning agreements, but rather, a deeper question of acting 
effectively on our moral obligations to the weak and vulnerable and how 
to share blessings and burdens in this area with justice.
    In building up common ground for the common good, the Catholic 
community is actively promoting dialogue among different sectors, 
interests, and groups. Recently, the Bishops' Conference working with a 
new Catholic Coalition on Climate Change has been a part of three 
state-wide gatherings in Florida, Ohio, and this past weekend in 
Alaska. These remarkable sessions brought together public officials, 
leaders from business, labor, environment and religion. Last Saturday, 
we heard from those already affected by climate change including the 
Administrator of Newtok, Alaska, which is already being destroyed by 
erosion, flooding, and other forces. We believe that such gatherings 
can create an environment of dialogue and common ground for common 
action on climate change.
    The Catholic Church is focused on these challenges at the highest 
levels and on a global basis. Recently, I had the honor of representing 
the U.S. Conference of Catholic Bishops at a major Vatican convening on 
global climate change. These themes have been a constant and persistent 
part of the teaching of both Pope Johns Paul II and now Benedict XVI. 
Pope John Paul II insisted that climate is a good that must be 
protected and that ``it is the task of the State to provide for the 
defense and preservation of common goods such as the natural and human 
environments, which cannot be safeguarded simply by market forces...'' 
(Centesimus Annus, #40.) Pope Benedict XVI has expressed his own view 
saying that `(E)nvironmental pollution is making particularly 
unsustainable the lives of the poor of the world.'' (Angelus address on 
Sunday, Aug. 27, 2006.)
    A Priority for the Poor.--While we are In this together,'' some are 
contributing more to the problem while others bear more of the burdens 
of climate change and the efforts to address it. We should look at 
climate change from the ``bottom-up'' for how it touches the poor and 
vulnerable. Pope Benedict XVI, in his powerful encyclical, Deus Caritas 
Eft, insists care for ``the least of these'' is a defining religious 
duty. It is also a moral and public responsibility. The same message 
was just given to 1.3-8 leaders in an unprecedented letter from the 
Presidents of seven Catholic bishops' conferences on June 1.\1\
---------------------------------------------------------------------------
    \1\ The Summit Agenda includes global climate change, an issue of 
particular concern to people of faith who are committed to protecting 
God's creation. In this regard, we have a special concern for the poor. 
As a result of where they live and their limited access to resources, 
the poor will cxpenence most directly the harmful effects of climate 
change and the burdens of any measures to address it, including 
potential escalating energy costs, worker displacement and health 
problems. This is true LI our own countries as well as in Africa and 
elsewhere. While there are many technical aspects that need to be 
considered in addressing global climate change, we recognize our moral 
responsibility of good stewardship. Our actions and decisions, 
particularly those regarding our use of energy resources have a 
profound effect today and on future generations. The costs of 
initiatives to prevent and mitigate the harmful consequences of climate 
change should be borne more by ocher persons and nations who have 
benefited most from the harmful emissions that fueled development and 
should not be placed on the shoulders of the poor.'' Letter on the 
occasion of the G-8 Summit to leaders of the Group of 8 Countries by 
the Presidents of the Catholic Bishops' Conferences of Germany, Canada, 
Japan. France, England and Wales, Russia and the United States, June 1, 
2007.
---------------------------------------------------------------------------
    With due respect for former Vice-President Gore, the real 
``inconvenient truth'' is that those who contributed least to climate 
change will be affected the most; those who face the greatest threats 
will likely bear the greatest burdens and have the least capacity to 
cope or escape. We should come together to focus more on protecting the 
poor than protecting ourselves and promoting narrow agendas. Many cite 
concern for the poor on both sides of this issue. We hope that the poor 
will not be ignored or misused either in postponing action or choosing 
policies that balm the poor more than help them, or as excuses to not 
take action.
    This passion and priority for the poor comes from Catholic teaching 
and our Church's experience in serving and standing with those in need. 
Catholic Relief Services is in 100 countries serving the poorest people 
on earth. We see with our on eyes that poor people in our country and 
in poor countries often lack the resources and capacity to adapt and 
avoid the negative consequences of climate change. Their lives, homes, 
children, and work are most at risk. ironically, the poor and 
vulnerable generally contribute much less to the problem but are more 
likely to pay the price of neglect and delay and bear disproportionate 
burdens of inaction or unwise actions. We know from bitter experience 
who is left behind when disaster strikes.
    Sadly, the voices and presence of the poor and vulnerable are often 
missing in the debates and decisions on climate change. This Committee 
and the religious community have an obligation to help make sum their 
voices are heard, their needs addressed, and their burdens eased as our 
nation and the world address climate change.
    From an international perspective, climate change is C large part 
an issue of ``sustainable development.'' The poor have a need and light 
to develop to overcome poverty and live in dignity. More affluent 
nations have a responsibility to encourage and help in this 
development. In light of climate change, our assistance must also help 
safeguard the environment we share as a human family.
    This priority for the poor in climate policy cannot be a marginal 
concern, but rather must be a central measure of future choices. If we 
do not address climate change and global poverty together, we will fail 
both morally and practically. There can be no option for the earth 
without a preferential option for the poor. We cannot protect the earth 
and ignore the ``wretched of the earth.''Therefore, response to climate 
change aneed to provide significant new resources in addressing and 
overcoming poverty and providing for sustainable development at home 
and abroad. Under proposals to reduce gfreenhouse gas emission--whether 
to cap and trade, adopt carbon taxes, or implement other measures--the 
significant resources raised should be used for public purposes, 
especially to reduce the disproportionate burdens of those least able 
to bear the impacts of climate change. A significant portion of the 
resources generated should be dedicated to helping low-income 
communities in the United States, poorer nations, vulnerable 
populations, and workers dislocated by climate change adjustments.
    We believe ingenuity, creativity, entrepreneurship, and economic 
markets can play essential roles in developing the knowledge, 
technology, and measures to make progress and limit the damage. We also 
believe that wealthier industrialized nations should find effective 
ways to share appropriate technology and knowledge with less-developed 
countries as prudent policy, acts of social justice, and signs of 
solidarity.

                          SOME POLICY CRITERIA

    As the Congress, the Administration, and others move from whether 
climate change is occurring to what to do about it, we offer some 
general directions and possible examples for the Committee to consider.
    <bullet> Richer countries should take the lead, particularly the 
United States, in addressing climate change and the moral, human, and 
envimnmental costs of addressing it.
    <bullet> Low-income communities and countries have the same right 
as we do to economic and social development to overcome poverty and 
need help in ways that do not harm the environment and contribute to a 
worsening of global climate change.
    <bullet> U.S. policy should promote the policies and practices of 
developing countries to focus on ``real'' sustainable development.
    <bullet> Richer countries should find suitable ways to make 
available appropriate technologies to low-income countries.
    <bullet> Funds generated from cap and trade programs or carbon 
taxes should be used for public purposes with a significant portion 
dedicated to help the poor in our country and around the world address 
the costs of climate change and responses to it.

                               CONCLUSION

    The United States Conference of Catholic Bishops looks forward to 
working with this Committee and other leaders to address the moral and 
ethical dimensions of global climate change. We do so with both modesty 
and respect. While there are no easy answers, the religious community 
has moral principles, everyday experience, engaged people and leaders 
to make a constructive contribution to climate change debate and 
decisions. The religious community can re-affirm and re-articulate our 
traditional message of restraint, moderation, and sacrifice for our own 
good and the good of God's creation.
    Today, we particularly seek your support and leadership to shape 
responses that respect and protect the lives and the dignity of poor 
families and children here and abroad. We are convinced that the moral 
measure of debate and decisions on climate change will be whether we 
act with prudence to protect God's creation, advance the common good, 
and lift the burdens on the poor. Both our faith and the best of our 
national values call us to these essential tasks.
    Thank you.

    Senator Boxer. Thank you, sir, very much.
    Now we turn to the Reverend Jim Ball, Evangelical Climate 
Initiative, as I understand it, representing over 100 signatory 
evangelical ministers. Is that correct?
    Rev. Ball. Yes, ma'am.
    Senator Boxer. Sir, welcome. Go ahead.

  STATEMENT OF THE REVEREND JIM BALL, Ph.D., SIGNATORY TO THE 
                 EVANGELICAL CLIMATE INITIATIVE

    Rev. Ball. Good morning, thank you, Chairwoman Boxer and 
Senator Inhofe, for the opportunity to testify before you and 
the committee. It is an honor to be here.
    My name is the Reverend Jim Ball. I am an evangelical 
Christian who professes Jesus Christ to be my personal Savior 
and Lord. I am also president and CEO of the Evangelical 
Environmental Network, and I am testifying before this 
committee as a signatory of the Evangelical Climate Initiative, 
a group of more than 100 senior evangelical leaders who believe 
that a vigorous response to global warming is a spiritual and 
moral imperative.
    We see today a growing number of religious and national 
leaders, including last week President Bush who acknowledged 
recent scientific reports that the human contribution to 
climate change is virtually certain. This human contribution 
makes concrete action to reduce global warming pollution an 
inescapably spiritual act.
    The leaders of the Evangelical Climate Initiative include 
mega-church pastors such as Rick Warren, author of ``The 
Purpose Driven Life,'' Leith Anderson, president of the 
National Association of Evangelicals, and Bill Hybels of 
Willowcreek Community Church in the Chicago area. Others 
include Richard Stearns, president of World Vision U.S., the 
largest Christian relief and development organization in the 
world; Todd Bassett, former national commander of the Salvation 
Army, the largest charity in the United States; and David 
Clark, former chairman of the National Religious Broadcasters.
    Some evangelical leaders have not yet joined in this 
campaign, but today, it is clear that to be concerned about 
global warming is recognized as a distinguishing characteristic 
of new evangelical leadership coming to the fore. It is not 
only evangelical leaders who are concerned. A just-released 
national poll of evangelicals revealed that 70 percent believe 
global warming will pose a serious threat to future 
generations. And 64 percent believe that we must start 
addressing it immediately.
    The Evangelical Climate Initiative's call to action 
statement makes four basic claims. No. 1, human-induced climate 
change is real. We believe the science is settled, and it is 
time to focus on solving the problem. No. 2, the consequences 
of climate change will be significant and will hit the poor the 
hardest. Evangelicals care about what happens to the poor. We 
have donated billions of dollars over the years to our relief 
agencies to combat the very problems global warming will make 
worse: water scarcity, hunger and malnutrition, basic health 
concerns and the problem of refugees.
    As my written testimony details, billions will be affected, 
millions threatened with death. The ECI believes that when you 
look at the consequences of global warming, you understand that 
the problem has been framed incorrectly. It is not primarily an 
environmental problem. It is the major relief and development 
problem of the 21st century, because it will make all of their 
problems much worse. That is why those who lead most of the 
Nation's major relief and development agencies have become ECI 
leaders.
    Our No. 3 ECI claim is that Christian moral convictions 
demand our response. The ECI leaders believe that Jesus' 
commands to love God and our neighbor, to do unto others as we 
would have them do unto us, to care for the least of these, as 
if they were Christ himself, and to steward or care for His 
creation as He would all require us to respond to climate 
change with moral passion and concrete action.
    The ECI's No. 4 claim is that the need to act now is 
urgent. Governments, churches, business and individuals all 
have a role to play. Churches have a vital role in educating 
their members about the teachings of Jesus that can be applied 
to this and other important moral issues, and of modeling good 
behavior through our facilities and programs.
    We commend businesses who have taken the lead, such as Wal-
Mart, ConocoPhillips, General Motors and General Electric. They 
will do well by doing good.
    As for governments, we praise the many Governors and States 
who have taken the lead, especially two Republican Governors 
who have signed laws that require an 80 percent reduction of 
CO<INF>2</INF> by 2050: Governor Schwarzenegger of California 
and Pawlenty of Minnesota, who is an evangelical Christian. To 
help Congress understand our views, we have created a document 
entitled Principles for Federal Policy on Climate Change, and I 
have attached it to my written testimony and ask that it be 
included in the record.
    Based upon the latest findings of the Intergovernmental 
Panel on Climate Change and in agreement with Governors 
Schwarzenegger and Pawlenty, we believe that in the United 
States, reductions on the order of 80 percent by 2050 will be 
necessary. We should solve the problem by harnessing the power 
of the market and by protecting property rights. We support a 
cap and trade approach. In our special concern for the poor, we 
also urge Congress to make sure that any climate policies are 
not regressive.
    Finally, let me say that we are optimistic. The challenge 
is larger, but our vision, our beliefs, our values, are larger. 
Some are fearful of tackling global warming, but where others 
fear to go, we see opportunity to do well by doing good. We 
have the opportunity to unite our country and indeed, the 
world, in a common cause to create a better future for our 
children to make sound investments for their well-being.
    Moses, the great lawgiver, excuse me, Rabbi, in his 
farewell address to the Hebrews, set before them the paths of 
life and death: life by loving God and doing His will, and 
death by forsaking God and His commands. He said, ``I call 
heaven and earth to witness against you today that I have set 
before you life and death, blessings and curses. Choose life, 
so that you and your descendants may live.'' Let us choose life 
this day by addressing global warming. Thank you.
    [The prepared statement of Reverend Ball follows:]

Statement of The Reverend Jim Ball, Ph.D., Signatory to the Evangelical 
                           Climate Initiative

    Good morning. Thank you Chairwoman Boxer and Senator Inhofe for the 
opportunity to testify before you and the Environment and Public Works 
Committee. It is an honor to be here.
    My name is the Reverend Jim Ball. I am an evangelical Christian who 
professes Jesus Christ to be my personal Savior and Lord. I am 
president and CEO of the Evangelical Environmental Network (EEN) and I 
am testifying before this committee as a signatory of the Evangelical 
Climate Initiative, a group of more than 100 senior evangelical leaders 
who believe that a vigorous response to global warming is a spiritual 
and moral imperative--now recognized as such by a majority of 
evangelical Christians and taken seriously by a new generation of 
evangelical leaders.
    None of the witnesses before this committee today--except for 
Bishop Jefferts Schori--is a scientist. But some of us--myself 
included--have studied the developing science for many years, and we 
see today a growing number of religious and national leaders, including 
last week President Bush, who acknowledge recent scientific reports 
that the human contribution to climate change is virtually certain. 
This human contribution makes concrete action to reduce global warming 
pollution an inescapably spiritual act.

   INTRODUCTION: THE EVANGELICAL CLIMATE INITIATIVE (ECI) WITHIN THE 
                          EVANGELICAL CONTEXT

    The Evangelical Climate Initiative was launched on February 8, 
2006. Evangelical leaders who are part of the ECI include megachurch 
pastors such as Rick Warren, author of the ``Purpose Driven Life'', 
Leith Anderson of Wooddale Church in St. Paul who is also president of 
the National Association of Evangelicals, Bill Hybels of Willowcreek 
Community Church in the Chicago area, and Joel Hunter of Northland 
Church near Orlando.
    ECI leaders include Richard Stearns of World Vision U.S., the 
largest Christian relief and development organization in the world; 
Todd Bassett, former national commander of the Salvation Army, the 
largest charity in the U.S., Duane Litfin, president of Wheaton 
College, perhaps evangelicalism's most prestigious institution of 
higher learning, David Neff, editor of ``Christianity Today'', and 
David Clark, former chairman of the National Religious Broadcasters and 
founding Dean of Regent University.
    Denominational leaders who joined the ECI include: Dr. Jack 
Hayford, president, International Church of the Foursquare Gospel; Rev. 
Michael J. Glodo, former stated clerk, Evangelical Presbyterian Church; 
Dr. Peter Borgdorff, executive director emeritus, Christian Reformed 
Church; Bishop James D. Leggett, general chair, Pentecostal World 
Fellowship; Rev. Glenn R. Palmberg, president, Evangelical Covenant 
Church, and all of the bishops of the Free Methodist Church of North 
America.
    Some evangelical leaders have not yet joined in this campaign, but 
today it is clear that to be concerned about global warming is 
recognized as a distinguishing characteristic of new evangelical 
leadership coming to the fore, leadership that--while embracing the 
vital concerns of every generation of evangelical Christians--is 
challenging our spiritual community and our national leaders to focus 
on a broader set of issues.\1\
---------------------------------------------------------------------------
    \1\ ``Emphasis Shifts for New Breed of Evangelicals'' in the May 
21, 2007 New York Times cites the ECI as an example of the maturing of 
the evangelical church.
    http://www.nytimes.com/2007/05/21/us/21evangelical.html?pagewanted= 
1&en=a2a799f19fee40e3&ex=337486400&partner=ermalink&exprod=permalink 
&ei=5124. See also an editorial in Christianity Today, http://
www.christianitytoday.com/42965.
---------------------------------------------------------------------------
    The ECI's Call to Action begins by stating that:

          We are proud of the evangelical community's long-standing 
        commitment to the sanctity of human life. But we also offer 
        moral witness in many venues and on many issues. Sometimes the 
        issues that we have taken on, such as sex trafficking, genocide 
        in the Sudan, and the AIDS epidemic in Africa, have surprised 
        outside observers. While individuals and organizations can be 
        called to concentrate on certain issues, we are not a single-
        issue movement. We seek to be true to our calling as Christian 
        leaders, and above all faithful to Jesus Christ our Lord. Our 
        attention, therefore, goes to whatever issues our faith 
        requires us to address.\2\

    \2\ The official site of the Evangelical Climate Initiative is 
www.christiansandclimate.org. The ECI statement, Climate Change: An 
Evangelical Call to Action, can be found at http://
www.christiansandclimate.org/statement, both as html and pdf. The 
present quotation can be found in the printed or pdf version in the 
Preamble on page 2.
---------------------------------------------------------------------------
    In the statement, the ECI leaders affirm that ``For most of us, 
until recently this has not been treated as a pressing issue or major 
priority. Indeed, many of us have required considerable convincing 
before becoming persuaded that climate change is a real problem and 
that it ought to matter to us as Christians.''\3\
---------------------------------------------------------------------------
    \3\ Ibid.
---------------------------------------------------------------------------
    But once convinced, the ECI leaders have remained true to their 
pledge even in the face of criticism and pressure to recant by some 
members of the community.\4\
---------------------------------------------------------------------------
    \4\ When the ECI launched on February 8, 2006, there were 86 
signatories to the statement. Since then 20 have asked that their names 
be added while three have asked for their names to be removed, bringing 
the current total to 103.
---------------------------------------------------------------------------
    It is not only evangelical leaders who are concerned. A national 
poll of evangelicals conducted by Ellison Research in September 2005 
revealed that:
    <bullet> 70 percent believe global warming will pose a serious 
threat to future generations;
    <bullet> 63 percent believe that although global warming may be a 
long-term problem, it is being caused today and therefore we must start 
addressing it immediately;
    <bullet> 51 percent said that steps should be taken to reduce 
global warming, even if there is a high economic cost to the U.S.\5\
---------------------------------------------------------------------------
    \5\ A brief report by Ellison Research on the national poll of 
evangelicals they conducted in September 2005 is available at: http://
www.christiansandclimate.org/press.
---------------------------------------------------------------------------
    Finally, many of our ECI leaders have seen that it is evangelicals 
30-and-under who are increasingly concerned about environmental or 
creation-care problems in general and global warming in particular. 
These anecdotal reports are backed up by a recent Pew poll showing a 
significant difference between older and younger evangelicals in their 
concern about creation-care or environmental issues: 59 percent of 
those 18-to-30 were concerned that the country was ``losing ground'' on 
environmental problems, while only 37 percent of older evangelicals 
thought so.\6\ On other issues this poll found no significant 
difference between older and younger evangelicals. Younger evangelicals 
are looking for leadership in the area of creation-care. The leaders of 
the ECI are supplying it.
---------------------------------------------------------------------------
    \6\ Pew Research Center Survey, February 7, 2007.
---------------------------------------------------------------------------
    Thus, in the evangelical community there is widespread concern 
about global warming, and our ECI leaders are helping to lead the way 
into the future in calling for significant action.
           the message of the evangelical climate initiative
    We estimate, based on extensive media coverage and national 
advertising, that the message of the ECI has been heard by more than 30 
million Americans.\7\ And what is that message?
---------------------------------------------------------------------------
    \7\ This estimate is based upon the fact that all three major 
newscasts ran stories, and we had 300-plus news articles, not counting 
radio and local TV coverage. To ensure our evangelical audience 
received the message, our TV spot ran for two weeks on popular evening 
shows on Fox News and on Pat Robertson's 700 Club; in addition, our 
radio spot ran for two weeks on popular shows on Christian radio.
---------------------------------------------------------------------------
    The ECI's Call to Action makes four basic claims.
    1. Human-induced climate change is real.-- As Christian leaders who 
are not scientific experts in climate change we rely on the world's 
leading scientists to provide the best scientific information upon 
which we can make moral judgments. As referenced in our Call to Action, 
in making our first claim that human-induced climate change is real we 
have utilized the work of the Inter-governmental Panel on Climate 
Change or IPCC, the world's most authoritative body on the subject, as 
well as the work of the U.S. National Academy of Sciences. The work of 
the IPCC has been endorsed by the National Academies of Science of all 
G8 countries (including the US), plus China, India, and Brazil. In 
their joint statement they described the IPCC as representing the 
``international scientific consensus.''\8\
---------------------------------------------------------------------------
    \8\ Joint Academies' Statement: Global Response to Climate Change, 
p. 2, footnote 2; http://www.royalsoc.ac.uk/
displaypagedoc.asp?id=20742.
---------------------------------------------------------------------------
    That the IPCC's scientific assessment (called Working Group I) was 
headed up from 1988-2002 by Sir John Houghton, an evangelical 
Christian, also gives us added confidence in the IPCC's conclusions.
    The latest IPCC report on the science of climate change released in 
February of this year concluded that global warming is ``unequivocal,'' 
and that there is at least a 90 percent probability that the warming 
over the last 50 years is mainly due to human activities.\9\
---------------------------------------------------------------------------
    \9\ Intergovernmental Panel on Climate Change, Summary for 
Policymakers, Climate Change 2007: The Physical Science Basis, pages 5, 
10; http://ipcc-wg1.ucar.edu/wg1/wg1-report.html.
---------------------------------------------------------------------------
    ECI leaders believe it is well past time to move beyond the debate 
about whether human-induced global warming is happening. It is time to 
start solving the problem.
    2. The Consequences of Climate Change Will Be Significant, and Will 
Hit the Poor the Hardest. This may be best illustrated by a personal 
story, the story Anna Nangolol, a teenager who lives in Northwest 
Kenya--one of the harshest landscapes on the planet. Her nomadic tribe 
had been well-adapted to this fierce environment. However, over the 
past 30 years the droughts there have been extreme and dangerous. 
Consistent with what climate change models predict, there has been 25 
percent less rainfall. Their herds are reaching the tipping point of 
their existence. ``This drought has been very bad,'' explains Anna. 
``Past droughts have been short and rains have come. This one seems 
never to finish and our goats and cattle are not multiplying. Even if 
the rains do finally come now, it will take a long, long time for us to 
get back all of our animals.'' Indeed in Kenya over 3 million people 
are in need of food aid because of the extreme drought--nearly double 
the number receiving aid even just a few years ago.\10\ Something 
troubling is going on with their climate. The impacts of global warming 
are already starting to be felt in the world's most vulnerable areas 
such as Anna's.
---------------------------------------------------------------------------
    \10\ New Economics Foundation, Up in Smoke? Threats from, and 
Responses to, the Impact of Global Warming on Human Development, Oct. 
2004 p.7; http://www.itdg.org/docs/advocacy/up-in-smoke.pdf
---------------------------------------------------------------------------
    It is important for us to remember as we discuss a problem being 
created in the atmosphere and as we cite large abstract numbers that it 
is individuals like Anna, someone's son or daughter, someone's 
grandchild, who will be impacted. Millions of families will suffer, 
especially the children. It is important to keep Anna and her family in 
mind as we talk about global warming.
    Evangelicals care about what happens to people like Anna Nangolol 
and her family. We have donated billions of dollars over the years to 
our relief and development agencies to combat the very problems global 
warming will make worse: water scarcity, hunger and malnutrition, basic 
health concerns, and the problem of refugees. That is why those who 
lead most of the major evangelical relief and development agencies have 
become ECI leaders--including Richard Stearns, President of World 
Vision U.S., Ben Homan, President of both Food for the Hungry and the 
Association of Evangelical Relief and Development Organizations 
(AERDO), Michael Nyenhuis, President of MAP International, Gordon 
MacDonald, Chair of World Relief (the relief arm of the National 
Association of Evangelicals), and Jo Anne Lyon, President of World Hope 
International.
    As the latest IPCC report demonstrates, harmful impacts are already 
starting to occur. Here are some illustrative examples of the magnitude 
of the impacts of global warming on the poor in this century:
    <bullet> Agricultural output in many poorer countries could be 
significantly reduced. An additional 90 million poor people could be at 
risk of hunger and malnutrition.\11\
---------------------------------------------------------------------------
    \11\ IPCC's Climate Change 2001: Impacts, Adaptation, and 
Vulnerability: section 19.4.2, Box 19-3; http://www.grida.no/climate/
ipcc-tar/wg2/674.htm.
---------------------------------------------------------------------------
    <bullet> 1-2 billion people or more will face water scarcity.\12\
---------------------------------------------------------------------------
    \12\ IPCC Summary for Policymakers, Climate Change 2007: Impacts, 
Adaptation, and Vulnerability, pp. 5, 8; http://www.ipcc.ch/.
---------------------------------------------------------------------------
    <bullet> By 2020 in Africa 75-250 million will face water scarcity, 
and crop yields could be reduced by 50 percent in some areas.\13\
---------------------------------------------------------------------------
    \13\ Ibid, p. 8.
---------------------------------------------------------------------------
    <bullet> Hurricane Katrina demonstrated that even in the U.S. the 
poor are the most vulnerable to extreme weather events. Poorer 
countries are much less able to withstand the devastation caused by 
extreme weather events, and climate change is likely to increase such 
events. For example, global warming could increase the number of people 
impacted by flooding by 50 million.\14\
---------------------------------------------------------------------------
    \14\ Ibid, p. 4; see also IPCC's Climate Change 2001: Impacts, 
Adaptation, and Vulnerability (2001): section 7.2.2.2, http://
www.grida.no/climate/ipcc-tar/wg2/310.htm#72214.
---------------------------------------------------------------------------
    <bullet> Hundreds of millions of people will be at increased risk 
of malaria, dengue fever, yellow fever, encephalitis, and other 
infectious diseases because of global warming.\15\
---------------------------------------------------------------------------
    \15\ IPCC Summary for Policymakers, Climate Change 2007: Impacts, 
Adaptation, and Vulnerability, pp. 7-8; http://www.ipcc.ch/; see also 
IPCC's Climate Change 2001: Impacts, Adaptation, and Vulnerability 
(2001): section 7.2.2.2, http://www.grida.no/climate/ipcc-tar/wg2/
310.htm#72214.
---------------------------------------------------------------------------
    <bullet> Each of these stressors increases the likelihood of 
environmental refugees and violent conflicts.
    <bullet> A heat wave in Europe in 2003 due primarily to global 
warming killed at least 20,000, mainly the poor and elderly. Such 
summers are projected to be the average by the middle of this 
century.\16\
---------------------------------------------------------------------------
    \16\ IPCC Summary for Policymakers, Climate Change 2007: Impacts, 
Adaptation, and Vulnerability, p. 11. See also Sir John Houghton; 
http://www.creationcare.org/files/houghton-NAE-briefing.pdf.
---------------------------------------------------------------------------
    <bullet> In addition to impacts on human beings, up to 30 percent 
of God's creatures could be committed to extinction by 2050, making 
global warming the largest single threat to biodiversity.\17\
---------------------------------------------------------------------------
    \17\ IPCC Summary for Policymakers, Climate Change 2007: Impacts, 
Adaptation, and Vulnerability, p. 6.
---------------------------------------------------------------------------
    Table 1 from the IPCC also illustrates projected impacts.\18\
---------------------------------------------------------------------------
    \18\ Ibid., p. 15. The SPM GW2 explains the information in Table 1 
as follows: ``Illustrative examples of global impacts projected for 
climate changes (and sea-level and atmospheric carbon dioxide where 
relevant) associated with different amounts of increase in global 
average surface temperature in the 21st century. [T20.7] The black 
lines link impacts, dotted arrows indicate impacts continuing with 
increasing temperature. Entries are placed so that the lefthand side of 
text indicates approximate onset of a given impact. Quantitative 
entries for water scarcity and flooding represent the additional 
impacts of climate change relative to the conditions projected across 
the range of SRES scenarios A1FI, A2, B1 and B2 (see Endbox 3). 
Adaptation to climate change is not included in these estimations.''

[GRAPHIC] [TIFF OMITTED] T1968.057


    The new projections for Africa cited above are especially troubling 
because of the speed of their arrival--by 2020. This means that 
significant consequences for Africa will occur quite soon. (Such 
impacts are not simply a humanitarian concern. They could have national 
security implications as well, given that the U.S. imports more oil 
from sub-Saharan Africa than we do from the Middle East, and are 
projected to get up to 40 percent of our oil from there by 2015.\19\)
---------------------------------------------------------------------------
    \19\ See a recently released report by 11 former Generals and 
Admirals, National Security and the Threat of Climate Change, p. 20; 
http://securityandclimate.cna.org/. See also the testimony of Gen. 
Chuck Wald before the Senate Foreign Relations Committee on May 7, 
2007, http://www.senate.gov/foreign/hearings/2007/hrg070509a.html.
---------------------------------------------------------------------------
    The ECI believes that when you look at the consequences of global 
warming you understand that the problem has been framed incorrectly. It 
is not primarily an ``environmental'' problem. It is the major relief 
and development problem of the 21st century, because it will make all 
of the basic relief and development problems much worse. It will be an 
insidious reversal of our efforts to help the poor. Billions will be 
adversely affected. Millions upon millions--people like Anna Nangolol--
will be threatened with death.
    3. Christian Moral Convictions Demand Our Response to the Climate 
Change Problem.--For Christians who have confessed Jesus to be the Lord 
of our lives, it is crucial for us to know his teachings and reflect 
upon how to apply them to our day-to-day existence.
    When asked what the greatest commandment in the Law is, Jesus 
answered, `` `Love the Lord your God with all your heart and with all 
of your soul and with all of your mind and with all of your strength.' 
The second is this: `Love your neighbor as yourself.' There is no 
commandment greater than these'' (Mark 12:29-31).\20\ These have come 
to be known as the Great Commandments, and all Christian biblical 
ethics is based upon them.
---------------------------------------------------------------------------
    \20\ All quotations from the New International Version, unless 
otherwise indicated. See also Matthew 22:34-40, Luke 10:25-28, Romans 
13:9, Galatians 5:14, and James, 2:8. Jesus was quoting Deutronomy 6:8 
and Leviticus 19:18.
---------------------------------------------------------------------------
    Jesus also taught a version of what is commonly called the Golden 
Rule, ``In everything, do to others what you would have them do to you, 
for this sums up the Law and the Prophets'' (Matthew 7:12).\21\
---------------------------------------------------------------------------
    \21\ See also Luke 6:31.
---------------------------------------------------------------------------
    In his ministry Jesus had a special concern for the poor and 
vulnerable. As recounted in Luke, he begins his ministry by saying that 
`` `The Spirit of the Lord is on me, because he has anointed me to 
preach good news to the poor' '' (4:18). He treats them like family by 
feeding and healing them throughout his ministry. In Matthew 25 he says 
that what we do to ``the least of these'' we do to him (v. 40). He so 
loves them, he so identifies with them, that what we do to them we do 
to him.
    The Scriptures also teach that we are to be stewards of the Lord's 
creation (Genesis 1:28; 2:15). In the New Testament we come to 
understand that all things actually belong to Christ. Colossians 1:16 
teaches that ``all things were created by him and for him.'' Hebrews 
proclaims that he is the heir of all things (1:3). So Christians are 
called to be caretakers of Christ's creation, to treat it how He would 
treat it.
    In light of the impacts of global warming described above, the ECI 
leaders believe that the commands to love God and our neighbor, to do 
unto others as we would have them do unto us, to care for the least of 
these as if they were Christ Himself, and to steward or care for His 
creation as He would, all require us to respond to climate change with 
moral passion and concrete action.
    4. The Need to Act Now is Urgent. Governments, Businesses, 
Churches, and Individuals All Have a Role to Play in Addressing Climate 
Change--Starting Now.--The ECI leaders believe there is a need for 
urgency for three reasons.
    First, deadly impacts are happening now, as confirmed by the latest 
IPCC report.\22\
---------------------------------------------------------------------------
    \22\ IPCC Summary for Policymakers, Climate Change 2007: Impacts, 
Adaptation, and Vulnerability, pp. 1-4; http://www.ipcc.ch/
---------------------------------------------------------------------------
    Second, the oceans warm slowly, creating a lag in experiencing the 
consequences. In addition, carbon dioxide (CO<INF>2</INF>) traps heat 
for 200 years. Both of these facts mean the consequences of the global 
warming pollution we create now will be visited upon our children and 
grandchildren.
    Third, as individuals and as a society we are making long-term 
decisions today that will determine how much carbon dioxide we will 
emit in the future, such as whether to purchase energy efficient 
vehicles and appliances that will last for 10-20 years, or whether to 
build more coal-burning power plants that last for 50 years.
    As for all of the roles that need to be fulfilled, we believe that 
individuals have an important responsibility to do what we can to 
reduce our own emissions. To help them do so, we have recently created 
an ECI version of an individual offsets program called ``Cooling 
Creation'' whereby individuals can reduce their global warming 
pollution to zero.\23\
---------------------------------------------------------------------------
    \23\ See www.coolingcreation.org for ECI's offset program.
---------------------------------------------------------------------------
    Churches have a vital role of educating their members about the 
teachings of Jesus that can be applied to this and other important 
moral issues, of praying for our country and its leaders to fulfill the 
law of love and protect the poor and vulnerable, and of modeling good 
behavior through its own facilities and programs.
    Businesses should find ways to be good corporate citizens on 
climate change regardless of whether the law requires them to or not. 
We encourage them to find ways to reduce their emissions and also save 
money such as through energy efficiency improvements. The Environmental 
Protection Agency's Energy Star program has numerous examples of 
companies large and small doing just that.\24\ Businesses should also 
find ways to make money by selling climate-friendly products. Both of 
these activities will allow businesses to do well by doing good. 
Finally, businesses should work constructively with government 
officials and others to help create legislation that is both business- 
and climate-friendly.
---------------------------------------------------------------------------
    \24\ See http://www.energystar.gov/index.cfm?c=pt-awards.pt-es-
awards and http://www.energystar.gov/index.cfm?c=sb-success.sb-winners.
---------------------------------------------------------------------------
    We commend the commitments made by corporations such as 
ConocoPhilips, General Motors, General Electric, and Duke Energy who 
are a part of the U.S. Climate Action Partnership (US-CAP), as well as 
others such as Wal-Mart, who is investing $500 million per year in 
sustainable technologies and innovations, reducing global warming 
pollution at their stores by 20 percent over the next five years, and 
improving their vehicle fleet's efficiency by 25 percent in three years 
and 100 percent in 10 years.\25\
---------------------------------------------------------------------------
    \25\ Testimony of Wal-Mart's James Stanway before the Senate 
subcommittee on Private Sector and Consumer Solutions of the 
Environment and Public Works Committee, May 9, 2007, p. 2; see http://
epw.senate.gov/public/index.cfm?FuseAction=Files.View&FileStore--
id=f83bac05-7158-41be-b6c9-7ed1ccbc5c5b.
---------------------------------------------------------------------------
    As for governments, we commend the efforts of local communities, 
such as the 300-plus mayors representing over 50 million citizens who 
have signed The U.S. Mayors Climate Protection Agreement.\26\
---------------------------------------------------------------------------
    \26\ For more on the US Mayors Climate Protection Agreement, go to: 
http://www.usmayors.org/climateprotection/.
---------------------------------------------------------------------------
    We also praise the many Governors and states who have taken the 
lead, especially two who have signed laws that require an 80 percent 
reduction of CO<INF>2</INF> by 2050--Governors Schwarzenegger (R-
CA)\27\ and Pawlenty (R-MN), who is an evangelical Christian. At the 
time he signed the bill Gov. Pawlenty stated: ``The best time to have 
taken action on energy issues would've been 30 years ago. The second 
best time is right now.''\28\
---------------------------------------------------------------------------
    \27\ California Governor Arnold Schwarzenegger signed Executive 
Order S-3-05 on June 1, 2005. The action established short-, medium-, 
and long-term greenhouse gas emission reduction targets for California, 
including a reduction of 80 percent below 1990 levels by the year 2050 
(http://gov.ca.gov). On September 27, 2006, the Governor signed into 
law Assembly Bill 32, which enacted the medium-term limits (returning 
to 1990 levels by 2020) for major industries statewide. (http://
www.leginfo.ca.gov/pub/05-06/bill/asm/ab-0001-0050/ab-32-bill-20060927-
chaptered.pdf).
    \28\ According to a press release dated May 25, 2007, from 
Minnesota Governor Tim Pawlenty's office, ``The bill [the Next 
Generation Energy Act signed by Gov. Pawlenty] establishes statewide 
GHG reduction goals of 15 percent by 2015, 30 percent by 2025, and 80 
percent by 2050.'' (http://www.governor.state.mn.us/mediacenter/
pressreleases/PROD008146.html).
---------------------------------------------------------------------------
    Given that the problem is global, and that nation-states are 
primary seats of government authority, the ECI recognizes that 
important decisions must be made at the national level and between 
nations at the international level. While state actions and voluntary 
initiatives have resulted in positive benefits in the U.S., national 
emissions have continued to rise at a level inconsistent with long-term 
climate protection. In addition, businesses are now facing an 
inefficient patchwork of regulations. Thus, an economy-wide federal 
policy with mandatory targets and timetables for major sources of 
emissions is needed. However, this policy should allow for maximum 
freedom for businesses and the states.

                      PRINCIPLES FOR PUBLIC POLICY

    To help Members of Congress and the Executive Branch understand our 
views on how to address climate change we have created a document 
entitled Principles for Federal Policy on Climate Change. We have 
attached this as a separate document, and I ask that it be included in 
the record. I would like to provide a few highlights.
    First, we agree with the objective of the Framework Convention on 
Climate Change (FCCC), a treaty that President George H.W. Bush signed 
and that was ratified by the Senate unanimously. The FCCC's objective 
is ``to achieve stabilization of greenhouse gas concentrations in the 
atmosphere at a low enough level to prevent dangerous anthropogenic 
interference with the climate system.''
    Based upon the latest findings of the Inter-governmental Panel on 
Climate Change (IPCC), in the U.S. reductions from the year 2000 levels 
on the order of 80 percent by 2050 will be necessary to prevent such 
dangerous human-induced interference with the climate system.\29\ Given 
that a voluntary approach has been tried for over a decade and has not 
achieved the required domestic results, we believe this target must be 
mandatory.
---------------------------------------------------------------------------
    \29\ Intergovernmental Panel on Climate Change Summary for 
Policymakers, Climate Change 2007: Mitigation of Climate Change; 
www.ipcc.ch. In this SPM AR4 WG3, conservative estimates for the 
reductions in global CO<INF>2</INF> emissions in 2050 (as a percent of 
2000 emissions) range from 50 to 85 percent, with more aggressive 
reductions being more likely to achieve the requisite atmospheric 
concentrations of 450 ppm CO<INF>2</INF>-eq to keep global mean 
temperature increases below 2 C (see pp. 21-25, and especially Row A1 
of Table SPM.5 on p. 22). The SPM warns that these may be 
underestimates. If global emissions (including countries which have 
contributed relatively little to the problem) are required to be 
reduced by close to 85 percent, then U.S. emissions reductions should 
certainly be close to 85 percent and possibly steeper, given our 
greater historical and current contribution to CO<INF>2</INF> emissions 
and our relatively higher standard of living. Hence our conservative 
policy recommendation for the U.S. of an 80 percent reduction in 
emissions by 2050 relative to year 2000 emissions.
---------------------------------------------------------------------------
    At the same time, we believe that we must maximize freedom in 
solving the problem. Freedom flourishes when the rule of law prevents 
chaos. In the case of global warming, a proper policy framework will 
establish the ``rules of the road'' and what businesses call 
``regulatory certainty.'' This can enhance freedom by allowing us to 
begin to solve a problem whose impacts will severely limit that freedom 
in the future if not addressed. To protect freedom, unnecessary 
government regulations must be avoided. Government policies should be 
structured to allow the free market to solve the problem to the 
greatest extent possible. We should use the least amount of government 
power necessary to achieve the objective.
    We must also take special care to protect the most vulnerable. This 
means we must solve the problem through both adaptation and mitigation 
efforts, the latter including the 80 percent by 2050 emissions 
reduction.
    But any climate legislation must also protect low-income households 
in this country. Legislation should include policies (e.g. consumer 
assistance such as LIHEAP, weatherization assistance, tax cuts) to 
offset any regressive consequences of implementation. As a recent 
report from the Congressional Budget Office demonstrates, how you 
structure the policy can result in small increases or decreases in 
household income for those on tight budgets.\30\ Legislation should 
also be structured to make it easy and economical for businesses to 
pass their energy cost savings on to consumers.
---------------------------------------------------------------------------
    \30\ Congressional Budget Office, Economic and Budget Issue Brief, 
``Trade-offs in Allocating Allowances for CO<INF>2</INF> Emissions,'' 
April 25, 2007; http://www.cbo.gov/ftpdocs/80xx/doc8027/04-25-Cap-
Trade.pdf.
---------------------------------------------------------------------------
    Finally, we should solve the problem utilizing market forces and by 
protecting property rights. Harnessing the power of the market will 
allow innovation, ingenuity, and entrepreneurship to generate climate 
solutions, and will ensure that U.S. businesses can compete 
internationally in clean technologies. To help ensure competitiveness, 
climate policy should provide: (1) a stable, long-term, substantial 
research and development program; (2) long-term regulatory certainty, 
and (3) a robust price signal that reflects the true social cost of 
greenhouse gas pollution. We feel it is important to recognize along 
with Mark Sanford, the Governor of South Carolina, that global warming 
pollution invades the property rights of all its victims, and restricts 
their freedom by forcing them to bear costs they should not have to pay 
because of the actions of others--``in either the quality of the air 
they breathe, the geography they hold dear, the insurance costs they 
bear, or the future environment of the children they love.''\31\ 
Climate policy should ensure that the costs of global warming pollution 
are reflected in the price of goods and services that produce 
greenhouse gases. When prices are right, the free market can do its 
job.
---------------------------------------------------------------------------
    \31\ Mark Sanford, ``A Conservative Conservationist?'' Washington 
Post, Friday, February 23, 2007; A19.
---------------------------------------------------------------------------
    We believe that the preferable market-based mechanisms will be the 
ones that are politically achievable in the near term. The U.S. now has 
extensive experience in managing a successful cap-and-trade program for 
sulfur dioxide (SO<INF>2</INF>), and there is growing political support 
for a cap-and-trade system. This could also allow us access to a global 
trading system, providing further efficiencies. We support a cap-and-
trade approach, by itself or in combination with a revenue neutral 
global warming pollution tax whereby those who act to reduce global 
warming pollution receive a tax cut. If there is a cap and trade 
approach, again, those with low incomes should be protected from 
regressivity. The CBO report suggests that the optimum approach is to 
have the proceeds of the auction of allocation permits returned to 
citizens in the form of a lump-sum payment.\32\
---------------------------------------------------------------------------
    \32\ CBO, ``Trade-offs,'' pp. 6-8.
---------------------------------------------------------------------------
    All of our activities as a country up to this point have been like 
warming up before the start of a long race. The crack of the starting 
gun will be the passage of significant mandatory federal legislation. 
That will not be the end, but merely the beginning.

                        A TREMENDOUS OPPORTUNITY

    Finally, let me say that we are optimistic. The challenge is large, 
but our vision, our beliefs, our values are larger. Some are fearful of 
tackling global warming, but where others fear to go we see opportunity 
to do well by doing good.
    We have the opportunity to unite our country, and indeed the world, 
in a common cause to create a better future for our children, to make 
sound investments for their well-being.
    In so doing we will:
    <bullet> save millions of lives of the poorest and most vulnerable 
people in our country and around the world, generation after 
generation\33\;
---------------------------------------------------------------------------
    \33\ See footnotes 11-18 above. See also IPCC Summary for 
Policymakers, Climate Change 2007: Impacts, Adaptation, and 
Vulnerability, and R. Warren, 2006, ``Impacts of Global Climate Change 
at Different Annual Mean Global Temperature Increases,'' Chapter 11 in 
H.J. Schellnhuber (ed.), Avoiding Dangerous Climate Change, Cambridge 
University Press. Increases in global average temperatures greater than 
2 C from pre-industrial, which pollution mitigation will help to 
avoid, include water stress for billions of people, increased hunger 
from falling food production for hundreds of millions of people, 
displacement of coastal dwellers, increase in exposure to diseases like 
dengue fever.
---------------------------------------------------------------------------
    <bullet> clean up our air and water, including the mercury 
poisoning of the unborn\34\;
---------------------------------------------------------------------------
    \34\ ``Energy use and agricultural practices are the main sources 
of both air pollution and climate change. Therefore, many measures to 
cut air pollution also benefit climate through reduction of greenhouse 
gas emissions and vice versa. Understanding these synergies and 
addressing local, regional and global objectives simultaneously makes 
economic sense.'' From ``A Good Climate For Clean Air: Linkages Between 
Climate Change And Air Pollution: An Editorial Essay'' Climatic Change 
66: 263-269, 2004. On mercury and the unborn, see the Evangelical 
Environmental Network fact sheet for citations, http://
www.creationcare.org/resources/mercury/mercury-unborn.php.
---------------------------------------------------------------------------
    <bullet> reduce our dependence on foreign oil;\35\
---------------------------------------------------------------------------
    \35\ President Bush identified ``addiction to oil'' as a ``serious 
problem'' in his 2006 State of the Union address (http://
www.whitehouse.gov/news/releases/2006/01/20060131-10.html). General 
Gordon R. Sullivan (ret.), former Army Chief of Staff, and chairman of 
the Military Advisory Board for the recently-released report ``National 
Security and the Threat of Climate Change'' (http://
securityandclimate.cna.org/) commented last Thursday: ``world leaders 
should not wait as scientists narrow any few remaining uncertainties 
about climate change. As a former military commander, I've learned that 
waiting for 100 percent certainty to begin planning an appropriate 
response can lead to disastrous consequences on the battlefield'' 
(http://www.cna.org/documents/General%20Sullivan%20Statement%20on%20G-
8.pdf).
---------------------------------------------------------------------------
    <bullet> enhance rural economic development;\36\
---------------------------------------------------------------------------
    \36\ According to a report from the University of Tennessee on the 
benefits of having 25 percent of our energy come from renewable sources 
by 2025, ``Including multiplier effects through the economy, the 
projected annual impact on the nation from producing and converting 
feedstocks into energy would be in excess of $700 billion in economic 
activity and 5.1 million jobs in 2025, most of that in rural areas'' 
and ``the total addition to net farm income could reach $180 billion'' 
(see first page of Executive Summary). See Burton C. English, Daniel G. 
De La Torre Ugarte, Kim Jensen, Chad Hellwinckel, Jamey Menard, Brad 
Wilson, Roland Roberts, and Marie Walsh, 25 percent Renewable Energy 
for the United States By 2025: Agricultural and Economics Impacts 
(November 2006).
    See also IPCC Summary for Policymakers, Climate Change 2007: 
Mitigation of Climate Change, p. 19. ``Agricultural practices 
collectively can make a significant contribution at low cost to 
increasing soil carbon sinks, to GHG emission reductions, and by 
contributing biomass feedstocks for energy use.''
---------------------------------------------------------------------------
    <bullet> save money by having our homes, churches, businesses, and 
governments become more energy efficient;\37\
---------------------------------------------------------------------------
    \37\ IPCC Summary for Policymakers, Climate Change 2007: Mitigation 
of Climate Change, p. 18. ``Energy efficiency options for new and 
existing buildings could considerably reduce CO<INF>2</INF> emissions 
with net economic benefit. Many barriers exist against tapping this 
potential, but there are also large co-benefits'' (italics added). One 
European study found that nearly a quarter of the climate mitigation 
strategies that would be required to limit atmospheric CO<INF>2</INF> 
concentrations to 450 ppm had a zero or negative net life-cycle cost--
they saved money as well as pollution, even with a change in climate 
policy. Removing institutional and organizational barriers to these 
changes in energy efficiency in the transportation and transport 
sectors would be welfare enhancing under any scenario (Per-Anders 
Enkvist, Tomas Naucler, and Jerker Rosander, 2007, ``A cost curve for 
greenhouse gas reduction'', The McKinsey Quarterly, 2007, No. 1, pp. 
35-45).
---------------------------------------------------------------------------
    <bullet> create sustainable jobs and a clean energy future\38\;
---------------------------------------------------------------------------
    \38\ Daniel M. Kammen, Kamal Kapadia, and Matthias Fripp. Putting 
Renewables to Work: How Many Jobs Can the Clean Energy Industry 
Generate? RAEL Report, Jan 2004. ``Expanding the use of renewable 
energy is not only good for our energy self-sufficiency and the 
environment; it also has a significant positive impact on employment. 
This is the conclusion of 13 independent reports and studies that 
analyze the economic and employment impacts of the clean energy 
industry in the United States and Europe'' (p. 1). ``Across a broad 
range of scenarios, the renewable energy sector generates more jobs 
than the fossil fuel-based energy sector per unit of energy delivered 
(i.e., per average megawatt)'' (p. 2).
---------------------------------------------------------------------------
    <bullet> help our country lead the world in solving global 
warming.\39\
---------------------------------------------------------------------------
    \39\ The Spring 2007 Foreign Affairs/Public Agenda survey on U.S. 
foreign policy found that \2/3\ of Americans believed international 
cooperation could reduce global warming, and that the U.S. government 
has been doing too little to lead the world (61 percent gave the U.S. a 
``C'' or below for working with other countries on global warming). Six 
in ten wanted global warming specifically to be a focus of 
international cooperation (http://www.publicagenda.org/foreignpolicy/
foreignpolicy-climate.htm).
---------------------------------------------------------------------------
    Moses, the great lawgiver, in his farewell address to the Hebrews, 
set before them the paths of life and death; life, by loving God and 
doing His will, and death, by forsaking God and His commands. ``I call 
heaven and earth to witness against you today that I have set before 
you life and death, blessings and curses. Choose life so that you and 
your descendants may live.'' (Deuteronomy 30:19).
    Let us choose life this day by addressing global warming.
    Thank you.

    Senator Boxer. Reverend, thank you so much.
    We have been joined by Senators Carper and Isakson. I am 
very pleased that they are here.
    Rabbi.

  STATEMENT OF RABBI DAVID SAPERSTEIN, DIRECTOR AND COUNSEL, 
           RELIGIOUS ACTION CENTER OF REFORM JUDAISM

    Rabbi Saperstein. I am Rabbi David Saperstein, here 
representing the National Reform Jewish Movement, the largest 
segment of American Jewish community. Also representing the 
Coalition on Environment and Jewish Life, an umbrella group 
serving 29 national Jewish agencies as the Jewish community's 
most broad-based voice on environmental issues.
    I am pleased to join the other distinguished members of 
this panel, the majority of whom share my sentiments, when I 
say, at last, at last the Congress is recognizing the 
importance of looking at the perspectives of faith and values 
in environmental justice, at last the Congress is recognizing 
the depth of the concern and the breadth of activity among 
religious Americans on environmental issues. At last our 
Government seems to be beginning to address the global climate 
change crisis with a sense of urgency that the science and the 
ethics of the crisis demand. From the perspective of the 
religious community, whatever else comes of this hearing, it is 
a very important day.
    But on issues that bear on the integrity of God's creation 
here on earth, and more specifically the need to address global 
warming and its particular impact on the poor, there is a 
degree of deeply shared unity that is rare, resulting in our 
abiding resolve to work together. The urgency of climate 
change, mixed with our strong Scriptural mandates, have 
connected our faiths and compelled us to act in unison to forge 
an answer to our climate crisis.
    Now, this is not just rhetoric or claim. In fact, religious 
communities have been actively engaged in this pursuit for some 
time, whether it is humorously titled programs like the 
Evangelical ``What Would Jesus Drive?'' campaign, aimed at 
raising the moral concerns about fuel economy and pollution 
from vehicles, or the Jewish community's, ``How Many Jews Does 
it Take to Change a Light Bulb?'' that mobilized synagogues to 
install 50,000 compact fluorescent light bulbs during the past 
Hanukkah, a celebration or festival of lights, or a score of 
other national programs run by the different agencies that are 
part of the National Religious Partnership on the Environment. 
The religious community has manifested its resolve and 
commitment to stewardship and the preservation of God's 
creation. It is a commitment felt across the spectrum of 
religious life in America. It is happening at the national 
level and it is happening in the pews, because the idea of 
protecting God's creation is one of the most intuitive 
religious obligations of this generation. Care for God's 
creation is quickly becoming a central concern of the faith 
community, and one of the defining characteristics and 
priorities of the next generation of religious leaders. 
Preserving our natural world is a key component at the heart of 
what it means to be religious.
    These themes were powerfully captured in the recent public 
letter Wonder and Restraint from key leaders of all the streams 
of the American Jewish community, and which I would like to 
submit for the record in its entirety.
    Senator Boxer. Without objection.
    Rabbi Saperstein. Two covenental relationships apply most 
directly to the environmental challenges of our time. The first 
demands inwardness, the second, outwardness. The first, in a 
word, is restraint: to practice restraint in individual and 
communal lives. Judaism encourages this sensibility in many of 
its most fundamental metaphors and obligations, mitzvot. There 
is a restraint embodied by Shabbat, our central holy day of 
wholeness and not producing. There is restraint expressed 
through kashrut, dietary consciousness, which gives us an 
appetite for sacredness instead of gluttony. There is the 
restraint expressed as bal tashchit, the Biblical injunction 
against wanton destruction, rooted in the Bible's responses to 
the environmental ravages of warfare.
    In the second covenental obligation, that our earth and our 
faith requires that we speak out to the world's leaders. We are 
obliged to contrast our religious and ethical values with the 
values of self-indulgence, domination, short-term land, 
national security and money worship that fuel the ravaging of 
the earth. We are obliged to support policies that ease poverty 
and spare the planet its ravages, that protect under-developed 
countries from serving as the world's environmental dumping 
grounds, that tie economic development to environmental 
stewardship and that enable poor people to pursue sustainable 
economic lives.
    We are obliged to challenge a fever of consumption that 
drives unsustainable economic growth. Our voices must be 
loudest and clearest when addressing the impact of climate 
change on the poor, the most vulnerable. It is not simply an 
issue of the environment. It is at the core of the religious 
community's passion for justice.
    The Book of Proverbs teaches us, ``Speak up, judge 
righteously, champion the poor and the needy.'' We know that 
extremes of weather have and will have disproportionate impact 
on the poorest populations. We must help to be their voice as 
we empower them to speak out. We only need consider the record 
surface temperatures of the last 20 years and look into the 
faces of the victims of Hurricanes Katrina and Rita. Those with 
the fewest resources got left behind and forgotten. 
Disproportionately, they are the ones forced to fend for 
themselves.
    We must prepare to aid these communities with the 
difficulties as they work to adapt to changing climate. Senator 
Bond allowed for the importance of increased aid to the poor 
globally and domestically. It is precisely that increased aid 
that needs to help them sustain themselves as we move to 
address the threat of global warming.
    President Bush is today talking about this issue at the G-
8. In my own conversations with the President, it is clear how 
deeply his faith shapes his values and policies. I pray that he 
hears God's call to us to protect God's creation and protect 
the poor.
    The source of the quote that you cited in ending your 
opening remarks is from the Talmud. The Book of Jewish Law was 
written at the time when Jesus walked the earth. It says, God 
took Adam through the garden, saying, ``Look at my works, see 
how beautiful they are, how excellent. For your sake have I 
created them all. See to it that you do not spoil and destroy 
my world, for if you do, there will be none else after us to 
repair it.''
    The task of all people of conscience is to ensure that 
God's mandate is heard today by all humanity. For the earth is 
our garden. This time we face not expulsion, but devastation. 
And that we cannot, we dare not allow, neither for our 
children's sake nor for God's.
    [The prepared statement of Rabbi Saperstein follows:]

 Statement of Rabbi David Saperstein, Director and Counsel, Religious 
                    Action Center of Reform Judaism

    Thank you for inviting me to address you this morning.
    I am Rabbi David Saperstein, Director and Counsel of the Religious 
Action Center of Reform Judaism. I want to thank Marc Katz, an 
Eisendrath Legislative Assistant at the RAC working on environmental 
issues, for his assistance in preparing this testimony. The Religious 
Action Center's work is mandated by the Union for Reform Judaism, whose 
900 congregations across North America include 1.5 million Reform Jews, 
and the Central Conference of American Rabbis, whose membership 
includes more than 1,800 Reform rabbis. The Religious Action Center has 
been the hub of Jewish social justice and legislative activity in the 
nation's capital for more than 40 years. I am also pleased to represent 
the Coalition on the Environment in Jewish Life, an umbrella group 
serving 29 national Jewish agencies as the Jewish community's most 
broad-based voice on environmental issues.
    I am pleased to join the other distinguished members of this panel 
who, I'm sure, share my sentiments when I say, ``At last!'' At last the 
Congress is recognizing the importance of looking at the perspectives 
of faith, values, and environmental justice. At last, the Congress is 
recognizing the depth of concern and the breadth of activity among 
religious Americans on environmental issues. At last, our government 
seems to be beginning to address the global climate change crisis with 
the sense of urgency through science that the ethics of the crisis 
demand. From the perspective of the religious community, whatever else 
comes of this hearing, this is a very important day.
    I have been working in and with the American faith community for 33 
years. Often the diversity of religious practice and scriptural 
readings that exist within and between denominations of Judaism and 
Christianity have meant that we do not always agree on matters of 
morality and public policy. Those of you on the committee know all too 
well the diversity of voices in the religious community, and the even 
greater diversity of opinions--often conflicting--expressed by members 
of those communities.
    But on issues that bear on the integrity of God's creation here on 
earth and, more specifically, the urgent need to address global warming 
and its particular impact on the poor, this degree of deeply shared 
unity is rare, resulting in our abiding resolve to work together. The 
urgency of climate change mixed with our strong scriptural mandates 
have connected our faiths and compelled us to act in unison to forge an 
answer to our climate crisis.
    Now this is not just rhetoric or claim. In fact, religious 
communities have been actively engaged in this pursuit for some time. 
Whether it's the humorously titled program like the Evangelical ``What 
Would Jesus Drive?'' campaign aimed at raising the moral concerns about 
fuel economy and pollution from vehicles or the Jewish community's, 
``How Many Jews Does It Take To Change A Light Bulb?'' that mobilized 
synagogues to install over 50,000 compact fluorescent light bulbs 
during this past Hanukkah, or a score of other national programs, the 
religious community has manifested its resolve and commitment to 
stewardship and the preservation of God's creation.
    This commitment is being felt across the spectrum of religious life 
in America. It's happening at the national level, by major 
denominational governing bodies, and it's happening in the pews. Our 
congregants are taking the lessons they learn in our synagogues and 
churches and placing them ``on the doorposts of their homes and upon 
their gates'' (Deuteronomy 6:9) in the form of solar panels, wind 
turbines, and neighborhood recycling programs.
    Care for God's creation is quickly becoming a central concern of 
the faith community generally and the defining characteristic and 
priority of the next generation of religious leaders. Preserving our 
natural world is a key component at the heart of what it means to be 
religious.
    To be religious is to inexorably bound up with being a ``light unto 
the nations'' (Isaiah 42:6), a partner with God in shaping a better 
world. As children of God we have been endowed with wisdom and faith to 
vivify our tradition and pursue justice. Faced with the degradation of 
our natural world, we must embody the biblical command of bal tashchit, 
do not destroy, and when faced with a chance to correct our misdeeds, 
proclaim in one voice, ``we will do and we will hearken'' (Exodus 
24:7).
    These themes were powerfully captured in the recent public letter 
``Wonder and Restraint'' from key leaders of all the streams of the 
American Jewish community:
    <bullet> ``Two covenantal responsibilities apply most directly to 
the environmental challenges of our time. The first demands inwardness, 
the second, outwardness. The first fulfills the traditional Jewish role 
as a ``holy nation,'' the second, as a ``light unto the nations.''
    <bullet> The first, in a word, is restraint: to practice restraint 
in our individual and communal lives. Judaism encourages this 
sensibility in many of its most fundamental metaphors and mitzvot. 
There is the restraint embodied by Shabbat, our central holy day of 
wholeness and not-producing. There is the restraint expressed through 
kashrut, dietary consciousness, which gives us an appetite for 
sacredness instead of gluttony.
    <bullet> There is the restraint expressed as bal tashchit, the 
injunction against wanton destruction that is rooted in the Torah's 
responses to the environmental ravages of warfare; and as tza'ar 
ba'alei chayyim, pity for the suffering of living creatures, requiring 
us to treat our fellow creatures as sentient beings, not as objects for 
exploitation.
    <bullet> There is the restraint required to fulfill the demands of 
kehillah--the communal and intergenerational obligations that Judaism 
applies to our wealth, our private property, our decision-making, and 
our salvation. In the tradition of Maimonides, modesty and open-handed 
generosity have long been hallmarks of Jewish life.
    <bullet> There is the restraint implied by sh'mirat haguf, 
protection of our own bodies and by pikuakh nefesh, the commandment to 
protect life at nearly any cost. There is the restraint mandated by 
s'yag l'torah, building a ``fence around the Torah,'' which bids us to 
err on the side of caution when it comes to matters of life, limb and 
spiritual integrity--all of which are surely endangered by the 
destruction of biological diversity and the degradation of the 
biosphere, most obviously by the catastrophes likely to be induced by 
global warming.
    <bullet> In the Jewish mystical tradition, it is God who sets the 
example of restraint by practicing tsimtsum, self-withdrawal, in order 
to permit the universe to emerge into being. The mystics, drawing upon 
the Talmud (Chagigah 12a), linked this creation story to the 
appellation Shaddai, usually translated to mean ``Almighty,'' but 
understood by mystics as the One Who said to the infant universe, 
``dai,'' ``enough,'' and thus gave form and boundary to the chaos.
    <bullet> Today, we who are made in the image of Shaddai must 
emulate this act of tsimtsum if we want our world to persist in health 
and abundance. Human activity is now as consequential to the Earth and 
its wealth of species as glaciers, volcanoes, winds and tides--so we 
cannot persist in the illusion that the world is inexhaustible. Human 
activity has split the seas, brought down manna from heaven, cured 
pestilence, built vast tabernacles--so we cannot continue to quake and 
stammer at the prospect of assuming the responsibility given to us 
along with our power. Instead, we must transform ourselves from 
nature's children to nature's guardians by learning to say ``dai ,'' 
``enough,'' to ourselves.
    <bullet> But not only to ourselves: for the second covenantal 
obligation that our Earth and our faith require is that we speak out, 
and speak truth, to the world's leaders.
    <bullet> We are obliged to contrast our religious and ethical 
values with the values of self-indulgence, domination, short-term 
national security, and money-worship that fuel the ravaging of the 
Earth.
    <bullet> We are obliged to oppose the political empowerment of 
religious fatalists who view our environmental crisis as a mark of 
Armageddon and a glad-tiding of redemption.
    <bullet> We are obliged to support policies that ease poverty and 
spare the planet its ravages; that protect underdeveloped countries 
from serving as the world's environmental dumping grounds; that tie 
economic development to environmental stewardship; and that enable poor 
people to pursue sustainable economic lives.
    <bullet> We are obliged to withdraw support from corporations that 
act parasitically rather than symbiotically with the natural world, or 
that tamper with fundamentals of Creation without caution, without 
reverence, but solely for purposes of short-term profit and petty self-
interest.
    <bullet> We are obliged to challenge the fever of consumption that 
drives unsustainable economic growth.
    <bullet> We are obliged to challenge public officials who deify 
property and wealth, reducing our living planet to a commodity.
    <bullet> We are obliged to seek peace and pursue it--to oppose easy 
recourse to military violence, outside of legitimate self-defense, not 
only for its destruction of human life and health, but also for its 
shattering impact on nature and natural resources.
    <bullet> It is precisely in taking these kinds of prophetic 
stances, lifting our voices to join protest to prayer, that we renew 
Judaism's capacity for stirring the rachamim, the womb-love, of God and 
of the human race, thus keeping the gates open to a healthy future for 
our planet and its inhabitants.''
    As you have previously heard, the birth of our religious 
environmental connection explicitly coincides with the creation of the 
world and humanity's charge to act as its caretaker and steward. With 
these shared beliefs the religious community has worked tirelessly to 
protect and preserve God's creation. However much common cause there 
has been in the past, though, we believe there is an entirely new 
dynamic and concern at work that will only strengthen this unity and 
resolve; our voice must be loudest, and clearest, when addressing the 
impact of climate change on the most vulnerable. This is not simply an 
issue of the environment; it is at the core of the religious 
community's passion for economic justice.
    The book of Proverbs teaches us to ``speak up, judge righteously, 
[and] champion the poor and the needy'' (31:9). Extremes of weather 
have and will continue to have disproportionate impact on the world's 
poorest populations and we must be their voice. A 2004 UN report 
highlights this; wealthy countries constitute 15 percent of people who 
are exposed to extreme natural events, but only 1.8 percent who die 
from such events. We need only consider the record surface temperatures 
of the last 20 years or look into the faces of the victims of 
Hurricanes Katrina and Rita. Those with the fewest resources get left 
behind and forgotten. Disproportionately, they are the ones forced to 
fend for themselves.
    Thus, we must first prepare to aid those communities that will face 
difficulties as they work to adapt to the changing climate. The 
Intergovernmental Panel on Climate Change has been clear that even in 
the best of scenarios, the earth is facing a 2-degree rise in 
temperature in the next century that will significantly change 
worldwide weather and precipitation patterns. We must do more for these 
communities, here and abroad, helping them switch to sustainable 
agriculture practices, urge fair trade practices, publicly finance 
renters' and home owners' insurance, and providing effective emergency 
assistance for those dislocated by weather-related events.
    Already the religious community has acted as a leader in promoting 
worldwide climate justice, working with NGOs and charities like World 
Vision, Catholic Charities, Jewish Federations, and Church World 
Service to provide billions of dollars in aid to affected areas.
    Yet as we provide these direct services, we are all too aware that 
it will take you, Members of Congress, to address the root of the 
problem through changes in policy. We must ensure that as we reduce 
emissions with a ``cap and trade'' program or carbon tax, sufficient 
revenues are in place to offset the rising energy costs and worker 
displacement, predicted in the CBO report, ``Trade-Offs in Allocating 
Allowances for CO<INF>2</INF> Emissions'' (April 25, 2007). It is our 
moral obligation to provide for these populations by establishing 
programs to retrain them to work in our future energy marketplace. We 
must aid those less fortunate by providing energy and tax rebates and 
by helping lower income families weatherize their homes, thus lowering 
their need for higher priced heating.
    The Talmud, a cornerstone of Jewish theology, elaborates on this, 
teaching us that on Adam's first night in the garden, God led him 
around saying, ``Look at my works! See how beautiful they are--how 
excellent! For your sake I created them all. See to it that you do not 
spoil and destroy My world; for if you do, there will be no one else to 
repair it.'' (Midrash Kohelet Rabbah, 1 on Ecclesiastes 7:13). 
Humankind has a fundamental choice: are we going to continue to abuse 
the earth, or help to build our sanctuary for God to dwell (Exodus 
25:8)?
    The task of the Jew, the task of all people of conscience, is to 
ensure that God's mandate is heard today by all humanity. For this 
Earth is our garden, and this time we face not expulsion but 
devastation. That we cannot--we dare not--allow, neither for our 
children's sake nor for God's.

    Senator Boxer. Thank you, Rabbi.
    Dr. Russell Moore, we welcome you, dean of the School of 
Theology, senior vice president for Academic Administration, 
associate professor of Christian Theology, Southern Baptist 
Theological Seminary. Thank you very much for being here, 
Doctor.

STATEMENT OF RUSSELL D. MOORE, DEAN, SCHOOL OF THEOLOGY, SENIOR 
VICE PRESIDENT FOR ACADEMIC ADMINISTRATION, ASSOCIATE PROFESSOR 
    OF CHRISTIAN THEOLOGY, THE SOUTHERN BAPTIST THEOLOGICAL 
                            SEMINARY

    Mr. Moore. Thank you, Senator. Good morning, Chairman 
Boxer, Senator Inhofe and members of the committee. I am a 
Southern Baptist, a member of a church in cooperation with the 
Southern Baptist Convention, the Nation's largest Protestant 
denomination, with over 16 million reported members and 42,000 
cooperating churches.
    The role of religion, specifically of evangelical Christian 
theology, has been an important part of the debate over global 
warming, from former Vice President Al Gore's musings on 
spirituality and theology in ``Earth in the Balance'' to the 
``What Would Jesus Drive?'' advertising campaign, to 
manifestoes and counter-manifestoes of evangelical groups on 
the issue of global warming. Evangelical interest in the global 
warming issue is framed by some in the press and in some 
sectors of American political life as a seismic shift in 
evangelical political engagement, away from concern with so-
called ``Religious Right'' issues, such as the sanctity of 
human life, and toward a so-called broader agenda.
    Yet, Southern Baptists and other like-minded conservative 
evangelicals are for environmental protection, of course, for 
the stewardship of the earth. Our views of the universe, that 
the material world was created as an inheritance for Christ, 
that man was given dominion over the creation and that the 
cosmos itself will be renewed in Christ at the end of the age 
mean that we cannot hold an economic libertarian utilitarian 
view of the earth and its resources.
    This does not mean, however, that evangelicals are united 
in tying the Biblical mandate for creation care to specific 
legislative policies to combat global warming. Indeed, last 
year's meeting of the Southern Baptist Convention passed a 
resolution, Senator Inhofe has already referred to it, warning 
against the use of the Bible by some religious groups to 
support some of the proposals of the secular environmentalist 
movement.
    The problem for Southern Baptists and other like-minded 
evangelicals with some proposals on the environment is not that 
they address the stewardship of the earth. We are not 
wondering, ``What hath Jerusalem to do with Kyoto?'' Instead, 
our difficulty is with tying the Biblical mandate to specific 
public policy proposals, proposals that are not, of course, 
mandated by Scripture, and with ramifications that are not yet 
fully known.
    This is further complicated when national political 
leaders, including recently the Chairman of the Democratic 
National Committee, point to evangelical global warming 
activism as a means to mobilize the evangelical vote. Southern 
Baptists and other evangelicals do not deny that there is 
climate change, or even that some of this climate change may be 
human-caused. Many of us, though, are not yet convinced that 
the extent of human responsibility is as it is portrayed by 
some global warming activists, or that the expensive and 
dramatic solutions called for will be able ultimately to 
transform the situation.
    We find theologically and Biblically problematic statements 
by some religious leaders that we can restore Eden through 
addressing global climate change with Government action. We 
find troubling apocalyptic scenarios in some environmentalist 
rhetoric that make our evangelical end-times novels look 
Pollyannaish in comparison.
    Southern Baptists will not resonate with any legislative 
program that does not clearly see the limitations of human 
endeavors to reverse the post-Edenic groaning of the creation, 
especially since so much of the language of the secular 
environmentalist movement often veers into a techno-idolatrous 
triumphalism that is closer to the Tower of Babel than to the 
Ark of Noah.
    Southern Baptists have also expressed our concern that 
public policy proposals do not compromise the dignity of 
humanity as created in the image of God. With that, we are 
concerned very much with two issues: population control and 
world poverty. Some in the evangelical environmental movement 
speak of population control efforts as the third rail in this 
discussion. In an era with millions of abortions worldwide, 
with governments such as that of China coercively controlling 
family size, those of us who are still unsure of the precise 
contribution of human beings to climate change will be 
especially attentive that any proposal, even one that we can 
support otherwise, does not sacrifice the dignity of innocent 
human life.
    Likewise, Southern Baptists and like-minded evangelical 
Christians must question the possible effect of any global 
warming legislation on the world's poor. As religious scholar 
Philip Jenkins has pointed out, global Christianity is 
increasingly less represented by the wealthy elites of 
America's dwindling Protestant mainline and more represented by 
impoverished but vibrant congregations in the Global South. 
What will Government regulation on this issue do for the 
economic development of poor countries to providing 
electrification, water purification, and sanitation to the 
world's poor? What will any given proposal on global warming do 
to the ability of working class people in America and around 
the world to have jobs to provide for their families?
    Southern Baptists and other like-minded evangelicals are 
not opposed to environmental protection. But we also understand 
that divine revelation does not give us a blueprint for 
environmental policy. We have no pronouncements on what Jesus 
would drive, except that the Scripture seems to indicate that 
the next time we see Him, He will be driving neither a Hummer 
nor a hybrid. We are sure, though, that he would call us to 
protect the earth, to care for the poor, to protect innocent 
human life. We are concerned that tying Bible verses to any 
specific legislation on global warming, especially when there 
are potentially harmful results, could serve both to harm the 
public interest and trivialize the Christian gospel.
    Bishop Schori is exactly right: the Book of Proverbs tells 
us, ``Where there is no vision, the people perish.'' But the 
vision there is not an abstract, generic imagination. The 
vision is a vision from God, divine revelation. We do not have 
a specific blueprint on this issue, and so prudence and common 
sense ought to come into this debate as we ask, what will be 
the effects of such legislation on the world?
    Thank you, Senators, for your time and consideration.
    [The prepared statement of Mr. Moore follows:]

 Statement of Russell D. Moore, Dean, School of Theology, Senior Vice 
President for Academic Administration, Associate Professor of Christian 
          Theology, The Southern Baptist Theological Seminary

    Good morning Chairman Boxer, Senator Inhofe, and members of the 
committee. I appreciate this committee's concern for the perspectives 
of religious organizations on the global warming debate, particularly 
given the persistent appeals to theology and spirituality by both 
secular and religious advocates of massive governmental action to 
address the issue of climate change.
    The role of religion, and specifically of evangelical Christian 
theology, in the global warming conversation has been an important part 
of the public policy debate for several years--ranging from ``What 
Would Jesus Drive?'' advertising campaigns to the competing manifestoes 
of evangelical interest groups to the recent book by E.O. Wilson 
written in the form of a letter to a Southern Baptist pastor in appeal 
to form alliances to ``save the earth.'' \1\ Evangelical interest in 
the global warming issue is framed by some in the press and by more 
leftward sectors of American political life as a seismic shift in 
evangelical political engagement--away from concern with so-called 
``Religious Right'' issues such as abortion and marriage and toward a 
``broader'' agenda more compatible with the platform of the Democratic 
Party.\2\
---------------------------------------------------------------------------
    \1\ E.O. Wilson, The Creation: An Appeal to Save Life on Earth (New 
York: W.W. Norton, 2006).
    \2\ For example, Michael Luo and Laurie Goodstein, ``Emphasis 
Shifts for New Breed of Evangelicals,'' New York Times, 21 May 2007, 
A1, A15; Jim Wallis, ``The Religious Right's Era Is Over,'' TIME, 16 
February 2007, accessed online at http://www.time.com/time/nation/
article/0,8599,1590782,00.html.
---------------------------------------------------------------------------
    Yet, religious voices on the issue of global climate change are not 
as uniform as some might suggest. There is a significant constituency 
within American evangelical Christianity deeply concerned about the use 
of biblical texts and theological rhetoric to pursue specific policy 
proposals on climate change, proposals that could have negative 
repercussions both at the level of public policy and at the level of 
evangelical identity. The Southern Baptist Convention, of which I am a 
member, stands representative of this concern. The SBC is the nation's 
largest Protestant denomination, made up of over 16 million members in 
more than 42,000 churches. With other evangelical denominations and 
organizations, the SBC has expressed concern about the theological 
assumptions behind the religious voices calling for massive 
governmental intervention on the question of climate change.
    The refusal of many conservative evangelicals to accept at face 
value the arguments for drastic government involvement and action 
regarding global warming should not be seen as a lack of concern for 
the care of creation. It is not as though conservative Christians are 
asking, ``What hath Jerusalem to do with Kyoto?'' Secular 
environmentalist progressives at times have charged American 
evangelical Protestants as holding an inherent hostility to 
environmental protection--rooted often in a caricature of evangelical 
views of the human dominion, Armageddon, and the imminence of the end 
times.\3\ Such caricatures do not stand up to close scrutiny. Indeed, 
the beginnings of the contemporary ecological movements coincided with 
evangelical thinkers such as Francis Schaeffer and Carl F.H. Henry 
calling the church to stewardship of the earth.\4\
---------------------------------------------------------------------------
    \3\ For example, Stephenie Hendricks, Devine Destruction: Wise Use, 
Dominion Theology, and the Making of American Environmental Policy 
(Hoboken, NJ: Melville House, 2005).
    \4\ For example, Francis A. Schaeffer, Pollution and the Death of 
Man (Wheaton, IL: Tyndale House, 1970).
---------------------------------------------------------------------------
    The SBC, a consistently conservative voice on theological and 
cultural concerns since a redirection of the denomination's leadership 
in 1979 called the Convention back to the doctrinal orthodoxy of its 
founders, has adopted resolutions calling on Southern Baptists to 
``recognize publicly our responsibility to God to be better stewards of 
all of the created order'' and to ``seek ways personally and 
corporately to care for the earth'' [Appendix A]. Far from seeing the 
earth as of secondary importance in light of a future Armageddon, 
messengers to last year's Southern Baptist Convention meeting spoke 
publicly to the goodness of the created order and to the ultimate 
restoration of the cosmos in Christ [Appendix B]. Because the creation 
reveals the glory of God, Southern Baptists resolved, the protection of 
the creation should be a priority for Christians.
    The theological impetus for environmental concern on the part of 
Southern Baptists and like-minded evangelicals is, however, the very 
reason these Christians are opposed to the use of religion employed by 
some environmental activists on the global warming issue.
    The first area of concern is that the biblical text not be used as 
vehicle for a political agenda--no matter how commendable the agenda 
might be. This does not mean that evangelicals believe the Scripture is 
irrelevant to political concerns. Southern Baptists and other 
evangelicals are not afraid of saying ``Thus saith the Lord'' to issues 
clearly revealed in Scripture--calling for the protection of innocent 
human life, for instance. The Bible does call us to serve as guardian-
stewards of the earth and her resources, but the global warming debate 
is not simply between those who argue for such stewardship and those 
who argue against it. Rather the debate is, at this point, largely at 
the questions of prudence. How much of climate change is human caused? 
And what would be the cost--in terms of loss of economic security, 
private property, national sovereignty, personal liberty--for such 
initiatives to be put into place? Christians can and do disagree on 
such questions. To tie the authority of the Bible to the shifting and 
revisable scientific and public policy proposals of one's global 
warming agenda is unhelpful to the debate at best and trivializing of 
Christian faith at worst.
    This hyper-politicization of the gospel is a key reason why 
conservative Protestants in the twentieth century distanced themselves 
from the liberal bureaucracies of the National Council of Churches and 
the mainline denominations, groups which now face ever declining 
memberships even as they churn out more and more detailed policy 
statements. As evangelical theologian Carl F.H. Henry put it in 1964, 
``Is it not incredible that some churchmen, whose critical views of the 
Bible rest on the premise that in ancient times the Spirit's 
inspiration did not correct erroneous scientific concepts, should 
seriously espouse the theory that in modern times the Spirit provides 
denominational leaders with the details of a divine science of 
economics?'' \5\ This pattern repeats itself in the present discussion 
of climate change. Evangelical Christians will not be convinced to 
support a public policy proposal on the basis of citations of the 
Garden of Eden and the Ark of Noah by churches that long ago relegated 
the narrative of Genesis to myth and saga.
---------------------------------------------------------------------------
    \5\ Carl F.H. Henry, Aspects of Christian Social Ethics (Grand 
Rapids: Eerdmans, 1964), 136-37.
---------------------------------------------------------------------------
    The ecumenical Left is not the only religious voice calling for 
specific action on global warming. Groups such as the Evangelical 
Environmental Network and some high-profile evangelical leaders have 
also joined the debate. Many of their arguments are sound, and can be 
affirmed and commended across the evangelical spectrum. The problem 
with this engagement comes not at the question of human stewardship of 
the environment, but, again, with the tying of this mandate to specific 
policy proposals--with ramifications that are not yet fully known.
    This is further complicated when national political leaders point 
to evangelical global warming activism as a means to mobilize the 
evangelical vote toward liberal candidates. Democratic National 
Committee chair Howard Dean has called on outreach to evangelicals--not 
by reconsidering the Party's platform on issues such as abortion 
rights--but by capitalizing on what are seen to be liberalizing 
political trends within evangelicalism. ``People don't want to go to 
church anymore...and come out feeling bad because they know someone 
who's gay,'' Dean said. ``People want to go to church because they know 
what they can do about poverty, about Darfur, about the environment'' 
\6\ Actually, most evangelicals would say that people go to church for 
none of these reasons, but instead to know Christ and to live together 
as an obedient outpost and herald of the Kingdom of God. The partisan 
political dynamic further impedes the conversation among evangelicals.
---------------------------------------------------------------------------
    \6\ Carla Marinucci, ``DNC Chair Dean Says Party Needs to Invite 
Young Evangelical Christians,'' San Francisco Chronicle, 11 May 2007, 
B2.
---------------------------------------------------------------------------
    The use of religion by global warming activists is what leads to 
such statements as the June 2006 SBC resolution [Appendix B] which 
concludes that ``some environmental activists are seeking to advance a 
political agenda based on disputed claims,'' an agenda that, according 
to the Convention resolution, threatens ``to become a wedge issue to 
divide the evangelical community and further distract its members from 
the priority of the Great Commission.''
    Secondly, Southern Baptists and other conservative evangelicals are 
wary of the utopianism present in the proposals of many 
environmentalist proposals on climate change--both secular and 
religious. An evangelical Protestant commitment to creation is built on 
an understanding of the narrative of history as outlined in Scripture. 
God created all things, and declared them good, for the purpose and 
goal of presenting the universe as an inheritance to Christ Jesus. 
Humanity, God's image-bearing vice-regent, declared treason against 
God's lordship and plunged the natural order into captivity to a curse. 
In Christ, Christians believe, God is redeeming the world--by putting 
away sin and death. And, ultimately, God will redeem his creation by 
freeing nature from its curse. We understand that we live in the 
``already'' of an ``already/not yet'' framework of this restoration. We 
cannot therefore share an economic libertarian's purely utilitarian 
view of the earth and its resources. Nor can we share a radical 
environmentalist's apocalyptic scenarios of ``earth in the balance.'' 
In our care for creation, we must maintain the limits of environmental 
action, knowing that the ultimate liberation of creation has everything 
to do with our resurrection and the resumption of human rule through 
Christ over this universe. This sense of limitation is why the 2006 SBC 
resolution speaks both of human stewardship over creation and the 
preeminent responsibility for human reconciliation with God.
    One can then understand why some evangelical Christians may be 
puzzled when a respected conservative evangelical statesman says that 
the global warming cause should be seen as ``a note from God'' saying 
that though sin has its consequences, ``with my help you can restore 
Eden.'' \7\ Without a doubt this evangelical did not mean to imply that 
global government action on climate change, fueled along by creation-
care theology of religious persons, could reverse the curse of the 
Fall. Nonetheless, conservative evangelicals, such as Southern 
Baptists, will not resonate with any program to address climate change 
that does not clearly see the limitations of such human endeavors, 
especially since so much of the language of the secular 
environmentalist movement often veers into techno-idolatrous 
triumphalism that is closer, in the minds of evangelical Christians, to 
the Tower of Babel than to the Ark of Noah. Christians, as all people 
of the contemporary era, have seen the failures all around us--some 
simply misguided; some profoundly wicked--of utopian visions that call 
for the power of national or multi-national governments.
---------------------------------------------------------------------------
    \7\ Richard Cizik, cited in John McNeill, ``12 Ideas for the 
Planet,'' Newsweek, 16 April 2007, 92.
---------------------------------------------------------------------------
    Finally, Southern Baptists and like-minded evangelical Christians 
are concerned that any public policy proposals on global warming do not 
compromise the uniqueness and dignity of humanity. The 2006 SBC 
resolution warns against a ``neo-pagan'' environmentalist replacement 
of God the Father with Mother Earth [Appendix B]. The resolution 
further laments that some sectors of the environmentalist movement have 
``elevated animal and plant life to the place of equal--or greater--
value with human Life.'' This concern is hardly imagined. While former 
Vice President Gore chooses to speak of global warming as a ``fever'' 
of the earth, others have used far more disturbing language--including 
one recent liberal Baptist thinker who commented that human beings 
themselves are the earth's ``cancer'' eating away at the organism of 
the planet.\8\
---------------------------------------------------------------------------
    \8\ Oliver ``Buzz'' Thomas, ``God Goes Green,'' USA Today, 4 June 
2007, A11.
---------------------------------------------------------------------------
    That human beings bear the image of Jesus, the perfect icon of 
God's nature, is at the very heart of the Christian understanding of 
the universe. The earth was indeed created, evangelicals believe, for 
human beings--or, more correctly, for a human being: Jesus Christ. It's 
not just that the meek shall go to heaven; they shall inherit the 
earth.
    The unique dignity of humanity must be addressed in the global 
warming debates chiefly on two issues: that of population control and 
that of the world poverty.
    Any public policy proposal on global climate change that seeks to 
enlist the support of evangelicals must address the role of population 
control in such an agenda. This is especially true in an era when 
millions of unborn children every year, in the United States alone, 
lose their lives to abortion; when governments such as that of China 
coercively determine family size. Evangelical global warming activists 
assure us they remain committed to the sanctity of human life; and I 
believe them. But those who are still unsure of the precise 
contribution of human beings to climate change will be especially 
attentive to whether any proposal--even one we can support otherwise--
does not sacrifice the dignity of human life.
    Likewise. Southern Baptists and other evangelicals must question 
the effect of any global warming legislation on the world's poor. In a 
groundbreaking study, Philip Jenkins reminds us that global 
Christianity is increasingly less represented by the wealthy elites of 
America's dwindling Protestant mainline and more represented by 
impoverished but vibrant congregations in the Global South.\9\ What 
will global warming measures do to men, women, and children, in these 
countries? The global poor are not simply a ``cause'' for conservative 
evangelicals. Because of our commitment to world missions, we are 
involved on a daily basis in cooperative efforts to minister to 
impoverished people all over the world. The Southern Baptist Convention 
alone has an international mission force of over 5,000 missionaries--
many of them engaged daily in helping to provide food, clean water, and 
relief to the world's poor. This is why the SBC has spoken out 
regarding the effects of some environmental proposals on ``economic 
well-being,'' not chiefly out of a personal concern for the personal 
costs of endless regulation but for the social costs as well.
---------------------------------------------------------------------------
    \9\ Philip Jenkins, The Next Christendom: The Coming of Global 
Christianity (New York: Oxford University Press, 2002).
---------------------------------------------------------------------------
    Evangelical ethicist E. Calvin Beisner argued to the Vatican's 
Pontifical Council for Justice and Peace [Appendix C], ``Because energy 
is an essential component in economic production, reducing its use and 
driving up its costs--often reducing its use by driving up its costs--
will slow economic development in poor communities, reduce overall 
productivity and increase costs of all goods, including the food, 
clothing, shelter, and other goods most essential to the poor.'' 
Beisner further contends that the tremendous resources involved in a 
carbon dioxide emissions reduction policy could divert resources needed 
for the more crucial obviously needed tasks of providing 
electrification, water purification, and sanitation for the world's 
poor. The SBC Ethics and Religious Liberty Commission (ERLC) expressed 
similar concern through its president Richard Land's statement: 
``Draconian measures to reduce reliance on fossil fuels will hurt the 
poor because it will not allow them to develop their societies. Studies 
have shown that developed societies are actually cleaner societies and 
better able to adapt to changes in climate.''\10\ This warning deserves 
careful attention.
---------------------------------------------------------------------------
    \10\ Gregory Tomlin, ``Gore's Oscar, Global Warming Debated Among 
Evangelicals,'' Baptist Press, 9 March 2007.
---------------------------------------------------------------------------
    In a public policy statement on this issue, the ERLC has 
acknowledged a probable human contribution to climate change, while 
noting that the extent of humanity's role and the possibility of 
curbing such climate change effectively are not yet conclusive 
[Appendix E]. The ERLC statement therefore concludes:
    The Christian view on global warming needs to be based on theology 
and reason, and this position on global warming bas been developed 
under these guidelines. God has given man a biblical requirement for 
stewardship (Gen. 2:l5), which means that humans should both use and 
care for the environment. Devaluing the use and overemphasizing the 
care for the environment is not a proper biblical practice and neither 
is the opposite. Biblical stewardship demands a dual relationship 
between use and care in order to develop industry and protect against 
abuse. In the current global warming debate there are simply not enough 
facts to mandate an extreme limiting of the use of natural resources to 
guard against ``abuse'' that only has hypothetical consequences and 
goes against the informed opinions of thousands of knowledgeable 
scientists and climatologists.
    The SBC and other like-minded evangelical groups are not opposed to 
environmental protection. We have no pronouncements on what Jesus would 
drive. We are sure that He would call us to protect the earth, to care 
for the poor, and to protect innocent human life. We forthrightly state 
that our understanding of this matter has everything to do with 
theological considerations--as do many of the proposals from 
environmentalists sounding the alarm on global warming. As citizens of 
a Republic, we do not demand that our fellow citizens adopt our 
theological convictions, though we are quite willing to discuss how our 
commitment to biblical principles shapes the questions we ask on such 
matters. We are, however, concerned about the ways in which religious 
arguments are used in this debate, possibly with harmful consequences 
both for public policy and for the mission of the church.
    Thank you, Senators, for your time and consideration. I welcome any 
questions you may have.

[GRAPHIC] [TIFF OMITTED] T1968.060

[GRAPHIC] [TIFF OMITTED] T1968.061

[GRAPHIC] [TIFF OMITTED] T1968.062

[GRAPHIC] [TIFF OMITTED] T1968.063

[GRAPHIC] [TIFF OMITTED] T1968.064

[GRAPHIC] [TIFF OMITTED] T1968.065

[GRAPHIC] [TIFF OMITTED] T1968.066

[GRAPHIC] [TIFF OMITTED] T1968.067

[GRAPHIC] [TIFF OMITTED] T1968.068

[GRAPHIC] [TIFF OMITTED] T1968.069

[GRAPHIC] [TIFF OMITTED] T1968.070

[GRAPHIC] [TIFF OMITTED] T1968.071

[GRAPHIC] [TIFF OMITTED] T1968.072

[GRAPHIC] [TIFF OMITTED] T1968.073

[GRAPHIC] [TIFF OMITTED] T1968.074

[GRAPHIC] [TIFF OMITTED] T1968.075

[GRAPHIC] [TIFF OMITTED] T1968.076

[GRAPHIC] [TIFF OMITTED] T1968.077

[GRAPHIC] [TIFF OMITTED] T1968.078

[GRAPHIC] [TIFF OMITTED] T1968.079

[GRAPHIC] [TIFF OMITTED] T1968.080

[GRAPHIC] [TIFF OMITTED] T1968.081

[GRAPHIC] [TIFF OMITTED] T1968.082

[GRAPHIC] [TIFF OMITTED] T1968.083

[GRAPHIC] [TIFF OMITTED] T1968.084

[GRAPHIC] [TIFF OMITTED] T1968.085

[GRAPHIC] [TIFF OMITTED] T1968.086

[GRAPHIC] [TIFF OMITTED] T1968.087

[GRAPHIC] [TIFF OMITTED] T1968.088

[GRAPHIC] [TIFF OMITTED] T1968.089

[GRAPHIC] [TIFF OMITTED] T1968.090

[GRAPHIC] [TIFF OMITTED] T1968.091

[GRAPHIC] [TIFF OMITTED] T1968.092

[GRAPHIC] [TIFF OMITTED] T1968.093

[GRAPHIC] [TIFF OMITTED] T1968.094

[GRAPHIC] [TIFF OMITTED] T1968.095

[GRAPHIC] [TIFF OMITTED] T1968.096

[GRAPHIC] [TIFF OMITTED] T1968.097

[GRAPHIC] [TIFF OMITTED] T1968.098

[GRAPHIC] [TIFF OMITTED] T1968.099

[GRAPHIC] [TIFF OMITTED] T1968.100

[GRAPHIC] [TIFF OMITTED] T1968.101

[GRAPHIC] [TIFF OMITTED] T1968.102

[GRAPHIC] [TIFF OMITTED] T1968.103

[GRAPHIC] [TIFF OMITTED] T1968.104

[GRAPHIC] [TIFF OMITTED] T1968.105

[GRAPHIC] [TIFF OMITTED] T1968.106

[GRAPHIC] [TIFF OMITTED] T1968.107

[GRAPHIC] [TIFF OMITTED] T1968.108

[GRAPHIC] [TIFF OMITTED] T1968.109

[GRAPHIC] [TIFF OMITTED] T1968.110

[GRAPHIC] [TIFF OMITTED] T1968.111

[GRAPHIC] [TIFF OMITTED] T1968.112

[GRAPHIC] [TIFF OMITTED] T1968.113

      Responses by Russell D. Moore to Additional Questions from 
                             Senator Inhofe

    Question 1. Have Southern Baptists spoken collectively to the issue 
of global warming even more recently than their annual convention in 
Greensboro in 2006? If so, what did they say?
    Response. Yes, the Southern Baptist Convention addressed the issue 
of global warming explicitly this year at the SBC meeting in San 
Antonio. SBC resolution number 5, adopted this June by the SBC is 
included with this correspondence as Attachment A.
    This resolution, when originally reported out of the SBC 
resolutions committee, was already quite strongly worded. It was 
strengthened by action from the floor to delete language That called 
for government support for research on cleaner, alternative fuels. This 
sort of amendment from the floor, especially one that strengthens a 
resolution, is quite rare in SBC polity. It further demonstrates that 
Southern Baptists are not part of the so-called ``evangelical 
consensus'' on global warming represented by some within the National 
Association of Evangelicals and other groups.

    Question 2. What specific concerns did Southern Baptists express 
this year about climate change legislation?
    Response. The resolution addresses many of the concerns I mentioned 
to the committee in my June 7 testimony along with several others. The 
resolution denies that the scientific data conclusively demonstrate the 
idea of catastrophic human-induced global warming. It filthier points 
out specific concerns with Kyoto Protocol including the possibly 
crippling effects of Kyoto on developing nations, a burden which will 
be home Largely by the world's poor.
    The resolution concludes that the Southern Baptist Convention 
messengers gathered in San Antonio ``consider proposals to regulate 
CO<INF>2</INF> and other greenhouse gas emissions based on a maximum 
acceptable global temperature goal to be very dangerous, since attempts 
to meet the goal could lead to a succession of mandates of deeper cuts 
in emissions, which may have no appreciable effect if humans are not 
the principal cause of global warming, and could lead to major economic 
hardships on a worldwide scale.''

    Question 3. Do you have any concerns about groups such as the 
Evangelical Environmental Network being funded by a foundation that 
supports abortion advocacy?
    Response. I am indeed concerned about such funding.
    At the June 7 hearing, Senator Inhofe asked Jim Ball of the 
Evangelical Environmental Network about the funds given to the 
Evangelical Climate Initiative advertising campaign and other EEN 
causes by the Hewlett Foundation, a foundation that supports abortion-
rights causes and groups including the National Abortion Federation, 
Planned Parenthood Federation of America, the Religious Coalition for 
Reproductive Choice, and Catholics for a Free Choice. The foundation 
notes on its website that it ``concentrates its resources on activities 
in education, environment, global development, performing arts, and 
population.'' It is the last of these emphases that concerns me. The 
Hewlett Foundation has given $1 million donations in 2001 and 2004 to 
the United Nations Population Fund, which holds a view of humanity 
quite at odds with the worldview of biblical Christian theology and 
which is tied to coercive abortion policies in countries such as China.
    No one is suggesting that organizations such as EEN are covertly 
abortion-rights groups. The question is instead why would a group so 
interested in supporting abortion-rights and, specifically, population 
control wish to fund an initiative by evangelical Christians? Clearly, 
I think, it is because the Hewlett Foundation believes that a religious 
advocacy for action on global warming can lead to drastic national and 
multi-national action on climate change, action that includes--in most 
environmentalist proposals offered around the world to date--``action'' 
on population control.
    Evangelical Christians believe in the stewardship of humanity of 
the creation. We also believe, however, in the dignity of human beings 
created in the image of God. Any proposal that seeks to shed innocent 
human blood, born or pre-born or which sees the Genesis mandate of a 
fruitful and multiplying humanity as a curse rather than a blessing 
cannot be supported by evangelical Christians.
    Mr. Ball's response to Senator Inhofe's question was perplexing to 
me. Mr. Ball suggested that any funds from the Hewlett Foundation to 
evangelical global warming initiatives made money the Foundation could 
use to fund abortion that much less. 1 think the larger question is 
whether the Hewlett Foundation believes their support of these 
initiatives does lead ultimately to abortion and population-control 
policies, and whether they are right to assume so.
    I have appended to this document (Attachment B) a news article from 
the Baptist Press, the news service of the Southern Baptist Convention, 
about the reaction of some evangelical groups to reports of Hewlett 
Foundation funding of the Evangelical Climate Initiative.

    Question 4. Does your position simply leave the climate change 
dismission at the level of laissez-faire, leaving corporations to 
impact the earth and its atmosphere, as they will for the sake of 
economic growth?
    Response. My position could not be further from a corporatist 
laissez-faire approach to environmental conservation. Government does 
have a role in protecting the common good. I support much, if not most, 
of the environmental protection legislation passed by the United States 
Congress since the 1970s. Government has a role in protecting our 
national parks, our wildlife refuges, the purity of our water systems, 
and the quality of our air. At issue in this discussion is not whether 
corporations should be free to run untrammeled over the earth, but 
instead whether this specific set of policy recommendations is wise, 
especially given religious groups' willingness to grant such 
recommendations the implicit imprimatur of divine revelation by tying 
them to Scripture passages on creation stewardship.
    Southern Baptists and other conservative evangelicals are hardly 
captive to Exxon/Mobil or any other corporation. We have been more than 
willing to speak to the issue of corporate irresponsibility repeatedly 
over the years. Southern Baptists went so far as to all for a boycott 
of the Disney theme parks in 1997 out of concern for the corporation's 
perceived contributions to cultural decay. We have spoken out 
consistently against an American corporate culture that profits from 
alcohol and tobacco abuse, materialistic covetousness, pornography, the 
dissolution of the nuclear family, and the list goes on and on. 
Conservative evangelicals are not naive about human sinfulness--
including sinfulness that can accumulate in corporate structures. With 
such the case, conservative Protestant Christians are as suspicious of 
big business as we are of big government.
    At issue in this discussion is not, for me, whether oil companies 
will profit or fail to profit from whatever policy decisions are made, 
but whether the policies advocated will do more harm than good and 
whether, when tied as they have been to divine revelation, they co-opt 
the Word of God as a prop for a dubious political program.

[GRAPHIC] [TIFF OMITTED] T1968.122

[GRAPHIC] [TIFF OMITTED] T1968.123

[GRAPHIC] [TIFF OMITTED] T1968.124

[GRAPHIC] [TIFF OMITTED] T1968.125

[GRAPHIC] [TIFF OMITTED] T1968.126

[GRAPHIC] [TIFF OMITTED] T1968.127

[GRAPHIC] [TIFF OMITTED] T1968.128

[GRAPHIC] [TIFF OMITTED] T1968.129

[GRAPHIC] [TIFF OMITTED] T1968.130

    Senator Boxer. Thank you so much, Doctor.
    Here is what we are going to do. We have two back to back 
votes, but we have time to hear from both of you, if you keep 
it to 5 or 6 minutes. Then we will take a break and we will be 
back to question the panel.
    So I want to welcome our next witness, the Reverend Dr. Jim 
Tonkowich, president, Institute on Religion and Democracy. 
Welcome.

   STATEMENT OF THE REVEREND DR. JAMES TONKOWICH, PRESIDENT, 
              INSTITUTE ON RELIGION AND DEMOCRACY

    Rev. Tonkowich. Thank you, Madam Chairman. Thank you for 
this opportunity to present my testimony.
    Most of the constituents of the Institute on Religion and 
Democracy are evangelicals who are members of the so-called 
mainline Protestant churches. They are involved with the IRD in 
part because they feel mis-represented by their denominational 
Washington offices and by groups like the National Council of 
Churches. Most are working within their denominations to bring 
about changed social witness policies that are consistent with 
biblical and historic Christianity.
    I would like to address two concerns regarding global 
warming this morning. First, human population and human 
development and second, the importance of debate. Since the 
Biblical story begins in a pristine garden, it is tempting to 
think that the story will end with the garden restored. But 
instead of restoration, the Bible is a story of recreation with 
an unexpected twist. The grand story that begins in Genesis in 
a garden ends in the book of Revelation in a city.
    Now, a city is a complex of artifacts: walls, doors, 
windows, foundations fashioned out of quarried stone, lumber, 
metal and glass. The Bible values human beings as makers and 
creators. In fact, the world is incomplete without human 
activity. Even in Eden, there was no call to maintain an 
unpopulated wilderness area. Humans create.
    A city is also a habitation for people, many people, people 
who belong on the earth. This idea is in contrast with much, if 
not most, environmentalist thinking. After all, since people 
use up natural resources, release carbon dioxide and otherwise 
pollute the environment, fewer people means less harm. Ergo, to 
save the earth, we have to reduce the human population. That is 
creeping into the thinking of Christian activists as well.
    The foundational document of the evangelical environmental 
network states that environmental ``degradations are a sign 
that we are pressing against the finite limits God has set for 
creation. With continued population growth, these degradations 
will become more severe.'' What solution is there for this 
problem, if it is a problem, except population control?
    Yet population control, which nearly always includes 
abortion on demand, is abhorrent to evangelical and Catholic 
Christians. By contrast, a view that is consistent with 
biblical and historic Christian teachings is that human beings, 
human procreation and human industry are positive goods. The 
problem is not population, it is how to create a just, 
peaceful, educated society in which people can use and develop 
the technologies that they need. In order to do that, we must 
make sufficient quantities of inexpensive energy available to 
the global poor, something believers in catastrophic global 
warming are unwilling to do because of fear of global warming.
    It is not just a matter of withholding energy, as Senator 
Inhofe pointed out. According to the Congressional Budget 
Office, CO<INF>2</INF> cap and trade policies will 
disproportionately hurt the poor.
    The second concern I want to mention is over the debate 
itself. Recently at a discussion between evangelicals on both 
sides of this issue, one side presented facts, arguments and 
questions. The other, those who believe in catastrophic global 
warming, responded with nothing but bald assertions, insisting 
that the debate is over. When pressed, one participate, as if 
on cue, reverted to an ad hominem attack and went on to assert 
that he believes whatever the scientists tell him because of 
the scientific consensus.
    But there is no scientific consensus. Attached to my 
written testimony is an appendix listing scientists and 
scholars with relevant expertise who do not see the evidence 
for catastrophic, human-induced global warming. The kind of 
radical fideism that some evangelicals are exhibiting is a 
betrayal of science, because science is not about voting. 
Science is about facts, interpretation of those facts and 
conclusions that either align with reality or don't. Even if 
there was ``nearly universal agreement'' scientific consensus 
has been wrong in the past. It will be wrong again. Thank God 
for the skeptics.
    It is also a betrayal of the Christian intellectual 
tradition. Christians have always relied on faith and reason to 
understand the world. We test would-be authorities in light of 
faith and reason. We ask hard questions, we demand answers, 
particularly when the livelihood and lives of the poor are at 
stake.
    Stewardship of creation is non-negotiable. Environmental 
issues deserve well-informed and thoroughly Christian responses 
that consider all the scientific evidence.
    Further, we must avoid the dangerous misanthropy of much 
modern environmentalist ideology, and we must avoid public 
relations campaigns that simply rely on endless repetition. 
Instead, a thoroughly Christian response will affirm that 
humans and human activity are valuable, worthy and in fact, 
indispensable in God's good plan for His good earth.
    Thank you so much.
    [The prepared statement of Reverend Tonkowich follows:]

      Statement of the Rev. Dr. James Tonkowich, The Institute on 
                         Religion and Democracy

    First, I want to thank you for this opportunity to present my 
testimony. The Institute on Religion & Democracy is an ecumenical 
alliance of U.S. Christians working to reform their churches' social 
witness in order to contribute to the renewal of democratic society at 
home and abroad. Most of our constituents, let me add, are evangelicals 
who are members of the so-called ``mainline'' Protestant churches. They 
are involved with the IRD in part because they feel misrepresented by 
their denominational Washington offices and by groups like the National 
Council of Churches. Most are working within their denominations to 
bring about changed social witness policies that are consistent with 
biblical and historic Christian teachings.
    This morning I would like to address two concerns regarding global 
warming, concerns where Christian theology had sometimes been 
misconstrued in the global warming debates. The first is the positive 
valuation of human population and human development. The second is the 
importance on not foreclosing prudential debates that should remain 
open.
    This summer, our son is getting married in his bride's hometown 
just outside Yosemite Valley. So along with a wedding, there'll be 
biking and fly fishing in the high country of Tuolumne Meadows.
    Isn't that the way the world should be? After All, the biblical 
story begins in a garden--fresh, newly created, uncluttered, natural, a 
pristine wilderness.
    Then came the breaking of God's law--the Fall.
           ``Cursed is the ground because of you,'' said God. ``Through 
        painful toil you will eat of it all the days of your life.
           It will produce thorns and thistles for you and you will eat 
        the plants of the field. By the sweat of your brow you will eat 
        your food until you return to the ground, since from it you 
        were taken; for dust you are and to dust you will return.'' 
        (Genesis 3:17b-19).
    After the expulsion from Eden, the story of humanity and of our 
relationship with God on this cursed ground seems as though it should 
end up back in the Garden. All the trash cleaned up and the marvelous, 
all-natural freshness of Eden restored. The Earth picked clean of human 
encroachment.
    Its tempting to think about it that way. In fact recently National 
Association of Evangelicals Vice President for Governmental Affairs 
Richard Cizik told Newsweek that he feels that God is saving, ``...with 
my help, you can restore Eden.''\1\ The thought is tempting, the sound-
bite attractive, but biblically and theologically, it's pure nonsense.
---------------------------------------------------------------------------
    \1\ Richard Cizik in ``16 Ideas for the Planet,'' Newsweek, April 
16, 2007.
---------------------------------------------------------------------------
    In the final analysis, the Bible is not a story of restoration. 
It's a story of re-creation. ``Behold,'' says God in Revelation 21:5, 
``I'm making everything new.'' Eden will never be restored. That was 
never the intent. Instead something better will happen: all things will 
be made new--re-created with an unexpected twist. The grand story that 
began in a garden ends in a city. This final city, the New Jerusalem, 
descends out of the New Heavens to its place on the New Earth. Its a 
perfect city; a river and garden mark its heart, but its a city 
nonetheless.
    What is a city? First, a city is a complex of artifacts. Cities are 
not created out of nothing, nor do they grow out of the ground. Cities 
are shaped from the stuff of creation. Walls, doors, windows, paving 
stones, foundations fashioned out of stone that must be quarried, wood 
that must be harvested, and metal smelted from ore.
    The Bible values humans as makers who take the raw material of 
creation--stone, trees, ores--and create. In fact, the creation is 
incomplete without human activity shaping it. Even in Eden, God called 
humans to tend the Garden and rule Earth's creatures (Genesis 1:28). 
This was not a call to maintain the Earth as an unpopulated wilderness 
area. The Bible sees human beings, human procreation, and human 
industry as positive goods. We improve what we are given. We build 
cities.
    Second, a city is a habitation for people--people who belong on the 
Earth. ``Be fruitful, multiply, fill the Earth'' (Genesis 1:28).
    This, as it turns out, is in contrast with much if not most 
environmentalist thinking.
    For example, last year, the Texas Academy of Science named ecology 
professor Eric Pianka of the University of Texas its ``Distinguished 
Texas Scientist'' for 2006. In his acceptance speech Pianka said the 
only hope for Earth is the death of ninety percent of its human 
inhabitants. His remarks were greeted by what one observer called 
``loud, vigorous, and enthusiastic applause''\2\ presumably by people 
who think they're part of the ten percent.
---------------------------------------------------------------------------
    \2\ Forrest M. Mims, ``Meeting Doctor Doom'' in Citizen Scientist, 
March 31, 2006. http://www.sas.org/tcs/weeklyIssues--2006/2006-04-07/
feature1p/index.html
---------------------------------------------------------------------------
    Pianka's remarks are consistent with a long history of 
environmentalist thinking that sees humans simply as consumers and 
polluters if not parasites and an infestation. This thinking leads many 
to insist that population control--including unlimited abortion on 
demand--is integral to any environmental agenda.
    <bullet> ``People are always and everywhere a blight on the 
landscape,'' said John Muir, founder of the Sierra Club.\3\
---------------------------------------------------------------------------
    \3\ Fort Worth Dallas Four Wheel Drive, 5 October 1999. ``Quotes 
from some Green Advocate Group Members.'' Internet: www.fwd-fwd.org/
quotes.html. Accessed on 19 January 2000.
---------------------------------------------------------------------------
    <bullet> ``Given the total, absolute disappearance of Homo 
sapiens,'' wrote Paul Taylor, author of Respect for Nature, A Theory of 
Environmental Ethics ``then not only would the Earth's community of 
Life continue to exist, but in all probability, its well-being 
enhanced. Our presence, in short, is not needed.''\4\
---------------------------------------------------------------------------
    \4\ Taylor, Paul, 1986. Respect for Nature: A theory of 
Environmental Ethics, Princeton, NJ: Princeton University Press, P. 
115.
---------------------------------------------------------------------------
    <bullet> Gophilus, spokesman for Gaia Liberation Front has said, 
``[W]e have no problem in principle with the humans reducing their 
numbers by killing one another. It's an excellent way of making the 
humans extinct.''\5\
---------------------------------------------------------------------------
    \5\ The Off-Road Network, 2000. Genocide Threats from Green 
Terrorists. Internet: www.off-road.com/green/genocide.html. Accessed on 
19 January 2000.
---------------------------------------------------------------------------
    <bullet> And John Davis, editor of the journal ``Earth First! '' 
Commented, ``Human beings, as a species, have no more value than 
slugs.'' \6\
---------------------------------------------------------------------------
    \6\ Fort Worth/Dallas Four Wheel Drive, 5 October 1999. Quotes From 
Some Green Advocate Group Members. Internet: www.fwd-fwd.org/
quotes.html. Accessed on 19 January 2000.
---------------------------------------------------------------------------
    In a similar vein, Dr. Jay Richards of the Acton Institute received 
an email from a scientist who commented:
    Surely, the Black Death was one of the best things that ever 
happened to Europe: elevating the worth of human labor, reducing 
environmental degradation, and, rather promptly, producing the 
Renaissance. From where I sit, Planet Earth could use another major 
human pandemic, and pronto!\7\
---------------------------------------------------------------------------
    \7\ Jay Richards, ``God and Man in the Environmental Debate.'' 
Acton Institute, November 30, 2005. http://www.acton.org/policy/
comment/article.php?article=298
---------------------------------------------------------------------------
    Now logically, you can support schemes for climate change without 
supporting population control. But for many environmentalists climate 
control is inextricably linked to population control. After all, since 
people use up natural resources, release carbon dioxide, and otherwise 
pollute the environment, fewer people means less harm to the 
environment So, to save the Earth, we have to reduce the human 
population. And that thinking is creeping into the thinking of some 
Christians.
    For example, the foundational document of the Evangelical 
Environmental Network states that environmental ``degradations are 
signs that we are pressing against the finite limits God has set for 
creation. With continued population growth, these degradations will 
become more severe.'' \8\ What solution is there to this problem except 
population control?
---------------------------------------------------------------------------
    \8\ Evangelical Environmental Network, ``On the Care of Creation: 
An Evangelical Declaration on the Care of Creation.'' http://
www.creationcare.org/resources/declaration.php.
---------------------------------------------------------------------------
    Karen Coshof who produced the film ``The Great Warming''--a film 
enthusiastically endorsed by some evangelical leaders--said after the 
film's release, ``Population is the underlying problem--the catalyst 
for the whole thing, but we didn't get into that in the film. That is 
the underlying problem--too many people--all in competition for the 
same resources.''\9\
---------------------------------------------------------------------------
    \9\ Kate Monaghan, ``Climate Movie: Conservative Worries Christians 
May Be Duped.'' CNS News, November 6, 2006. http://www.cnsnews.com/
Culture/Archive/200611/CUL20061102a.html
---------------------------------------------------------------------------
    National Association of Evangelicals Vice President for Government 
Affairs, Richard Cizik told an audience at the World Bank, ``We need to 
confront population control and we can--we're not Roman Catholics after 
all--but it's too hot to handle now.'' \10\
---------------------------------------------------------------------------
    \10\ Myron Ebell, Personal e-mail (May 2, 2006). Ebell is Director, 
Energy and Global Warming Policy at the Competitive Enterprise 
Institute.
---------------------------------------------------------------------------
    Population control, which nearly always includes abortion on 
demand, is abhorrent to most Evangelical and Catholic Christians.
    By contrast, a view that is consistent with biblical and historic 
Christian teaching is that Earth was shaped by a benevolent Creator to 
be the habitat that sustains and enriches human life even as humans 
sustain and enrich the Earth through human creativity and human 
industry.
    Is there sin that destroys the environment? Of course. There's sin 
in everything, but the ethical way to control sin--environmental sin, 
personal sin, economic sin--is not to reduce the population of sinners. 
We need instead to find ways to empower people--particularly the global 
poor--to shape creation for the common good.
    While there is nothing necessarily wrong with the thoughtful 
procreation of children, the notion of some fixed carrying capacity of 
the entire Earth is highly speculative. And it does not take into 
account that large portions of the Earth's surface are uninhabited, 
most inhabitants are not using the best technologies available, and 
there's no reason to assume that technological innovations have 
suddenly come to a halt.
    The problem is not population. It's how to create just, peaceful, 
educated societies in which people can use and develop technologies to 
meet their needs. And if the truth be told, population growth slows in 
more technologically advanced societies. So even if we wanted to slow 
population growth, the most humane way to do that would been seek the 
greatest economic benefit for the poor. And in order to do that we must 
make sufficient quantities of inexpensive energy available to the 
global poor--something believers in catastrophic global warming are 
unwilling to do.
    And it is not just a matter of withholding energy from those who 
need it According to the Congressional Budget Office, cap-and-trade 
policies of the sort that are advocated by many, including the 
Evangelical Climate Initiative,\11\ will disproportionately hurt the 
poor.
---------------------------------------------------------------------------
    \11\ Evangelical Climate Initiative, ``Principles for Federal 
Policy on Climate Change.'' http://pub.christiansandclimate.org/pub/
PrinciplesforFederalPolicyonClimateChange.pdf

         Regardless of how the allowances were distributed, most of the 
        cost of meeting a cap on CO<INF>2</INF>, emissions would be 
        borne by consumers, who world face persistently higher prices 
        for products such as electricity and gasoline. Those price 
        increases would be regressive in that poorer households would 
        bear a larger burden relative to their income than wealthier 
        households would.\12\
---------------------------------------------------------------------------
    \12\ Congressional Budget Office, ``Trade-Offs in Allocating 
Allowances for CO<INF>2</INF> Emissions'' April 25, 2007, page 1.

    A solution to an environmental problem that will trap the poor in 
their poverty is not a solution.
    An ethical environmental policy must elevate human beings, lifting 
them from poverty and pollution. Wealthier is healthier for humans and 
for the environment. Writing in the Winter 2006 Wilson Quarterly, Bjorn 
Lomborg, the Danish statistician who says he once held ``left-wing 
Greenpeace views,'' wrote:

         . . . if we are smart, our main contribution to the global 
        environment 30 years from now will be to have helped lift 
        hundreds of millions out of poverty, sickness, and malnutrition 
        while giving them a chance to compete in our markets. This will 
        make a richer developing world, whose people will clean up the 
        air and water, replant forests, and go green.\13\
---------------------------------------------------------------------------
    \13\ Bjorn Lomborg, ``What is the Most Pressing Environmental 
Question?'' in Wilson Quarterly, Winter 2006, page 40.

    The second concern I want to raise is over the debate about global 
warming. ``Debate?'' Someone may ask, ``What debate?'' That is exactly 
the problem.
    The proponents of the idea of catastrophic global warming have 
declared that the debate is over. No further discussion is required and 
no further disagreement is welcome, no argument is engaged.
    I was appalled recently at a moderated discussion between 
evangelicals on both sides of the global warming issue. One side 
presented facts, arguments, and questions while the other, those who 
believe in catastrophic global warming, responded with nothing but bald 
assertions. When pressed, one participant--as if on cue--reverted to an 
ad hominem attack on his opponents. He then went on to simply assert 
that he believes whatever the scientists tell him because the 
scientists all agree. But the scientists do not all agree.
    Consider the questions that need to be answered:
    <bullet> How is the climate changing?
    <bullet> What are the causes?
    <bullet> What is the likely extend of future change?
    <bullet> Is it better to adjust to climate change or attempt to 
prevent it?
    <bullet> What measures, if any, would prevent climate change?
    <bullet> How much would such measures cost and would the benefits 
be worth the potentially massive cost?
    In my reading of the literature and listening to the debate, I have 
not seen consensus on any of those questions.
    Attached is an appendix listing scientists with relevant expertise 
who do not see the evidence that the current warming is primarily 
caused by humans and catastrophic.
    The kind of radical fideism that some evangelical Christians are 
exhibiting toward catastrophic global warming is a betrayal of science 
and a betrayal of the Christian intellectual tradition. It is a 
betrayal of science because science is not about voting. Science is 
about facts, interpretations of those facts, and conclusions that 
either align with reality or don't. Scientific consensus has been wrong 
before and it will be wrong again. Thank God for skeptics. They have 
saved millions of lives. ``Skeptic'' should be a badge of honor among 
scientists, and yet it is being tossed about in this debate as a term 
of derision.
    As Carl Sagan wrote, ``On the one hand it [science] requires an 
almost complete openness to all ideas, no matter how bizarre and weird 
they sound, a propensity to wonder. ...But at the same time, science 
requires the most vigorous and uncompromising skepticism, because the 
vast majority of ideas are simply wrong, and the only way you can 
distinguish the right from the wrong, the wheat from the chaff, is by 
critical experiment and analysis.''\14\  Declaring that the debate is 
over based on an alleged consensus and a rejection of skepticism is a 
betrayal of science.
---------------------------------------------------------------------------
    \14\ Carl Sagan, ``Wonder and Skepticism'' in Skeptical Enquire, 
Volume 19, Issue 1, January-February 1995. http://
www.positiveatheism.org/writ/saganws.htm.
---------------------------------------------------------------------------
    It is also a betrayal of the Christian intellectual tradition. 
Christianity, contrary to what some claim, is not pure faith. 
Christians have always relied on faith and reason to understand the 
world. Protestant Christians have stressed the authority and 
responsibility of the individual in making judgments. We test would-be 
authorities by the light of faith and reason. We ask questions.
    The refusal to engage in thoughtful debate about global warming, 
while choosing instead to make dubious assertions about the debate 
being over or all scientists agreeing, is not a Christian approach to 
the issue--particularly when the livelihood and lives of the global 
poor are at stake. As sixty scientists wrote to Canadian Prime Minister 
Stephen Harper, `` `Climate change is real' is a meaningless phrase 
used repeatedly by activists to convince the public that a climate 
catastrophe is looming and humanity is the cause.'' \15\ We can and 
must do better than the repetition of mantras based on what is wished 
to be true.
---------------------------------------------------------------------------
    \15\ Dr. Ian Clark, et. al. ``An open letter to Prime Minister 
Stephen Harper'' in National Post, April 6, 2006. http://
www.canada.com/nationalpost/financialpost/story.html?id=3711460e-bd5a-
475d-a6be-4db87559d605
---------------------------------------------------------------------------
    For Christians, stewardship of God's creation is non-negotiable. 
Environmental issues deserve a well-informed and thoroughly Christian 
response. That response must be one that thoughtfully considers all the 
scientific evidence and eschews a public relations campaign of endless 
repetition. Further, we must also refuse the dangerous misanthropy of 
modem environmentalist ideology. We must take an approach that, by 
contrast, promotes a culture of life and that affirms that humans and 
human activity are valuable, worthy, and, in fact, indispensable in 
God's good plan for this good Earth.

[GRAPHIC] [TIFF OMITTED] T1968.114

[GRAPHIC] [TIFF OMITTED] T1968.115

[GRAPHIC] [TIFF OMITTED] T1968.116

[GRAPHIC] [TIFF OMITTED] T1968.117

    Senator Boxer. Thank you so much, sir.
    Now our last witness, and then Senator Inhofe and I will go 
running off to vote.
    Mr. David Barton, author and historian. We welcome you.

        STATEMENT OF DAVID BARTON, AUTHOR AND HISTORIAN

    Mr. Barton. Thank you, Madam Chair, Senator Inhofe and 
other Senators. My name is David Barton and I represent a group 
that works to integrate faith with the many practical issues of 
daily life. Each year I speak literally to hundreds of 
different religious groups, from numerous different Christian 
denominations. I was honored to be named by Time Magazine as 
one of the top 25 most influential evangelicals in America, and 
that means, of course, that I will be speaking from the 
evangelical perspective.
    Evangelicals are generally characterized by an adherence to 
what is called a traditional or that is, a conservative 
Biblical theology. The Gallup organization places the number of 
evangelicals at about 124 million, Barna much less. But most 
groups agree there are about 100 million evangelicals and the 
group is growing.
    In my experience, three factors influence how people of 
conservative religious faith, especially evangelicals, approach 
the issue of man-caused global warming. The first is their 
theological view of man and the environment. The second is 
their perceived credibility of the scientific debate. The third 
is how evangelicals prioritize the issue of global warming 
among the many other cultural and social issues of concern to 
them.
    A very accurate rendering of evangelicals' theological 
position on the environment is given in the Cornwall 
Declaration, which Senator Inhofe introduced. That was prepared 
by 25 conservative Protestant, Catholic and Jewish theologians. 
In general, evangelicals view the Creation as moving upward, in 
an ascending spiritual hierarchy, moving from the inanimate to 
the animate, with man and woman being the capstone of God's 
work. God placed man and woman over Creation, not under it. Man 
and woman interacted with nature and the environment, they were 
not isolated from it.
    As my Jewish rabbi friend reminded me just last week, the 
Scriptures teach conservation, not preservation. While man was 
definitely to be a good steward of God's creation, God strongly 
warned against elevating nature and the environment over humans 
and their Creator. This generally summarizes theology common 
among evangelicals when approaching this issue.
    The second factor influencing evangelicals' view on the 
subject is the credibility of the scientific debate. That is, 
when something is as hotly debated as is the issue of man-
caused global warming, evangelicals tend to approach that issue 
with great skepticism. For example, although there are 2,500 
scientists that do agree with the IPCC position on global 
warming, there are well over 10,000 that do not, including just 
this last week the head of NASA. While more than 100 religious 
leaders have signed the Evangelical Climate Initiative on 
Global Warming, there are more than 1,500 that have signed the 
Cornwall Declaration that reached quite different conclusions.
    Over recent decades, environmental science has established 
a recurring pattern of reaching and announcing forceful and 
strong scientific findings and later reversing itself. I need 
point back no later than just the 1970s, when all the 
environmental scientists and even the U.S. Government were 
issuing reports that we were heading into an imminent ice age. 
We were warned to stockpile food, and scientists even made 
proposals on how to melt the polar ice caps so that when it 
refroze in the ice age, there would not be as much damage.
    Additionally, just a few years ago, scientists all agreed 
that because of global warming, the seas would rise from 20 to 
40 feet. But now, all the estimates have gone downward to a few 
inches at most, maybe a few feet. So there has been a huge 
change in the last 10 years just on the science of global 
warming. The science on this issue continues to oscillate, and 
Senator Inhofe is one of the many who has documented those who 
have switched positions after further research.
    It is interesting to me that an ABC news poll recently 
found that 64 percent of the Nation still thinks there is no 
consensus on this debate. So despite what is often said, the 
people are not there yet.
    The third factor affecting evangelicals' approach to man-
caused global warming is how they rank that issue among the 
other issues that are important to them. Polling currently 
shows that evangelicals are not cohesive about the issue of 
man-caused global warming. Although there are 70 percent that 
are concerned, and 64 percent think that something needs to be 
done, it drops to 51 percent when the solution includes the 
economic price tag. Then when asked to prioritize the issue of 
global warming, NBC news and Wall Street Journal found that 
only 12 percent of the Nation thinks that global warming is a 
top priority, and less than 6 percent of evangelicals think 
that it is a top priority. So although they are concerned, it 
is not among their top issues.
    While they are not cohesive on this issue, they do remain 
cohesive on many other issues. It is unlikely that at any time 
in the near future global warming is going to overshadow those 
other issues. In fact, 90 percent of evangelicals support 
global efforts to fight extreme poverty. Since even the 
Congressional Budget Office back on April 27 in their report 
said that the cap and trade solution will be what they called 
``regressive''--that it will hurt the poor--that makes it even 
more likely that the evangelicals will not support such 
policies if it does indeed hurt the poor--if it has a 
disproportionately negative impact on the poor, and if it 
impedes their chance for a more prosperous life. They simply 
will not place the theoretical needs of the environment above 
the actual needs of the poor.
    In summary, I do not find any substantial wide-spread 
movement in the mainstream evangelical community to support any 
policy proposal on global warming that would significantly 
alter the way individuals live or that might inflict additional 
burden on the poor and potentially confine them to a permanent 
state of poverty. Based on these points, I urge extreme caution 
in crafting any policy on this issue. Thank you.
    [The prepared statement of Mr. Barton follows:]

            Statement of David Barton, Author and Historian

    My name is David Barton. I represent a group that works to 
integrate faith with the many practical issues of daily life, I was 
honored to be named by Time Magazine as one of the twenty-five most 
influential Evangelicals in America,\1\ and I will generally speak from 
that Evangelical perspective. I personally address hundreds of 
religious groups each year--Jewish and Christian, Catholic and 
Protestant, including Protestants in dozens of different denominations. 
The overwhelming majority of those would be categorized as conservative 
people of traditional faith, especially as mainstream Evangelicals.
---------------------------------------------------------------------------
    \1\ David Van Biema, ``The 25 Most Influential Evangelicals In 
America,'' Time, February 7, 2005, at 42 (at http://www.time.com/time/
covers/1101050207/photoessay/3.html).
---------------------------------------------------------------------------
    Evangelicals are estimated to number as high as 125 million by 
Gallup and as low as 75 million by others; but most estimates 
conservatively place the number at about 100 million.\2\ Evangelicals 
are characterized by an adherence to a conservative Biblical theology, 
and significantly, statistics demonstrate that the religious groups and 
denominations in America adhering to conservative theological views are 
growing in membership and affiliation,\3\ whereas those adhering to 
liberal theological views are declining.\4\
---------------------------------------------------------------------------
    \2\ See, for example, http://www.wheaton.edu/isae/defining-
evangelicalism.html.
    \3\ Such as the National Association of Evangelicals, which now 
represents about 30 million people from 50-member denominations as well 
as individual churches from 24 other denominations, at http://
www.nae.net/.
    \4\ For example, mainline churches that make up organizations such 
as the National Council of Churches have lost over 35 percent of their 
members since the 1970s (at http://www.touchstonemag.com/archives/
article.php?id=19-02-057-r), and ``the National Council of Churches 
(NCC) now receives more funding from private foundations, most of them 
secular and politically liberal, than from its member denominations, it 
was revealed at its fall 2005 Governing Board meeting. In the fiscal 
year ending in June 2005, the NCC received S1,761,714 from liberal 
foundations, compared to $1,750,332 from its 35-member churches. The 
foundations include the Ford Foundation, the Rockefeller Brothers Fund, 
the Tides Foundation, the Better World Fund, the Sierra Club, the AARP, 
the Ocean Conservancy, and the National Religious Partnership on the 
Environment'' at NCC's New Money at http://www.touchstonemag.com/
archives/article.php?id=19-02-057-r.
---------------------------------------------------------------------------
    In my experience, three factors influence how people of 
conservative religious faith--especially Evangelicals--approach the 
issue of man-caused Global Warming. The first is their theological view 
of man and the environment as derived from the Scriptures (attached on 
the electronic version); the second factor is the perceived credibility 
of the scientific debate; and the third is how Evangelicals prioritize 
the Global Warming issue among the many other pressing cultural and 
social issues that currently capture their attention.
    Concerning the first, a very accurate rendering of their general 
theological position is presented in the Cornwall Declaration (attached 
on the electronic version), prepared by twenty-five conservative 
Jewish, Catholic, and Protestant theologians. In general, conservative 
people of faith view the creation in Genesis as moving upward in an 
ascending spiritual hierarchy, beginning with the creation of the 
lowest (the inanimate) and moving toward highest (the animate), with 
the creation of man and woman being the capstone of God's work. Man 
(which I use in the generic sense of mankind and not in the sense of 
gender) was the apex of creation and was placed over creation, not 
under it.\5\ Adam and Eve, and mankind after them, interacted with 
nature and the environment; they were not isolated from it.\6\ As the 
Cornwall Declaration explains, there is no conservative theological 
basis for the often current view that ``humans [are] principally 
consumers and polluters rather than producers and stewards,'' and that 
nature knows best,'' or that ``the earth, untouched by human hands is 
the ideal.''\7\ Religious conservatives believe just the opposite; and 
as my Rabbi reminded me just last week, the Scriptures teach 
conservation, not preservation. Man was the steward of nature and the 
environment, and while man definitely is to tend and guard it, it is to 
serve him, not vice versa.\8\ From the beginning, God warned about 
elevating nature and the environment over man and his Creator.\9\ This 
summarizes the general overview of the theology that is common among 
most Evangelicals.
---------------------------------------------------------------------------
    \5\ In Matthew 10:31 and Luke 12:, Christ reminds man that ``You 
are of more value than many sparrows,'' and Psalm 8:6-8 declares: ``You 
have made man to have dominion over the works of Your hands; You have 
put all things under his feet, all animal, birds, and fish, whether on 
land or in the sea.''
    \6\ In Genesis 1:25-29, God created all, and then placed man over 
his creation to interact with all of it, whether animate or inanimate.
    \7\ http://www.interfaithstewardship.org/pages/aboutisa.php.
    \8\ Genesis 2:8-20 records man's stewardship and interaction with 
creation, not his removal from it. God put him in the Garden to tend 
and keep it; and God brought his creation before Adam, who named it 
all.
    \9\ See, for example, Romans 1:20-25; for instances where man 
wrongly turned their primary focus toward animals and the creation 
rather than the Creator; see also Exodus 32:7-9, 34-35; 2 Kings 17:14-
161 2 Kings 18:3-5; 2 Chronicles 11:14-15; Nehemiah 9:17-19; Psalm 
106:19-23; Ezekiel 8:9-12; Acts 7:40-42; etc.
---------------------------------------------------------------------------
    The second factor influencing conservative religious adherents is 
the credibility of the scientific debate When something is still 
debated as heavily as is the issue of man-caused Global Warming, and 
when there is not a clear consensus, Evangelicals tend to approach that 
issue with great skepticism. In fact, just this past Saturday in a 
major Canadian publication, a Gallup Poll was cited revealing that ``53 
percent of scientists actively involved in global climate research did 
not believe [man-made] global warming had occurred; 30 percent weren't 
sure; and only 17 percent believed [man-made] global warming had 
begun.''\10\ And although up to 2,500 of the world's top scientists 
agree with the Intergovernmental Panel on Climate Change (IPCC) 
assertions about man-caused global warming,\11\ well over 10,000 
scientists still do not.\12\ And similarly, while more than 100 
religious leaders signed onto the Evangelical Climate Initiative on 
Global Warming,\13\ some 1,500 religious leaders signed onto the 
Cornwall Declaration that reached quite different conclusions.\14\
---------------------------------------------------------------------------
    \10\ Lawrence Solomon, ``They call this a consensus?,'' Financial 
Post, June 02, 2007, at http://www.canada.com/nationalpost/
financialpost/story.html?id=c47c1209-233b09412ccb6d1-5c755457a8af.
    \11\ Lawrence Solomon, ``They call this a consensus?,'' Financial 
Post, June 02, 2007, at http://www.canada.com/nationalpost/
financialpost/story.htl?id=c47c1209-233b09412ccb6d1-5c755457a8af.
    \12\ See Arthur B. Robinson, Sallie L. Baliunas, Willie Soon, and 
Zachary W. Robinson, ``Environmental Effects of Increased Atmospheric 
Carbon Dioxide''; http://zwr.oism, org/pproject/s33p36.html; and ``The 
Heidelberg Appeal'' and a partial list of signatories at 
www.heartland.org/perspectives/appeal.htm. 
    \13\http://www.christiansandclimate.org/statement. 
    \14\ http://www.interfaithstewardship.org/pages/aboutisa.php.
---------------------------------------------------------------------------
    The reason for skepticism among the conservative religious 
community on the hotly-debated issue of man-caused Global Warming is 
based on lengthy experience. Recall that twenty years ago the 
scientific community asserted that fetal tissue research held the 
solution for many of the world's health problems; science eventually 
proved the opposite. Similarly. in the 1960s, environmental science 
alarmists warned that the Global Population Bomb would soon doom the 
entire planet and that by the year 2000, economic growth would be 
destroyed\15\ and there would be a worldwide unemployment crisis;\16\ 
yet the worldwide unemployment rate this year was at 6.3 percent\17\--
hardly a crisis by any measurement. In the 1960s, environmental science 
alarmists similarly claimed that DDT harmed humans and caused cancer, 
thus leading to a near worldwide ban on the use of DDT and now 
resulting in the deaths of between one and two million persons each 
year from malaria.\18\ In fact, four decades later, the scientific 
community still has found no harm to humans from DDT,\19\ so the World 
Health Organization, the Global Fund, and U.S. AID have once again 
endorsed the use of DDT in fighting malaria\20\--after millions of 
lives were needlessly lost. And let's not forget that in the 1970s, 
aerosols were considered a leading cause of harm to the 
environment,\21\ but recent reports note that ``Aerosols actually 
haveling effect on global temperatures'' that helps ``cancel out the 
warming effect of CO<INF>2</INF>''.\22\ Environmental science has a 
demonstrated pattern of announcing strong conclusions, and then 
reversing itself following further time and study.
---------------------------------------------------------------------------
    \15\ ``Get Serious About Population,'' The New York Times, April 
12, 1984, A-26.
    \16\ Warren Brown, ``A Population bomb: Report Warns Increase in 
Children May Trigger Third-World Unrest,'' The Washington Post, March 
10, 1079, A-2; see also ``The Right Number of American,'' The New York 
Times, Februry 2, 1989, A-24; ``We are too many,'' The Globe and Mail 
(Canada), September 14, 1983; ``Our crowded planet,'' The Globe and 
Mail (Canada), December 26, 1985.
    \17\ http://www.ilo.org/public/english/employment/strat/download/
trnden03.pdf.
    \18\ ``Dr. Conyers, I Presume,'' Editorial, Wall Street Journal, 
April 28, 2007, at http://www.fightingmalaria.org/article.axpx?id=785; 
Paul Driessen, ``Forty years of perverse `social responsibility','' 
Canada Free Press, March 26, 1007, at http://www.canadafreepress.com/
2007/drieessen032607.htm; Roger Bate, ``Without DDT, malaria bites 
back,'' Article 24, April 2001, http://www.spiked-online.com/Articles/
000000005591.htm.
    \19\ ``Dr. Conyers, I Presume,'' Editorial, Wall Street Journal, 
April 28, 2007, at http://www.fightingmalaria.org/article.aspx?id=785; 
Roger Bate, ``Without DDT, malaria bites back,'' Article 24, April 
2001, http://www.spiked-online.com/Articles/000000005591.htm.
    \20\ ``Dr. Conyers, I Presume,'' Editorial, Wall Street Journal, 
April 28, 2007, at http://www.fightingmaalaria.org/article.aspx?id=785.
    \21\ See, for example, W. Sullivan. ``Tests Show Aerosol Gases May 
PoseThreat to Earth,'' New York Times, 26 September 1974, A1.
    \22\ Noam Mohr, ``A New Global Warming Strategy: How 
Environmentalists are Overlooking Vegetarianism as the Most Effective 
Tool Against Climate Change in Our Lifetimes'' at http://earthsave.org/
globalwarming.htm.
---------------------------------------------------------------------------
    Consider further that the clamor about radical climate change is 
not new. In the 1920s, the newspapers were filled with scientists 
warning of a fast approaching Glacial Age; but in the 1930s, scientists 
reversed themselves and instead predicted serious Global Warming.\23\ 
But by 1972, Time was citing numerous scientific reports warning of 
imminent ``runaway glaciation,'' \24\ and in 1975, Newsweek reported 
overwhelming scientific evidence that proved an oncoming Ice Age, with 
scientists warning the government to stockpile food; in fact, some 
scientists even proposed melting the artic ice cap to help forestall 
the coming Ice Age. \25\ In 1976, the U.S. Government itself released a 
study warning that ``the earth is heading into some sort of mini-ice 
age,'' \26\ but now, a mere two decades later, the warning of the 
imminent Ice Age has been replaced by the warning of an impending 
Global Warming disaster. In eighty years, environmental science has 
completely reversed itself on this issue no less than three times.
---------------------------------------------------------------------------
    \23\ Chicago Daily Tribune, August 9, 1923, ``Scientist Says Arctic 
Ice Will Wipe Out Canada''; Los Angeles Times, October 7, 1932, ``Fifth 
Ice Age Is On The Way''; Los Angeles Times, April 6, 1924, ``New Ice-
Age is Forecast''; Los Angeles Times, March 11, 1929, ``Is Another Ice 
Age Coming?''; New York Times, February 24, 1867, ``The Glacial 
Period''; New York Times, February 24, 1895, ``Prospects of Another 
Glacial Period'', New York Times, October 7, 1912, ``Sees Glacial Era 
Coming''; New York Times, June 10, 1023, ``Menace of a New Ice Age to 
be Tested by Scientists''; New York Times, September 28, 1924, 
``MacMillan Reports Signs of New Ice Age''; New York Times, January 27, 
1972, ``Climate Experts Assay Ice Age Clues''; New York Times, May 21, 
1975, ``Scientists Ask Why World Climate Is Changing''; ``Major Cooling 
May Be Ahead''; Washington Post, August 10, 1923, ``Volcanoes in 
Australia''; ``Ice Age Coming Here''; Washington Post, October 28, 
1928, ``An Ice-Free World, What Then?''; Washington Post, August 2, 
1930, ``Hot Weather''; Washington Post, May 3, 1932 ``Second World 
Flood Seen, if Earth's Heat Increases''; Washington Post, January 11, 
1970, ``Colder Winters Held Dawn of New Ice Age''; Atlantic, December 
1932, ``This Cold, Cold World''; Fortune, August 1954, ``Climate--the 
Heat May Be Off''; International Wildlife, July-August 1975, ``In the 
Grip of a New Ice Age?''; Newsweek, April 28, 1975, ``The Cooling 
World''; Science News, Nov. 15, 1969, ``Earth's Cooling Climate''; 
Science News, March 1, 1975, ``Climate Change: Chilling 
Possibilities''; Time, January 2, 1939, ``Warmer World''; Time, October 
29, 1951, ``Retreat of the Cold''; Time, June 24, 1974, ``Another Ice 
Age?'': U.S. News & World Report, May 31, 1976, ``Worrisome CIA Report; 
Even U.S. Farms May be Hit by Cooling Trend''; at http://
wizbangblog.com/2006/04/02/before-global-warming-there-was-global-
cooling.php; http://www.businessandmedia.org/specialreports/2006/
fireandice/fireandice.asp.
    See also George Will, ``Cooler Heads Heeded on Warming,'' 
Washington Post, April 02, 2006: citing Science magazine (Dec. 10, 
1076) warned of ``extensive Northern Hemisphere glaciation.'' Science 
Digest (February 1973) reported that ``the world's climatologists are 
agreed'' that we must ``prepare for the next ice age.'' The Christian 
Science Monitor (``Warning: Earth's Climate is Changing Faster Than 
Even Experts Expect,'' Aug. 27, 1974) reported that glaciers ``have 
begun to advance,'' ``growing seasons in England and Scandinavia are 
getting shorter'' and ``the North Atlantic is cooling down about as 
fast as an ocean can cool.'' Newsweek agreed (``The Cooling World,'' 
April 28, 1975) that meteorologists ``are almost unanimous'' that 
catastrophic famines might result from the global cooling that the New 
York Times (Sept. 14, 1975) said ``may mark the return to another ice 
age.'' The Times (May 21, 1975) also said ``a major cooling of the 
climate is widely considered inevitable'' now that it is ``well 
established'' that the Northern Hemisphere's climate ``has been getting 
cooler since about 1950.'' . . . ``About the mystery that vexes ABC--
Why have Americans been slow to get in lock step concerning global 
warming?--perhaps the . . . problem is big crusading journalism.''
    \24\ ``Another Ice Age?,'' Time, November 13, 1972, http://
www.time.com/time/magazine/article/0,9171,910467,00.html.
    \25\ ``The Cooling World,'' Newsweek, April 28, 1975.
    \26\ ``Worrisome CIA report; Even U.S. Farms May Be Hit By Cooling 
Trend,'' U.S. News & World Report, May 31, 1976.
---------------------------------------------------------------------------
    Furthermore, the scientific community is even reversing itself on 
its current claims. Just a few years ago scientists predicted that the 
seas would rise from 20 to 40 feet because of Global Warming,\27\ with 
``waves crashing against the steps of the U.S. Capitol'' and, 
launch[ing] boats from the bottom of the Capitol steps''; additionally, 
one-third of Florida and large parts of Texas were projected to be 
under water.\28\ Now the estimates have been revised to anywhere from a 
few inches to a few feet at most.\29\ Clearly, the science on this 
issue continues to oscillate; in fact, Senator Inhofe has been one of 
many who have tracked the number of leading scientists who, after 
announcing their position in support of anthropogenic Global Warming, 
have reversed their position after further research. Such a lack of 
consensus and so many forceful assertions and repudiations merit a very 
cautious and guarded approach to any policy on this subject.
---------------------------------------------------------------------------
    \27\ See, for example, ``Long Island Queens, Trouble on the Rise,'' 
at http://www.seagrant.sunysb.edu/Pages/CoastGISMaps/Newsday-
Future.htm; ``Climate Changes Futures: Health, Ecological and Economic 
Dimensions,'' A Project of: The Center for Health Harvard Medicine (at 
http://www.climatechangefutures.org/); ``Global Warming's Increasingly 
Visible Impacts'' http://qulcJ:www.environmentaldefense.org/documents/
4891-GlobalWarmingImpacts.pdf.
    \28\ Robert Locke, AP Science Writer, January 8, 1979, covering the 
American Association for the Advancement of Science meeting, Christian 
Science Monitor, October 8, 1980.
    \29\ See, for example, ``Global Warming's Increasingly Visible 
Impacts'' http://qulcJ:www.environmentaldefense.org/documents/4891--
GlobalWarmingImpacts.pdf: Washingtonpost.com, ``We're All New 
Orleanians Now'' http://www.washingtonpost.com/wp-dyn/content/article/
2006/08/18/AR2006081800984--pf.html; ``Long Island Queens, Trouble on 
the Rise'' http://www.seagrant.sunysb.edu/Pages/CoastGISMaps/Newsday-
Future.htm; ``Climate Changes Futures: Health, Ecological and Economic 
Dimensions,'' A Project of: The Center for Health Harvard Medicine (at 
http://www.climatechangefutures.org/).
---------------------------------------------------------------------------
    Evangelicals and people of conservative religious faith tend to be 
comfortable with theological teachings that have endured millennia but 
not with science that often reverses its claims on the same issue. And 
while science is still deciding where the ocean waves will end up, 
religious conservatives rest in the Old Testament promise of Jeremiah 
5:22 wherein God reminded His people: ``Will you not tremble at My 
presence, Who have placed the sand as the bound of the sea by a 
perpetual decree that it [the sea] cannot pass beyond it? And though 
its waves toss to and fro, yet they cannot prevail.'' To date, neither 
science nor experience has disproved the promise of that passage, so 
the skepticism of religious conservatives on the rapidly-changing 
science surrounding anthropogenic Global Warming is understandable.
    The third factor affecting Evangelicals' approach to man-caused 
Global Warming is how they rank that issue within the much larger scope 
of numerous other issues of importance to them. Interestingly, 
Evangelicals as a group are concerned about many issues, not just one. 
In fact, polls regularly indicate that it is not conservative 
Christians who are fixated with single issues such as abortion but 
rather it is liberals. As one poll recently reported concerning views 
toward the judiciary, for liberals, ``no other issue rivals abortion in 
importance''; but among Evangelicals, ``three-quarters . . . view 
abortion as very important, [and] nearly as many place great importance 
on court rulings on the rights of detained terrorist suspects (69 
percent) and whether to permit religious displays on government 
property (68 percent).\30\ Very simply, Evangelicals tend to have many 
issues of importance on their list of concerns, not just one. So where 
does the issue of Global Warming fall on that list of concerns?
---------------------------------------------------------------------------
    \30\ ``Abortion and Rights of Terror Suspects Top Court Issues; 
Strong Support for Stem Cell Research,'' Pew Research Center for the 
People & the Press, August 3, 2005, at http://people-press.org/reports/
display.php3?ReportID=253.
---------------------------------------------------------------------------
    Polling clearly shows that Evangelicals are not yet cohesive about 
the issue of man-caused Global Warming but that they do remain the most 
cohesive group in the nation in their opposition to abortion, gay 
marriage, and civil unions;\31\ in teaching teenagers to abstain from 
sex until marriage;\32\ and in support of public religious 
expressions.\33\ In fact, among Evangelicals, 99.5 percent support 
public displays of the Ten Commandments; 99 percent support keeping the 
phrase ``In God We Trust'' on the nation's currency; 96 percent support 
keeping ``under God'' in the Pledge of Allegiance; 86 percent support 
teaching Creationism in the public school classroom; and 94 percent 
oppose allowing the use of profanity on broadcast television.\34\ 
Global Warming is nowhere near these numbers among Evangelicals, nor is 
it likely to overshadow these issues anytime in the near future. (The 
fact that so many groups that ardently push a climate change agenda 
also regularly oppose Evangelicals on issues of faith and values 
further exacerbates Evangelicals' suspicion concerning anthropogenic 
Global Warming.)
---------------------------------------------------------------------------
    \31\ ``Pragmatic Americans Liberal and Conservative on Social 
Issues; Most Want Middle Ground on Abortion,'' Pew Research Center for 
the People & the Press, August 3, 2005, at http://people-press.org/
reports/print.php3?PageID=1071.
    \32\ ``Abortion and Rights of Terror Suspects Top Court Issues; 
Strong Support for Stem Cell Research,'' Pew Research Center for the 
People & the Press, August 3, 2005, at http://people-press.org/reports/
display.php3?ReportID=253.
    \33\ ``Abortion and Rights of Terror Suspects Top Court Issues; 
Strong Support for Stem Cell Research,'' Pew Research Center for the 
People & the Press, August 3, 2005, at http://people-press.org/reports/
display.php3?ReportID=253.
    \34\ ``33 Percent of Adults Agree with Declaring America a 
`Christian Nation','' Barna Poll, July 31, 2004, http://
www.christianpost.com/article/20040731/20420--Barna--Poll:--33-Percent-
of-Adults-Agree-with-Declaring-America-a-%22Christian-Nation%22.htm.
---------------------------------------------------------------------------
    Additionally, 90 percent of Evangelicals believe that America 
should be involved in global efforts to fight AIDS and extreme poverty, 
and 87 percent of Evangelicals cite their Evangelical faith as the 
reason for ``helping those less fortunate than [them]selves.''\35\ 
Therefore, if implementing the proposed ``cap and trade'' Global 
Warming solution results in a disproportionately negative impact on the 
poor in developing nations and will significantly impede their hopes 
for a better and more prosperous life--which the recent Congressional 
Budget Office report (attached on the electronic version) indicates 
will certainly be the case,\36\ as does ``A Call to Truth, Prudence, 
and Protection of the Poor: An Evangelical Response to Global 
Warming''\37\ (attached on the electronic version) from the Interfaith 
Stewardship Alliance--then it is even more likely that Evangelicals 
will oppose placing the theoretical needs of the environment over the 
actual needs of the poor.
---------------------------------------------------------------------------
    \35\ Adelle M. Banks, ``Poll: Faith Sometimes Drives Support for 
AIDS, Poverty Relief,'' Religion News Service, at http://
www.socialpolicyandreligion.org/article-index/article-
print.cfm?id=2155.
    \36\ ``Trade-Offs in Allocating Allowances for CO<INF>2</INF> 
Emissions,'' Congressional Budget Office, April 25, 2007.
    \37\ http://www.cornwallalliance.org/docs/Call-to-Truth.pdf; and 
http://www.interfaithstewardship.org/pages/home.php.
---------------------------------------------------------------------------
    In summary, the three primary factors that influence how 
Evangelicals will respond to the current vigorous debate on Global 
Warming will be, first, their theological views of man and his 
relationship to nature and the environment; second, their skepticism 
over scientific disputes until a clear and unambiguous consensus has 
emerged; and third, whether there is sufficient weight in the issue to 
cause it to rise within the list of the many other issues of concern to 
them. Currently, I do not find any substantial widespread movement 
within the mainstream Evangelical community to support a massive policy 
proposal on Global Warming that would significantly alter their current 
lifestyle, or that might inflict additional burdens on the poor and 
even potentially confine them permanently to a state of poverty. I 
therefore urge extreme caution in any approach that this body might 
take in crafting any policy on this issue.

                               __________
 Responses by David Barton to Additional Questions from Senator Inhofe

    Question 1. Have there been any further studies done that would 
confirm or disprove what ``Scientific American'' asserts about the 
number of scientists who dissent from the IPCC findings?
    Response. Yes, Senator, there have been additional studies. As you 
know, the Oregon Institute announced that it had gathered the 
signatures of some 17,000 scientists who disagreed with the IPCC 
findings which supported the theory of man-caused Global Warming. That 
number was certainly impressive, and caused great concern for 
supporters of man-caused Global Warming. Subsequently, periodicals such 
as ``Scientific American'' acknowledged undertaking an investigation of 
those names and alleged (as noted by Senator Whitehouse) that a large 
number of signers on the Oregon Petition were not actual scientists. 
The Oregon Institute of Science and Medicine therefore commissioned an 
independent verification of the names and qualifications of the 
individuals on their list and confirmed that--despite charges to the 
contrary--their list did indeed include over 17,000 scientists who did 
not agree with the IPCC conclusions. In fact, the independent 
verification of the 17,100 applied American scientists who signed their 
list confirmed that two-thirds had advanced degrees. Furthermore, the 
signers included ``2,660 physicists, geophysicists, climatologists, 
meteorologists, oceanographers, and environmental scientists who are 
especially well qualified to evaluate the effects of carbon dioxide on 
the Earth's atmosphere and climate'' and ``5,017 scientists whose 
fields of specialization in chemistry, biochemistry, biology, and other 
life sciences make them especially well qualified to evaluate the 
effects of carbon dioxide upon the Earth's plant and animal life'' 
(http://www.oism.org/pproject/s33p357.htm). Therefore, in answer to 
your question, yes, further studies were undertaken and those studies 
clearly disprove the ``Scientific American'' allegations. Consequently, 
there remain multiple times more scientifically-trained individuals who 
oppose the IPCC conclusions on man-caused Global Warming than support 
them. This clear lack of scientific consensus in the area of man-caused 
Global Warming is one of the reasons that the Evangelical Community 
remains skeptical about dramatic action on this issue. I submit as part 
of the record a separate document that explains the process of 
verification undertaken by the Oregon Institute and the results of that 
verification.

[GRAPHIC] [TIFF OMITTED] T1968.118

[GRAPHIC] [TIFF OMITTED] T1968.119

    Question 2. Is it indeed true that all four branches of Judaism 
have taken a position in favor of action on Global Warming?
    Response. No, sir, that is not true. Despite the claims made to the 
contrary during this hearing, distinguished Jewish Rabbi Daniel Lapin 
clearly refutes those claims. Rabbi Lapin is an internationally-known 
rabbinical scholar and was included in Newsweek Magazine's recent list 
of America's 50 most influential rabbis. He unequivocally states, and 
shows, that many of the various religious groups representing the four 
branches of Judaism do not agree on taking action on Global Warming, 
and he flatly states that any assertion otherwise is disingenuous. The 
same is true in the Evangelical community. I have a letter from Rabbi 
Lapin that I would like to submit as part of the record.
    [The referenced material follows:]

    [GRAPHIC] [TIFF OMITTED] T1968.120
    
    Question 3. About the correlation between solar activity and the 
rise in the Earth's temperatures, who has done that research, and do 
you have that research available--is there any type of chart that has 
been prepared on this subject?
    Response. Senator, there is an excellent chart--in fact, two 
charts--prepared on this specific point by Dr. Willie Soon, 
Astrophysicist at Harvard University. He has reduced his tedious and 
comprehensive research to two very clear and lucid graphs. He began by 
plotting the recorded temperatures at the Arctic from the past century, 
and his graph clearly demonstrates that there is a global warming trend 
underway--a trend that has been occurring for the past three decades. 
However, the question he investigated was whether that rise in 
temperature was the effect of human activity and the increased release 
of carbon dioxide (CO<INF>2</INF>), or whether it was the effect of 
cyclical solar activity. To answer that question, he graphically 
recorded the increase of CO<INF>2</INF> over the past century and 
overlaid that graph with the graph displaying Arctic temperatures; the 
overlay of the two clearly did not correlate. Dr. Soon then plotted the 
pattern of solar activity, and when he superimposed that graph upon the 
measured temperatures, there was an immediately visible and direct 
correlation that matched almost point for point the temperature changes 
over the last century. The two charts from this distinguished scientist 
speak for themselves; I submit those two graphs as part of the record. 
Consequently, if indeed the current Global Warming trend is not man-
made, and these graphs clearly indicate that it is not, then I continue 
to suggest that in the view of the Evangelical community, a more 
appropriate prioritization of resources would be to address genuine 
issues related to those suffering from extreme poverty--such as 
potable, clean water (which would eliminate millions of deaths caused 
by dysentery, cholera, etc.)--rather than address the so-called needs 
of the environment that may well be caused by factors beyond human 
control.
    [The referenced material follows:]

    [GRAPHIC] [TIFF OMITTED] T1968.121
    
    Senator Boxer. Thank you so much.
    I just want to thank the panel. You have all been eloquent, 
just terrific. It really instilled in me just so many issues I 
want to talk to you about.
    So if you have some patience, if you could just wait, we 
have two back-to-back votes. It might be that we are back in 
about a half hour or maybe a little less. So we will stand in 
recess until we get back.
    Senator Inhofe. And nobody leave.
    [Laughter.]
    [Recess.]
    Senator Boxer. Thank you so much for your patience. We are 
embroiled in a debate on immigration and we had three back-to-
back votes. I am so sorry to have kept you waiting.
    But I think what was good about the session this morning is 
that you each laid out your views in a most eloquent fashion 
and I am going to start the questioning. We will have 6-minute 
rounds, but I would rather have 6 hours with you all.
    So let me start asking each of you if you can give me a 
rough idea, in your particular denomination that you are 
familiar with, apparently we don't have 100 percent unanimity 
here, which you don't have on any issue in America. The only 
way you would have 100 percent unanimity is if you had a 
dictator say, you must think the way I think.
    So clearly, there is division. But if you look at your 
church, could you give us, and this is not scientific, it is 
opinion, is it a 50-50 split, 60-40 split, which way, if you 
can give me a sense of it, in terms of moving toward real 
legislation, such as a cap. If you could answer that first, 
Bishop.
    Bishop Schori. Certainly, Senator. I need to correct a 
statement I incorrectly made earlier. The NCC does represent 45 
million Americans. So you were correct.
    Senator Boxer. We had good research behind me, yes.
    Bishop Schori. Absolutely. In my denomination, in the 
Episcopal Church, there is increasing urgency about this issue. 
Congregations, dioceses, individuals, are gearing up to 
respond. I am not aware of any pushback in my own denomination. 
The National Council of Churches passed a unanimous resolution 
urging action on climate change.
    Senator Boxer. So you feel it is consensus?
    Bishop Schori. Absolutely.
    Senator Boxer. OK, how about you, Mr. Carr? How do you 
feel?
    Mr. Carr. I think what you are asking is, who do we speak 
for here. Being at this table reminds me of a very short story. 
One of our bishops was testifying on the Civil Rights Bill and 
Senator Eastland, who was not favorably disposed, said, who do 
you represent, and when did you last speak to them? This bishop 
said, I represent God, and I spoke to Him this morning.
    [Laughter.]
    Mr. Carr. I do not make those claims.
    The Catholic Bishops Conference--first of all--I represent 
the Bishops Conference, not the Catholic Church. This has been 
a very deliberate process for us. We have had a whole series of 
discussions. In a very unusual step, the body of bishops 
adopted this statement, and did so overwhelmingly. As I said in 
my testimony, this is a matter which is being dealt with at 
every level of the Church. I represented----
    Senator Boxer. It is unfortunate we have so little time. 
But basically you are saying it is a consensus among the 
bishops?
    Mr. Carr. There is consensus around those three things: 
Prudence, common good, concern for the poor and the need to 
take action to protect the earth and the people of the earth.
    Senator Boxer. Four things. Now, Reverend Ball, obviously 
there has been some direct challenge of your views here. So if 
you look at your membership, where do you sense it going? This 
is not scientific; I am just trying to get your sense of it.
    Rev. Ball. Right. We actually have a just-released poll of 
a national poll of American evangelicals.
    Senator Boxer. Oh, good. Will you share it with us?
    Rev. Ball. Again, it says that the threat to future 
generations, 70 percent believe that that is the case for 
global warming, 64 percent say that we should address this 
issue immediately, and then 56 percent say that we should 
address it, even if there is high economic cost. Now, of 
course, we don't want that. But that was an indication of their 
resolve, 56 percent, even at high economic cost.
    Senator Boxer. This is among the members of your church?
    Rev. Ball. This is among evangelicals in the United States.
    Senator Boxer. Thank you. That is very important.
    Rabbi.
    Rabbi Saperstein. Within the Jewish community, all four of 
the major streams of the Jewish community, the Reform Movement, 
the Conservative Movement, the Reconstructionist Movement and 
the Orthodox Movement, has passed resolutions on global 
warming. Judging from the polls, the support, not just 
consensus, is really overwhelming.
    Senator Boxer. Thank you.
    Dr. Moore, what do you say?
    Mr. Moore. I would point you to the Southern Baptist 
Convention resolution----
    Senator Boxer. Yes, I have it in front of me.
    Mr. Moore [continuing]. Which is the way in which Southern 
Baptists speak to public policy issues.
    Senator Boxer. Let me share that with you: ``We urge all 
Southern Baptists toward the conservation and preservation, 
preservation of our natural resources for future generations, 
and respecting ownership and property rights. Resolved, we 
encourage public policy and private enterprise efforts that 
seek to improve the environment, based on sound scientific and 
technical research, and resolved, we resist alliances with 
extreme environmental groups and we oppose solutions based on 
questionable science, which bar access to natural resources and 
unnecessarily restrict economic development. We not only 
reaffirm our God-given responsibility of caring for the 
Creation, but we commit ourselves to the great commission to 
take the good news to people everywhere.''
    I find this different than the way you described it, but 
this stands for your view. This stands for your view because 
the thing is, extreme environmentalism is in the eye of the 
beholder. You don't really explain what that means. But I find 
this to be much more encouraging than you presented it to us.
    Reverend.
    Rev. Tonkowich. I would say that the IRD constituency would 
be very much in line with the Cornwall Declaration, the 
Cornwall Alliance. I am one of the advisors to the Cornwall 
Alliance. It is certainly my impression that my denomination, 
the Presbyterian Church in America, will be much more in line 
with the Cornwall Alliance.
    Senator Boxer. So the Presbyterian Church in America, you 
don't speak for them today, do you?
    Rev. Tonkowich. I do not.
    Senator Boxer. What do you think their view is?
    Rev. Tonkowich. I would say that they overall agree with 
the Cornwall Declaration.
    Senator Boxer. That says that?
    Rev. Tonkowich. That says, as opposed to the Evangelical 
Climate Initiative and taking on global warming as the most 
pressing issue of all.
    Senator Boxer. So you think that most Presbyterians in 
America--that there is a consensus view that we not take on----
    Rev. Tonkowich. In the Presbyterian Church in America, not 
all Presbyterians.
    Senator Boxer. The Presbyterian Church. Well, that is very 
important. Thank you for that.
    Mr. Barton, you are an author and historian, so I don't 
know who you could speak for, but your sense in the religious 
community is?
    Mr. Barton. That although 70 percent of evangelicals think 
that global warming is an issue, less than 6 percent place it 
as one of the top issues on their list. So it is an issue, but 
it is not very high on their list.
    Senator Boxer. Fair enough.
    Let me just place into the record this very interesting 
document here, Faith Principles on Global Warming. It calls for 
the toughest, 80 percent reductions by 2050. On this 
signatures, Presbyterian Church, U.S.A. So I think it is 
important that we not speak for folks that we are perhaps 
unaware of their views.
    [The referenced material follows:]

    [GRAPHIC] [TIFF OMITTED] T1968.058
    
    [GRAPHIC] [TIFF OMITTED] T1968.059
    
    Rev. Tonkowich. Excuse me, Senator.
    Senator Boxer. Yes, sir.
    Rev. Tonkowich. I said the Presbyterian Church in America, 
not the Presbyterian Church, U.S.A. It is the name of the 
denomination.
    Senator Boxer. OK, I understand. So you don't think that 
the Presbyterian Church in America agrees with this?
    Rev. Tonkowich. Correct.
    Senator Boxer. All right. Well, we will ask them. I think 
that is going to be the best way; we will try to see where they 
come from.
    My time has run out. How many minutes did I give myself? 
Six. We are going to do 8, so I will take 8 and then give 
Senator Inhofe 8.
    Reverend Tonkowich, are you aware that the IPCC, the 
Intergovernmental Panel on Climate Change, that those reports 
are approved by hundreds of scientists and more than 130 
governments?
    Rev. Tonkowich. Yes, I am aware of that.
    Senator Boxer. Are you aware that the U.S. Government said 
that warming is unequivocal and there is a 90 percent certainty 
that humans are causing most of the warming?
    Rev. Tonkowich. I am aware that that is in the executive 
summary.
    Senator Boxer. OK. Are you aware of how many National 
Academies of Science said climate change is real and it is 
likely the warming is attributed to human activities? Do you 
know how many of those----
    Rev. Tonkowich. I don't know the numbers. But once again, 
science is not a question of voting. Science is a question of 
evaluating the evidence.
    Senator Boxer. Exactly. Absolutely.
    Rev. Tonkowich. There are scientists on the other side as 
well.
    Senator Boxer. Well, sir, there were scientists on the 
other side who said the world was flat, there were scientists 
who said HIV doesn't cause AIDS, and there are still scientists 
who say that tobacco doesn't cause cancer. So we don't have 
unanimity, as I said, unless there is a dictator that says you 
shall believe this or that.
    So I guess my point is, saying that there is not clarity on 
this is simply not demonstrated by the facts. I want to put 
into the record that the National Academy of Science of the 
United States of America has so stated.
    Now, somebody mentioned the head of NASA. Do we have that 
retraction? Sir, I think it was you.
    Mr. Barton. Yes, ma'am, I did.
    Senator Boxer. Yes. Are you aware that he had made a 
retraction for his statement?
    Mr. Barton. Yes, ma'am. He said he regretted making that, 
because it had become a political debate rather than a 
technical debate. He regretted that statement.
    Senator Boxer. Are you aware that he said, I have no doubt 
that a trend of global warming exists?
    Mr. Barton. Yes, ma'am, but not man-made. That is where he 
made the distinction. I agree that global warming exists----
    Senator Boxer. No, that is not what he said. He said, I am 
not sure it is fair to say it is a problem we must wrestle 
with. He never said it wasn't man-made. So don't distort what 
was said. He was saying, in his opinion, he is not sure it is a 
problem we should wrestle with. But he said he has no doubt the 
trend exists.
    So I would suggest when you are quoting someone from the 
Government, be careful on the point, especially since the 
President of the United States has now stated that it exists, 
there is a 90 percent certainty and he has followed my advice 
to convene a summit of the nations of the world who are the 
largest emitters.
    Mr. Barton. Senator, may I add one other thing?
    Senator Boxer. You certainly can, Mr. Barton.
    Mr. Barton. This past weekend, this past Saturday, the 
Canadian Financial Post came out quoting a Gallup poll that 
said that 53 percent of scientists actively involved in global 
climate research did not believe man-made global warming had 
occurred. Thirty-three percent were not sure and only seventeen 
percent believed man-made global warming had occurred. So that 
is from the Canadian Financial Post, a Gallup poll that they 
quoted over the weekend.
    Senator Boxer. OK, we believe that you are misquoting that. 
But we are getting the document, and we will put it into the 
record.
    [The referenced material follows:]

    [GRAPHIC] [TIFF OMITTED] T1968.223
    
    [GRAPHIC] [TIFF OMITTED] T1968.224
    
    Senator Boxer. Senator Inhofe, you have 8 minutes.
    Senator Inhofe. OK. Here is what I am going to do, as we 
have members that come in, and Senator Isakson is going to have 
to be here just a short while, so let me defer to him and then 
you can come back to me if that would work.
    Senator Isakson.
    Senator Isakson. Thank you, Senator Inhofe.
    Accepting the fact that anything we do that helps the 
environment is a good thing, there are many alternatives to the 
way we currently do things. I would be interested, first of 
all, in hearing from each of you, either your personal opinion, 
or if your denomination or your faith or your organization has 
an opinion, I would like to address for a second the issue of 
nuclear energy. In my judgment, and I am going to tell you 
where I'm coming from, so it is not a trick question, when Vice 
President Gore was here and I questioned him, I asked him 
precisely the same question. Because I have felt like if you 
are going to reduce carbon, if you are going to reduce the 
amount of coal that you burn, if you are going to reduce the 
amount of fossil fuels, you have to have alternatives. We are 
going to run out of natural gas, and that leaves one thing, 
solar, wind and all these others, which can only meet about 6 
percent of the demand in the United States, or nuclear.
    So I think to my believe is, you can't be against nuclear 
and for a cleaner environment, because you can't get to a 
cleaner environment without nuclear. That is my personal 
opinion.
    So I am wondering if any of you have opined on this issue 
or if your organization has. I would start with the Most 
Reverend.
    Bishop Schori. The Episcopal Church has not taken a 
position on nuclear power. We do recognize that our lack of 
willingness to invest in other alternative energy sources is a 
significant piece of the issue. I represented the State of 
Nevada, I was the Bishop of Nevada, where nuclear issues are of 
major concern, given Yucca Mountain. Certainly, Episcopalians 
in the State of Nevada have a variety of opinions about the 
usefulness of nuclear power.
    Mr. Carr. The Catholic Bishops have not addressed this in a 
formal process. We think all alternatives ought to be explored, 
both for the contribution they can make but also the 
difficulties that might arise in this case, questions of safety 
and disposal. But we think everything ought to be explored.
    Rev. Ball. I echo Mr. Carr's comments. The ECI, Evangelical 
Climate Initiative, does not say anything about nuclear power. 
But I would add that Governor Pawlenty in Minnesota just passed 
a bill with a goal of 25 percent of renewables by 2025. So they 
are bullish on the potential of renewables out there. He is an 
Evangelical Christian.
    Rabbi Saperstein. In my own stream of the Jewish community, 
the Reform Jewish Movement, we have taken a position on this 
issue which doesn't exclude the possibility of using nuclear 
energy, once safety issues and the question of disposal of 
nuclear waste are dealt with. At this point, we do not see 
those issues being dealt with. What we do believe is, when we 
needed an atomic bomb, we poured all the resources we needed to 
make that happen in World War II. When we needed a Marshall 
Plan, we poured the resources into making that happen. We 
needed to fight the war on terror, we poured the resources into 
making that fight happen.
    Nothing we could do would be better for the world than to 
pour those kinds of resources into an urgent, massive 
development of those clean alternative energy sources that 
don't pose the dangers that nuclear energy poses to us as a 
target of terrorist attacks, in terms of disposal of waste, et 
cetera. To get clean energy is a contribution and a gift to the 
world and to every future generation. That is where our 
priority ought to be.
    Mr. Moore. The Southern Baptist Convention has taken no 
position specifically on nuclear power. But the Convention did 
resolve that we encourage public policy and private enterprise 
efforts that seek to improve the environment based on sound 
scientific and technological research. That is the extent of 
the way in which the Southern Baptist Convention as a 
denomination has addressed the issue.
    Rev. Tonkowich. We at the IRD have not addressed the issue.
    Mr. Barton. Same here.
    Senator Isakson. Well, Rabbi Saperstein, you made a 
terrific comment in your answer, referring to the development 
of the atomic bomb. It was through the breakthroughs in the 
splitting of the atom and nuclear fission that developed that 
weapon which hopefully is never, ever used again, nor does it 
ever have to be.
    But the comparison to me is exactly the same. We know what 
our options are in terms of alternatives. There are renewables 
in terms of ethanol, hopefully cellulose-based, but certainly 
we have corn-based. We know that there is some from wind, we 
know that there is some from solar. But as I said, you can't do 
what we do currently with coal and petroleum and natural gas 
with those things. You can help, but you can't do it.
    So if we had the same type of commitment to storage, and 
there are recyclable capabilities in nuclear energy as well, to 
a comprehensive plan, then we could make the single largest 
reduction in emissions on the planet and do so in a safe, clean 
and friendly way. I do understand Nevada's particular problem 
with the storage issue, since you happen to have been the 
intended repository of waste. That is an issue we have to deal 
with. But it is an issue that we can confront, and just as was 
done in the Manhattan Project, we can succeed.
    Last, and then my time will be up, I have introduced 
legislation on green space and open space. I was a real estate 
developer and real estate person for 33 years. Part of the 
things we need to do in terms of creation, in terms of 
preservation, is maintain open and green space where 
appropriate, both for the protection of tributaries as well as 
migratory habitat and things of that nature.
    The Government's approach has always been to buy it, 
through national parks and through confiscation or condemning 
property. I have introduced legislation to create refundable 
tax credits, which raise the money for the Government to then 
buy conservation easements, where the private ownership of land 
remains. You might have a church or synagogue that is on a 
tributary or a river that needs protection on its bank. Rather 
than the Government condemning the property to take it all, 
they can purchase from the synagogue or from the church an 
environmental easement, which controls the developable part of 
that property that is significant to the tributary without 
confiscating all the land.
    That is too simple an explanation, and I would never bait 
you by just saying, doesn't that sound like a good idea. But I 
would hope as you focus on these issues that you focus on 
things like this, which just like in the case of nuclear 
energy, it is another way to slice the apple or to look at the 
problem, without something that is, in my way of thinking, 
confiscatory in terms of property or overreacting in terms of 
emissions. That was more of a statement than a question, and I 
apologize, Senator Inhofe, but I will yield back my 30 seconds.
    Senator Whitehouse. I am a little bit new to this 
discussion, so if I get repetitive with things that have 
already been said, please forgive me.
    I am interested in understanding why some of you are 
engaged in this discussion. I can understand that if your view 
is that the science of global warming is convincing, and the 
consequences that are anticipated are therefore real, that as 
pastors of your flocks, to take an interest in the welfare of 
those to whom you minister, makes a certain amount of sense. If 
you view as part of your ministry to comfort the suffering and 
afflicted, and you believe that suffering and affliction will 
result from global warming, then I can see how that premise, 
i.e., that you accept the science, then injects you into a role 
in this discussion.
    What I don't understand is if you disagree with the 
science, or have no opinion on it, recognize that you are not a 
scientist and it is happening beside you, why you would then 
feel the obligation to inject yourself into that scientific 
debate. I guess I would ask, roughly we have the people who 
accept that global warming is happening and think something 
should be done about it, and the people who don't here are 
separated from coincidentally, I supposed, left to right, at 
least from my view.
    Would one from each side care to comment on that 
observation? Why is it that you feel it is important to take up 
this issue as ministers? Am I right that it is because of the 
consequences that ensue and the desire to comfort the 
afflicted, or to be afflicted? But if you don't believe it, why 
go in and quarrel with the scientists? Why get involved?
    Reverend Ball?
    Rev. Ball. Senator, thank you for the question. You have 
seen that for those of us who are concerned about this in the 
religious community, it is precisely because of the impacts 
that are going to occur to the poor. I have been looking at 
this issue personally since 1992. I have been tracking the 
impacts on the poor and looking at what the scientists are 
having to say about this.
    When I read the latest IPCC Working Group II report, I got 
scared when I saw that the impacts for those in Africa, major, 
serious impacts, could be occurring by 2020, and that up to 250 
million people could be impacted by water scarcity in 2020 in 
Africa, and that in certain areas, up to 50 percent of crop 
production could be reduced, if you start reducing crop 
reduction in Africa that way, many people are going to be in 
dire distress.
    So for the folks, the leaders who are part of the 
Evangelical Climate Initiative, we are engaged on this issue 
because of our concern for the poor. I think the statements of 
my colleagues here have indicated that is the case for them as 
well.
    Mr. Moore. One of the reasons why so many conservative 
evangelicals left the mainline Protestant denominations is 
precisely because the ecumenical bureaucracies often spoke to 
public policy issues as though those issues came with a ``thus 
saith the Lord.'' I am concerned that evangelicalism is not 
represented as adopting policies on global warming that do not 
come clearly from divine revelation.
    Senator Whitehouse. Say that again?
    Mr. Moore. When you have Bible verses tied----
    Senator Whitehouse. Repeat your last sentence, I am sorry, 
I didn't follow you.
    Mr. Moore. When you have evangelicalism represented as 
holding in some kind of consensus to environmental policies, 
evangelicals do not believe that there is a blueprint for 
energy policy or global warming policy in Scripture. So some of 
the arguments that have come from evangelical environmentalists 
have been very un-nuanced and have been very theologically 
problematic. That is one reason why we are concerned.
    Another reason is precisely for the reason that you 
mentioned.
    Senator Whitehouse. Isn't that sort of like crossing the 
street to quarrel? Why bother, if you don't think that this is 
a real problem, why not just go on about your business?
    Mr. Moore. Because there are policies that have 
ramifications, many of which will be extremely, could be 
extremely harmful.
    Senator Whitehouse. Well, if the policy ramifications could 
be harmful and that is a matter of legitimate concern for you 
and your church, why aren't the consequences of global warming, 
which could be harmful also, consequences?
    Mr. Moore. I am not saying that global warming is not a 
concern. We have all said that climate change is a concern. The 
question is, we have science being presented as though there is 
an indisputable consensus and we do not agree that there is.
    Mr. Barton. Senator, may I add something to that?
    Senator Whitehouse. Sure, please.
    Mr. Barton. I think that we all agree global warming has 
occurred. I think the question becomes whether it is man-caused 
or whether it is caused by solar activities. I think for me, 
one of the most compelling things I have seen is from the 
astrophysicist at Harvard who has directly correlated 
CO<INF>2</INF> emissions with temperature changes at the Arctic 
and has done the same thing with solar activity. There is a 
perfect correlation with solar activity, not with 
CO<INF>2</INF> emissions.
    Having said that, in looking at the estimated costs of what 
would happen in the first year of implementation of a program 
of large proportion, for the same amount of money, we could 
create clean, potable water for every country in the world, for 
about $200 billion, that would stop the dysentery and the 
hundreds of thousands of deaths caused from unclean water. So 
the concern is, if this is, for example, created by something 
such as solar activity, if we put $250 billion into it the 
first year, for that same amount of money, we could create 
clean water across the world. I think prioritization is the 
thing that I have spoken to and that I have heard within the 
community, not that we are not concerned about global warming, 
but there is a prioritization of what they think should be 
addressed first.
    Senator Whitehouse. Go ahead, Mr. Carr.
    Mr. Carr. Just a comment to build on that.
    There are two religious mandates. One is to show our 
respect for the Creator by our care for Creation. The fact is, 
we will be judged on our response to the least of these.
    We think there is often a false dichotomy between people 
and the planet. For us, and I think all of us, these are not 
abstract issues. Catholic Relief Services is in 100 countries, 
serving the poorest people on earth. We see the impact of this 
already. We are in the urban communities and the rural 
communities, where peoples' lives are already being diminished.
    So this is not a matter of politics. This is a matter of 
faith and this is a matter of protecting the weakest people 
whose voices are frankly not very often heard in these rooms.
    Senator Whitehouse. Well, I have 12 seconds remaining. 
Rather than trying to make productive use of them, I will yield 
my time to the Ranking Member.
    Senator Inhofe. Well, my clock says that is 1 second. Thank 
you.
    [Laughter.]
    Senator Inhofe. I told Senator Boxer on the way over to 
voting, I said, of the global warming hearings, this is by far 
the best. But it is one that is very revealing. Frankly, I am 
enjoying it. I never have enjoyed these before.
    [Laughter.]
    Senator Inhofe. I am glad that some things have come up. 
For example, I think it was you, Mr. Barton, that mentioned, 
you have to clarify what the issue is. It is not global 
warming. I think we throw that term out, and I know when you 
talk about some of the polling that has taken place, you talk 
about global warming. We all agree, I think we all agree, that 
global warming in the northern hemisphere, not the southern 
hemisphere, but the northern hemisphere, is taking place.
    But also, we have had hearing after hearing after hearing 
showing the charts. God is still up there, and this is still 
going, and there is hardly any change. If you go through and 
you look at the science that this was originally based on, this 
guy that had the hockey stick thing, he totally neglected the 
fact that there was a Medieval warming period and the cooling 
period that were in that 500 year period. So that has been 
pretty much defused right now.
    I look at the science, which of you mentioned the 
Canadians? It was you, David. I think you are probably aware of 
the fact that back in the middle 1990s, the 60 scientists 
advising the prime minster at that time, of Canada, to join 
onto the and become a participant in the Kyoto Treaty, those 
same scientists, now only less than, probably about 6 months 
ago, have said in reviewing this, now, if we had known, this is 
a direct quote, ``If we had known in the 1990s what we know 
today, we would not have been a part of the Kyoto Treaty.'' 
Because science is developing and it is changing. Those were 60 
scientists who signed this thing in unanimity.
    We have had, I think someone mentioned the Oregon Petition, 
17,800 scientists say, yes, we recognized that there is 
something going on, but it is not man-made gases. That is the 
big key. Is it man-made gases, CO<INF>2</INF>, methane, 
anthropogenic gases, that are causing these things? Certainly, 
the science has been changed and changed dramatically. I 
covered a lot of that in my opening statement. This is really 
not a science hearing. I think we can go from this fact that, 
assume the science is not settled for the purpose of the 
discussion here. Because the recent trends are very much on the 
other side.
    Now, as far as the IPCC is concerned, that is the United 
Nations, they came up with this thing to start with. One of you 
mentioned it was the summary for policymakers, I think it was 
you, Reverend Tonkowich, and that is what it was. That is what 
we are looking at. So the policymakers come out with these 
things, the press picks it up as if that is science. Then they 
report it, and that is all you see in the media. It has been a 
very biased media during the course of this time.
    Let me just go back now and ask a couple of questions. Mr. 
Barton, some of the people say that evangelicals are moving in 
large numbers to embrace the need of mandatory controls and 
carbon emissions to combat global warming. Now, you have heard 
this over and over again here. I would just like to know from 
your exposure to them, do you agree that the movement is going 
in that direction?
    Mr. Barton. I would not agree with that. Jim Ball has noted 
support in his poll, but the ABC poll did not find that 
movement among evangelicals to be nearly as pronounced. One of 
the things I have done for years is collect polls that deal 
with cultural issues and evangelicals. I have thousands and 
thousands of polls and therefore plot trends. What I have seen 
is that the issues that continue to remain at the top for 
evangelicals continue to be issues of innocent life, 
traditional marriage, and public religious expressions; and 
among evangelicals, although they are concerned with global 
warming, it still is only about 5 percent that put that as a 
top priority.
    So I do not see global warming overtaking any of the other 
issues any time soon. I think there are much clearer Biblical 
mandates for the other issues than there is for dealing with 
what may or may not be man-caused.
    Senator Inhofe. I appreciate that. Reverend Ball, in a 
minute I am going to get around to something you brought up, 
which was the recognition of my activity in Africa. I have had 
occasion to be in Africa about 30 times in the last 10 years. I 
stay very, very busy there. I have pretty good first-hand 
knowledge as to the poverty that is there.
    Reverend Tonkowich, some would argue that the people who 
reject the cause for caps on greenhouse gas emissions are 
failing in their Biblical duty to be stewards on the earth. I 
would like to have you respond, because that has been said 
here, if you would do so.
    Rev. Tonkowich. Well, again, the debate has been reduced to 
ad hominem attacks. Everyone at this table cares about the 
earth, everyone at this table cares about the poor. Now, what 
do we do about the earth, what do we do about the poor? That is 
where the disagreements come. But the debate really needs to 
rise above, you don't agree with my policy, therefore you must 
not love Jesus.
    Senator Inhofe. Yes. A number of the evangelical leaders 
who are embracing the Creation Care for Government Action on 
Global Warming are the same leaders who embraced wealth 
redistribution and other big government socialist policies in 
the 1980s, through which they believe Christ could liberate the 
poor. What parallels do you see in those two statements?
    Rev. Tonkowich. It is certainly the same personalities. 
While I appreciate that the ECI document regarding public 
policy says you need to push all the decisions down to the 
lowest level of government possible, what I see is everything 
going to the highest level of government and then going beyond 
that to an even higher level of government yet to be created, 
which is not good for democracy and I doubt very much is good 
for the poor.
    Senator Inhofe. Well, let me jump over to Reverend Ball. It 
is my understanding, the Evangelical Climate Initiative, and I 
am pretty familiar with at least my perspective of it, 
hopefully that is not too unfair, but when I look at that and 
the other side in this combat that is taking place, your 
organization has received strong financial backing from the 
Hewlett Foundation, which is pretty well known as an ardent 
supporter of population control and abortion rights. I would 
ask, how do you think the majority of evangelicals would feel 
if this were more widely known, in terms of who is supporting 
your organization?
    Rev. Ball. Well, we have been transparent about where we 
have gotten our funding from the very beginning. We are 
appreciative of the Hewlett Foundation giving us the funds to 
talk to folks about what we think Jesus says about care for 
God's Creation. So we figure that every dollar that goes to us 
goes to a pro-life group and not to a pro-choice group.
    So it is clear in our statement that all of our leaders are 
pro-life. We are very proud of that. So for us, we are glad 
that they gave us the money so that we can talk about Jesus 
Christ more.
    Senator Inhofe. But it doesn't seem inconsistent to you or 
difficult for you to explain to people that this huge 
organization that believes in abortion rights is pouring a lot 
of money into your organization? Is that difficult to explain? 
I heard your first explanation. I thought maybe there was a 
better one.
    Rev. Ball. Well, let me see if this will work for you, 
Senator. I give money to my church, Riverside Baptist Church. 
But everybody who goes to that church is a sinner. So the 
church gets all----
    Senator Inhofe. Well, everyone in this room is a sinner.
    Rev. Ball.--of its money from sinners. So as soon as it 
comes to the Lord, then we can start doing good with it.
    Senator Whitehouse [Presiding]. xxSenator, your time has 
expired.
    Senator Inhofe. OK, that is fine.
    I would like to just follow up a little bit on the 
discussion we were having. But first, Mr. Barton, I am told 
that before you got here, you referenced a skeptic's position, 
signed by----
    Mr. Barton. Nineteen thousand two hundred, the Oregon 
Petition that Senator Inhofe mentioned, very possibly, yes.
    Senator Whitehouse. Are you familiar with Scientific 
American?
    Mr. Barton. The magazine? Yes, I am.
    Senator Whitehouse. Do you consider it a reputable and 
respectable, reliable magazine?
    Mr. Barton. I do, at times.
    Senator Whitehouse. I am told that they studied the 
skeptic's petition that you referred to, and when they actually 
looked at the numbers and checked into it, they determined that 
first of all, less than 10 percent of the scientists, the 
skeptics, actually held Ph.Ds in a climate-related science. 
Then when they contacted those scientists who had expertise in 
climate-related science, they found that less than half said 
that they still agreed with the petition? Were you aware of 
that?
    Mr. Barton. Even if it is less than half, that is still 
close to 10,000.
    Senator Whitehouse. No, no, no, less than half of the 10 
percent.
    Mr. Barton. That may be. I am not aware of that. But I am 
aware of other groups that are out there. I know that when the 
NASA scientist came out--the head of NASA came out and then was 
promptly beat up for his position--that in places outside of 
America, Australia, New Zealand, Canada, elsewhere, scientists 
praised him for what he had said.
    Senator Whitehouse. But just in terms of evaluating the 
nature of your testimony, does it give you any pause to be 
citing a petition that you said had 19,700 participants, when 
subsequent review in a public magazine has disclosed that that 
may be less than accurate? For instance, is this new to you and 
are you now going to change the way you discuss it? Are we 
going to hear you going up a month from now and saying, oh, 
yes, there is a skeptic's petition of 19,700 votes?
    Mr. Barton. No. I will not change. Because that was such an 
insignificant part of what I did in the overall testimony. The 
overall testimony, for example, tracks the fact that in those 
scientific journals, throughout the 1920's, they were warning 
of an imminent ice age. In the 1930's, they were warning of 
global warming. In the 1970s, the U.S. Government was saying, 
we have an ice age coming, we need to stockpile food. These are 
all things that the scientific journals did. The scientific 
journals----
    Senator Whitehouse. My concern is a little bit more with 
the nature and quality of your testimony. Are you telling me 
that you intend in your argument, in favor of your position, to 
continue saying publicly that, notwithstanding the Scientific 
American review, you are going to continue to represent that 
there is in fact a 19,700 person skeptics?
    Mr. Barton. I will continue to represent that there is no 
consensus on this, that there are many scientists that 
disagree. Whether I say that----
    Senator Whitehouse. That is not the question on the one 
that I asked, though. I am actually trying to pin you down to 
the skeptics petition. Now that you know that the Scientific 
American----
    Mr. Barton. If indeed your characterization is accurate in 
that group, I may not use that group. But there are still 
plenty of other groups that I will use.
    Senator Whitehouse. OK.
    Now that my colleague has raised the question of funding, I 
am interested, Dr. Tonkowich, in IRD and where its funding 
comes from. According to a web site called Media Transparency, 
IRD received 89 percent of its support in its first 2 years 
from six conservative foundations. In an article entitled 
Follow the Money, which appeared in the Washington Window, 
Howard F. Amundsen, Jr., alone gave IRD $528,000 in 1991 and 
1992, $460,000 in 2001, $150,000 in 2002 to 2003. My question 
is, are these figures accurate and what percentage of your 
total funding do those contributions represent?
    Rev. Tonkowich. I do not know whether they are accurate or 
not. I can find out and get back to you. I have been with the 
organization just over a year. I don't know what the funding 
was in 1991.
    Senator Whitehouse. You say you represent constituents of 
so-called mainline Protestant churches who feel mis-represented 
by their denominational Washington offices and by groups like 
the National Council of Churches. How many constituents is 
that, approximately? Do you have a number?
    Rev. Tonkowich. Our mailing list is somewhere in the 
neighborhood of 600,000 to 700,000.
    Senator Whitehouse. How do people get on your mailing list? 
I get stuff that I don't want all the time, and I don't 
consider myself to be a constituent of the groups that mail to 
me.
    Rev. Tonkowich. Again, people send us their church 
directories at times, and ask to add their friends to the list. 
We do very little prospecting. So it is people who have opted 
on.
    Senator Whitehouse. Where does the support for your 
organization come from?
    Rev. Tonkowich. A combination of foundations and 
individuals.
    Senator Whitehouse. Do you know how many foundations and 
how many individuals, approximately?
    Rev. Tonkowich. I think there are probably somewhere in the 
neighborhood of 8 to 10, well, a dozen or so foundations.
    Senator Whitehouse. I would be interested, to the extent 
you feel comfortable doing so, have you identify for the record 
who those are and who your major private donors are.
    Rev. Tonkowich. I would not feel comfortable, certainly, 
revealing the names of private donors. In terms of foundations, 
most of them make us sign a waiver saying that we will not in 
fact reveal their names.
    Senator Whitehouse. I am not as religious a person as the 
people who are in the witness chairs today. But I do recall 
during the course of my education some discussion about 
Paschal's wager and the prudence of believing in a God. Does it 
not seem simply prudent, given the risks that are potentially 
associated with global warming, to err on the side of caution? 
Do you have no hesitation in that regard, to the extent that 
your organizations are seen as impeding or interfering with or 
trying to discourage efforts to limit the effects of global 
warming? I mean, the downside, I think, we can argue about how 
likely that downside is, but the downside is pretty severe. 
Wouldn't the relatively small chance of that downside occurring 
be something to take sensible precautions about?
    Rev. Tonkowich. Global warming is likely to benefit some 
and hurt others. Climate change will do that. Senator Inhofe 
entered for the record the front page of today's Washington 
Post, the story about Greenland and how the warming trend is 
significantly benefiting the people of Greenland.
    This is an enormously expensive undertaking, enormously 
expensive. As David pointed out, with $200 billion, we could 
give every human being on the earth drinkable water. That would 
solve many, many problems.
    I don't know what it would cost, but if only 4 percent of 
the fields in Africa are irrigated, why not pay to irrigate the 
rest and use that well? The estimates of cost for instituting 
the Kyoto Protocol that I have heard are in the neighborhood of 
$300 million a year. I have heard numbers into the 
quadrillions. We can do things right now to help the poor. If 
there is global warming, if the sea levels are going to rise 
even 20 inches, and that would cause problem, we can do 
something today to make the lives of the poor different 100 
years from now in order to cope with that.
    Senator Whitehouse. My time has expired. The Ranking Member 
has the floor.
    Senator Inhofe. I just wanted to remind you, before you 
came in, I have only had one round, and you probably assumed 
that I have had two.
    Here is one of the problems I see in the line of 
questioning here, Senator Whitehouse. Again, we are talking 
about global warming. It is not global warming, it is, is man-
made anthropogenic, methane, CO<INF>2</INF> affecting climate 
change. That is the issue. I think we all acknowledge, and they 
are rejoicing up in Greenland, as you can see in the front page 
of the Post today, in the fact that they think they are going 
through a warming trend and they hope it doesn't reverse, as it 
always has in the past. If you don't believe that, ask the 
Vikings, the ones who were there prospering for a long period 
of time.
    I was hoping we would get away from this science thing. No 
one with a straight face can say that the science is settled. 
It is not settled. Let me just read this. I thought we were 
beyond this point and we didn't need to get back to it. That is 
not what this is supposed to be. I could come with chart after 
chart after chart of the thousands of individuals, and by the 
way, you talked about the Oregon Petition, it is not 19,800, 
17,800, but 15,000 of those--is that correct, 15,000, what is 
it? Twelve thousand of those have Ph.D., or higher equivalents. 
But forget about that. If you just take the top scientists in 
the world, and I used this one on the floor the other day, 
because I was debating the junior Senator from Massachusetts. 
It was the quote by Richard Lindzen, the Alfred P. Sloan 
Professor of Atmospheric Science at MIT, in an op-ed piece. He 
is getting very upset by the political motivation of this whole 
debate.
    He said, ``A general characteristic of Mr. Gore's approach 
is to assiduously ignore the fact that the earth and its 
climate are dynamic. They always are changing, even without any 
external forcing. To treat all change as something to fear is 
bad enough, but to do so in order to exploit that fear is much 
worse.''
    Now, I think you submitted, Dr. Tonkowich, in your 
statement, three pages as an appendix, naming a lot of the--
would you kind of go over, hand pick a few of these out, the 
scientists that seem to be challenged so readily by the other 
side if they don't agree immediately with them?
    Rev. Tonkowich. These are folks, Ian Clark is professor of 
Isotrope Hydrogeology and Paleoclimatology, studying those 
trends in climate change and CO<INF>2</INF> change over time. A 
number of these I got as a list of signers, Richard Lindzen at 
MIT is certainly on the list. Roy Spencer.
    Senator Inhofe. OK, I think that is good enough. The point 
I am trying to make, and it is already part of the record, so I 
won't submit it, most of these, we went through and more than 
half of these are ones who didn't appear on this list just a 
short while ago. So we are acknowledging that there are 
changes.
    Now, the comment that was--yes, here are some of the new 
ones. First of all, I mentioned Claude Allegre. Claude Allegre 
is from France, he is a socialist. But he is one of the top 
geophysicists in France. He was one of them who was on the 
other side of this issue who changed, and is over on the other 
side, the skeptic's side, now. That is where the trend is 
going. I would say the same thing for a geologist from Alberta, 
Canada, Bruno Wiskell. In fact, these are all new ones here. I 
am going to go ahead and submit this, without objection, to be 
a part of the record.
    Senator Whitehouse. Without objection.
    Senator Inhofe. I think that is very important to do.
    Now, a lot of statements have been made about the IPCC. 
What isn't said about the IPCC is that what we are looking at 
is the review they have for policy holders. But even in this 
reviews, in the last one, this was in February, they came out 
and for the fourth consecutive time, they cut the sea level 
rise fear in half. They cut it down by half again this past 
time. So every time they come out, even though these are 
policymakers, they are still saying, we had better cover 
ourselves on this, because this just ain't true.
    When we had the 3-hour debacle with Al Gore a couple of 
months ago, a lady came up to me afterwards from some place in 
Maryland, I can't remember where it was. She said her 
elementary school daughter is forced to watch that movie, the 
science fiction movie that he has, every month. The thing that 
bothers me is, these poor kids think it is true. The thing that 
bothers and scares them the most is sea level rise. They all 
honestly believe, and why wouldn't they believe this, sitting 
in school hearing from their teachers, that we are all going to 
drown.
    So these things are out there, and I don't want to keep 
talking about science. I guess something is trying, not you, 
Senator Whitehouse, but some of them are trying to discredit 
the head of NASA, who came out the other day. Well, if you look 
carefully at what he said, he was talking about man-made 
changes, not about global warming. Let's keep in mind the guy 
that you see most prevalent is a guy named James Hansen. James 
Hansen is the guy, he is on all the shows I have seen him on, 
every time I go in to do a show, he is sitting there. He is the 
guy that received $250,000 in a check from the Heinz 
Foundation, and you can say, well, that had nothing to do with 
his opinion. This wasn't a grant. This was just money given to 
him.
    So I think that if you are going to get into these things, 
we can do the same thing on this side. Money is important.
    We had a hearing. This was a good one. I think this is the 
best hearing we have had. Some of you are looking at this 
thinking it is not so good. We have had some awful ones. But 
one that was pretty good was the one where there were five 
corporations that joined U.S. Climate Action Partnership, five 
or seven of them came in. So we took them each one by one, 
General Electric, and the others would stand to make not just 
millions, but billions of dollars if we had cap and trade 
policy.
    If I were one of the companies, I think one of the energy 
companies, I won't go into them now, because it is all a matter 
of the record already, who would make money in nuclear energy, 
which I strongly support, just as strongly as the Senator from 
Georgia, still in fact those individuals would make that much 
more. We have some natural gas people right now that are trying 
to do away with coal. Coal-generated electricity is responsible 
for 53 percent of our being able to run this machine we call 
America. Clean coal technology is coming along, and at this 
point, I hope everyone understood what Senator Isakson was 
saying, we have a crisis in this country. I used to say you 
can't run the biggest machine or the most sophisticated machine 
in the history of mankind on windmills. Then I find out the 
environmentalists don't like windmills any more, because they 
are killing birds.
    We have to look, France, for example, 80 percent of 
France's energy is nuclear. Yes, we need to get to that. I 
think we all agree with that. But also clean coal technology is 
coming along, and all of the above is what we need. Our farmers 
in Oklahoma--the main cost factor driving up the cost of 
fertilizer is the cost of natural gas. It has more than 
doubled, just because of that, because of these things that we 
are doing.
    So that is a bigger picture that we are looking at. I 
didn't really mean to get into all of that, and I don't know if 
you want to go back and forth or what you want to do. But there 
are a couple of questions I had at some point I want to get 
out.
    Senator Whitehouse. Why don't you ask them now, I will give 
you another round, another 8 minutes.
    Senator Inhofe. I appreciate that.
    Mr. Carr, I appreciate very much the very pleasant way in 
which you made your presentation, and I appreciate you. But I 
ask that, if you had paid attention, back when I was reading my 
opening statement the statement by Tom Mullen, the president of 
the Catholic Cleveland Charities, who testified in this room, 
sitting in the same chair you are sitting, as a matter of fact, 
about the rising cost of energy that would be caused by the 
imposition of a carbon cap and trade scheme. Then specifically, 
he said that one-fourth of the children in his city, that is in 
Cleveland, OH, were living in poverty and they would, with this 
cap and trade that they are talking about--and it is not any 
different, not a lot different than the ones we are talking 
about now--would suffer further loss of basic needs as their 
moms are forced to make choices of whether to pay the rent or 
live in a shelter, pay heating bills or see their child freeze, 
buy food or risk availability of a hunger center.
    I would ask you, No. 1, do you know Tom Mullen; and No. 2, 
do you have any comments to make about his observations?
    Mr. Carr. Thank you, Senator. I know and admire Tom Mullen 
and I very much admire the work of Catholic Charities in 
Cleveland and throughout the country. I have a couple of 
reactions. One, the people he describes are people we serve 
every day. They are in that situation not because of cap and 
trade policies, but because of the economic realities in the 
country. They are going to be affected by other economic 
realities, including the reality of climate change and its 
impact.
    Everything we know about this says that the poor will have 
the least to say and the most to lose about this. So one of the 
things that I am really encouraged about is the focus on this 
side of the table and that side of the table on the poor. 
Because that is not usually the way things shake out up here. 
So one of my hopes is we will focus together on how the poor 
will not be left behind, will not be used as an excuse for 
inaction, and will not be seen simply as collateral damage.
    Business as usual, the status quo, will hurt the poor. 
Business as usual in terms of what we do in the future, will 
hurt the poor. What I think we unite on is, business as usual 
is not good enough. In fact, what the religious community 
offers, I hope your science hearings were better than this, 
because this is a little scary. What the religious community 
offers is a set of principles. The three I suggested were 
prudence, the pursuit of the common good and the priority of 
the poor.
    The other thing we offer, and this is what Tom Mullen was 
talking about, is we have experience. The poor are not 
abstractions for us. They have names and faces. So we know that 
inaction will hurt them and that the wrong action will hurt 
them. So I share very much his concern, and I hope this 
committee, as it does its work, will continue to reflect a 
common priority for the poor.
    Senator Inhofe. I appreciate that. That is a very good 
response.
    I think one of the reasons--there are a number of reasons 
why this hearing is taking place. It was the choice of our 
Chairman, Barbara Boxer. For those of you that don't hang 
around Washington very much, you might not be aware that for 4 
years I chaired this committee, up until January, and the 
Democrats now have control by one vote, which could change.
    But in doing this, I know, and I started out in my opening 
statement, and I don't think my Senator friend here was here at 
that time, I said one of the reasons I was glad this came up is 
because there is, there was a very brilliant attempt by some 
groups in order to try to divide and conquer on the issues that 
are fundamental issues to evangelicals. I named gay marriage 
and abortion and all that.
    It started out being successful. This movement, which 
actually was about 2 years ago in March, is when it first 
appeared, they are attributing support from people like James 
Dobson, people like Chuck Colson. I called them up one by one 
and they all said, no, we were never consulted. So I was 
concerned, I think that is pretty much put to rest, and I think 
this hearing helps a lot in that respect, to do that.
    Let me ask you, let's go over to the side of the minority 
witnesses.
    Bishop Schori. Senator, may I interrupt? I apologize 
deeply, but I have a commitment that will not wait. I would ask 
your indulgence that I be excused. I would be happy to respond 
to any questions that might arise in writing.
    Senator Inhofe. Let me do this. I will go ahead and get 
some questions for the record, because I did have three I was 
going to ask you, and then you can respond in writing, if that 
would be all right. We will do that after you leave, for the 
record.
    Bishop Schori. Thank you very much.
    Senator Inhofe. Thank you. Thank you for appearing here. We 
appreciate your contribution very much.
    I would say to the witnesses that are minority witnesses, 
since I think we are getting pretty close to winding this down, 
if I just start with you, Dr. Moore, and see if there is 
anything that you have felt you have not really had time to 
share with us, if you would like to at this time.
    Mr. Moore. I think the issue of evangelical distraction and 
evangelical identity is a good point, the point that you just 
made. When you look at the lists of signers of some of the 
evangelical environmentalist manifestoes, as we have already 
mentioned, many of the names are exactly the same people who 
were holding to big government solutions in economic terms in 
the 1970s and 1980s, with very few exceptions.
    We ought to have seen and heeded the dangers of the 1950s 
and 1960s when church bureaucracies took the Biblical text and 
superimposed it upon specific big government policies, enough 
to know that this is not a path we wish to go.
    Senator Inhofe. That is good. How about you, Dr. Tonkowich?
    Rev. Tonkowich. I would like to say that Mr. Carr's 
comments about his three points, prudence, common good and the 
poor, are ones that I would certainly adhere to. I think those 
are points of common ground.
    Of course, the question of prudence, that is really the 
question that is in the air. But those are important 
principles, and I appreciate that.
    Senator Inhofe. You know, speaking of the poor, in my 
experiences in Africa, most all these programs that come along, 
as you well know, only engage developed countries, not 
developing nations. I would hope that we don't try to impose 
upon countries such as Africa some of these ideas that we think 
would work well in the developed nations.
    Mr. Barton.
    Mr. Barton. Probably the thing that I would point back to 
is that I believe there is a real skepticism, as ABC points 
out, outside of Washington, DC, still 64 percent of the Nation 
thinks scientists are split on this. I continue to point to a 
good basis for that. The environmental scientists warned in the 
1960s of a global population bomb that by 2000 there would be 
massive unemployment. It was 6.3 percent this year globally. 
They pointed to DDT. We banned that in 1972. We now find that 
cost about 2 million lives a year, so USAID has put it back in, 
because that can't find any human harm factor associated with 
DDT.
    We went through Y2K. This Government spent $225 billion on 
Y2K and nothing came of it. I can go through five or six other 
major areas where science has been of ``consensus'' and 20 
years later, we are all of a different mind. That is why I 
really urge caution on this, because there is not a good record 
on this in the scientific community on a number of issues that 
were considered very significant at the time. Again, this has 
been cyclical. I tend to be like others, skeptical on this 
issue. That is why I would urge caution before we launch out 
into anything that really is going to reshape society. Let's 
have a better consensus than we do now.
    Senator Inhofe. I do think it is interesting to look at the 
changes. When I talked about the corporations, the others, when 
they say it is all about money, there are a lot of them who 
stand to make a lot of money. I recall Time Magazine, it was 
one of their biggest sellers about a year ago, that had that 
last polar bear standing on the last ice floe about to go. That 
is the same magazine that just about a few years ago said 
another ice age is coming and we are all going to die.
    So people want that. The Weather Channel wants so badly for 
people to believe this. This gets the watchers and the viewers, 
the ratings up. So anyway, I don't know what your intentions 
are.
    Senator Whitehouse. I think my intentions would be to allow 
the three majority witnesses a chance to make a very brief, 
parallel closing, takeaways for us if you might, then I will 
adjourn the hearing. If any of you would like to add to what 
Dr. Moore, Reverend Tonkowich, and Mr. Barton have said, 
briefly.
    Mr. Carr. I would like to address the distraction concern. 
The Catholic community and the evangelical community share a 
commitment to human life, share a commitment to family life. 
With all due respect, I think the Catholics and evangelicals 
are capable of doing more than one thing at a time. I don't 
think there is any doubt among the members of the Senate that 
my church is deeply involved in protecting the unborn, 
protecting the family, working to protect immigrants, while we 
are working for those principles I described.
    I guess I can identify a little bit, and I will try to be 
brief; I am a skeptic. I am a convert to this. Frankly, I saw 
concerns in this area as a diversion from concerns about the 
poor and peace and the kinds of things that I have worked on 
all my life. Frankly, there are more resources for their side 
and for our side to do this than there is to work on the poor.
    But I became convinced not by my own study but by the 
experience of the church around the world, and frankly, the 
leadership of John Paul II and now Benedict XVI, that this is 
not a diversion for our commitment to human life and dignity to 
car for the earth, this is an extension of it, this is a 
deepening of it. That we are involved, because we think there 
is a false choice here between protecting God's creation and 
protecting God's people.
    What I take away from this hearing is great hope that as 
you decide how to respond to what is going on with prudence, in 
pursuit of the common good, that the poor and the vulnerable 
who will bear the greatest burdens will be at the center of 
your discussion and I hope your deliberation. We want to help 
you, both sides, in that task.
    Senator Whitehouse. Reverend Ball.
    Rev. Ball. I think there has been a bit of a 
mischaracterization of our 100 evangelical leaders in the sense 
of saying that we are somehow this left wing group. Anybody who 
knows the evangelical community, who looks at that list of 
leaders, can see that it is primarily a centrist and 
conservative group of evangelical leaders. I have no idea what 
they were espousing in the mid-1980s. But I seriously doubt 
that the leaders on that were really engaged in involving big 
government kinds of things.
    I would like to, again, we put this into the record, but to 
highlight a few of our principles for Federal policy on climate 
change. The second is maximize freedom in solving the problem. 
The fifth is enhance national and energy security, 
international religious freedom and rural economic development. 
The sixth, disperse decisionmaking authority to the lowest 
possible level. Then the seventh, solve the problem through the 
free market and protection of property rights.
    We want--I am glad that the U.S. CAP corporations are going 
to make money. I want them to make lots of money. I hope they 
make tons of money. If they make lots of money and we are 
protecting the poor at the same time, boy, how can we get 
better?
    So I look forward to making sure that the legislation is 
actually protecting the poor and making sure we don't make it 
regressive, but at the same time, making it business-friendly 
and using those market-based mechanisms to let our 
entrepreneurs solve this problem. We will lead the world at it.
    Senator Whitehouse. Rabbi Saperstein.
    Rabbi Saperstein. A few very quick points. First, in the 
Jewish tradition, we have exactly what you describe, Senator, a 
central, legal concept called building a fence around the 
Torah, that where a core value is concerned, you protect it 
prophylactically, not be waiting until someone steps on it, but 
setting the boundaries far enough out to be absolutely sure 
that it is not violated. That is exactly what is called for 
here.
    Second, I hope that this committee is aware of the 
extraordinary array of programs going on in the religious 
community dealing with this. In churches, synagogues, mosques, 
all across America, people are trying their best to deal with 
this, to cut down their carbon imprint, to use alternative, low 
greenhouse gas emitting technologies that will make them far 
more effective and far more protective of the earth, doing 
educational programs, really extraordinary. At the local level, 
people really get this. It is important that you be aware of 
how strongly held this is.
    Third, I don't see how this idea that has been espoused by 
my colleagues here that somehow, if Scripture doesn't say 
something exactly about cap and trade, things that are 
particular mechanisms, you remain silent. I work with the 
Southern Baptists all the time on sex trafficking, on the 
Religious Land Use and Protection Act, which not only do we all 
believe Scripture had a principle, but we agree to all kinds of 
compromises, all kinds of mechanisms that are not found in 
Scripture. We use our best judgment as to how to apply that. We 
normally do it together. It is what is called for here.
    Finally, I would say, I think Dr. Moore gave a wonderful 
presentation, really. I think inadvertently he used an image 
that to me is a deeply troubling image, the image of Noah. Noah 
is not the paradigm for what we need, a notion that few survive 
and we allow ecological devastation of all the rest of 
humanity. Indeed, it is the opposite paradigm that is called 
for here. We have to be sure the flood does not happen again. 
We have to act to preserve all of humanity. That is what is 
called for at this moment, and it requires bold and assertive 
steps by this Congress to make that happen.
    Senator Whitehouse. I thank the witnesses. I think the 
agreement that we are left with on prudence, pursuit of common 
good and prioritization of the poor is a good note to close the 
hearing on. I would say to my distinguished senior Senator and 
the Ranking Member here that while politics may divide us, we 
had an interesting visit from the British Secretary of State 
for the Environment, who noted that in his country the battle 
between the conservatives and the liberals is as to who will be 
stronger with respect to climate change. In that country, the 
conservatives are campaigning, in that country, blue is red and 
red is blue, so the conservatives are the blue party, and they 
are campaigning on a vote blue to get green platform. So there 
may be room for the two of us to come together in the fullness 
of time.
    Senator Inhofe. I would be very happy to come up with a 
number of Brits, David Bellamy and others, who would take a 
differing view.
    I want to thank all seven of you who showed up today. I had 
said that this thing would be over with at noon, it is now 
1:15. Thank you for your tolerance.
    Senator Whitehouse. We are adjourned. The record stays open 
for a week after these hearings if there is anything you wish 
to put into them. Thank you.
    [Whereupon, at 1:15 p.m., the committee was adjourned.]
    [Additional statements submitted for the record follow.]

     Statement of Hon. Joseph I. Lieberman, U.S. Senator from the 
                          State of Connecticut

    Thank you, Madame Chairman.
    I haven't yet spoken in this committee about the religious 
convictions that have influenced my work pushing legislation to curb 
global warming over the last four years. But those convictions are 
reflected in the title I chose in 2003 for my bill, the Climate 
Stewardship Act.
    It is written in the Talmud that when God made Adam steward of the 
Garden, He said to Adam, ``Look at my works! See how beautiful they 
are--how excellent! For your sake I created them all. See to it that 
you do not spoil and destroy My world; for if you do, there will be no 
one else to repair it.''
    My faith teaches me that God has commanded us to be good stewards 
of our natural world--to care for and nurture this precious gift He has 
given us.
    And when science proved to me years ago that we were spoiling this 
world God gave us by pouring greenhouse gases into the atmosphere, both 
faith and reason moved me to action to try and put our nation on a path 
toward better stewardship of God's gift to us.
    I am pleased to see that a bipartisan majority of the members of 
this committee now believes that robust greenhouse gas emissions 
reductions are needed to protect the Earth from harm. My hope is that 
each Senator who accepts that fact will also as a matter of both faith 
and reason support legislation mandating the emissions reductions that 
science reveals as necessary to avoid spoiling our natural world.
    Stewardship of the natural world is not the only religious tenet 
that has informed my approach the issue of global warming. The book of 
Proverbs exhorts us to ``plead the cause of the poor and the needy.''
    There is consensus in both the scientific and the economic 
communities that the impacts of our excessive greenhouse gas 
emissions--intensified drought, intensified heat-waves, increased 
coastal flooding, migrating diseases--hurt the poor much earlier and 
much harder than they hit the wealthy.
    This spring, the Intergovernmental Panel on Climate Change 
projected that unchecked global warming will cause water shortages 
affecting billions of people and drive millions to hunger.
    With that knowledge, and with concern for the poor in this country 
and abroad, I hope that all of my colleagues will feel duty-bound to 
support legislation that brings this nation's greenhouse gas emissions 
down to safe levels in time to avert catastrophe.
    Some say that strong measures to curb global warming will punish 
the poor economically. But all indications, including a report this 
spring by the Congressional Budget Office, show that a well-designed 
emissions cap-and-trade program that allocates emissions credits wisely 
and equitably will not hurt low- and middle-income Americans.
    Recognition of that fact is, I believe, a large part of what led 
Senator Norm Coleman, the distinguished Republican from Minnesota, to 
cosponsor my Climate Stewardship and Innovation Act last month.
    Our faith tells us our duty. Science spells out the challenge 
before us. Together, faith and reason spur us to action to protect 
God's gift, to protect the disadvantaged, and to protect our children 
and grandchildren.
    Madame Chairman, thank you for holding this important hearing. And 
I thank the witnesses for the time and effort that they have spent 
preparing their testimony and traveling here.

[GRAPHIC] [TIFF OMITTED] T1968.001

[GRAPHIC] [TIFF OMITTED] T1968.002

[GRAPHIC] [TIFF OMITTED] T1968.003

[GRAPHIC] [TIFF OMITTED] T1968.004

[GRAPHIC] [TIFF OMITTED] T1968.005

[GRAPHIC] [TIFF OMITTED] T1968.006

[GRAPHIC] [TIFF OMITTED] T1968.007

[GRAPHIC] [TIFF OMITTED] T1968.008

[GRAPHIC] [TIFF OMITTED] T1968.009

[GRAPHIC] [TIFF OMITTED] T1968.010

[GRAPHIC] [TIFF OMITTED] T1968.011

[GRAPHIC] [TIFF OMITTED] T1968.012

[GRAPHIC] [TIFF OMITTED] T1968.013

[GRAPHIC] [TIFF OMITTED] T1968.014

[GRAPHIC] [TIFF OMITTED] T1968.015

[GRAPHIC] [TIFF OMITTED] T1968.016

[GRAPHIC] [TIFF OMITTED] T1968.017

[GRAPHIC] [TIFF OMITTED] T1968.018

[GRAPHIC] [TIFF OMITTED] T1968.019

[GRAPHIC] [TIFF OMITTED] T1968.020

[GRAPHIC] [TIFF OMITTED] T1968.021

[GRAPHIC] [TIFF OMITTED] T1968.022

[GRAPHIC] [TIFF OMITTED] T1968.023

[GRAPHIC] [TIFF OMITTED] T1968.024

[GRAPHIC] [TIFF OMITTED] T1968.025

[GRAPHIC] [TIFF OMITTED] T1968.026

[GRAPHIC] [TIFF OMITTED] T1968.027

[GRAPHIC] [TIFF OMITTED] T1968.028

[GRAPHIC] [TIFF OMITTED] T1968.029

[GRAPHIC] [TIFF OMITTED] T1968.030

[GRAPHIC] [TIFF OMITTED] T1968.031

[GRAPHIC] [TIFF OMITTED] T1968.032

[GRAPHIC] [TIFF OMITTED] T1968.033

[GRAPHIC] [TIFF OMITTED] T1968.034

[GRAPHIC] [TIFF OMITTED] T1968.035

[GRAPHIC] [TIFF OMITTED] T1968.036

[GRAPHIC] [TIFF OMITTED] T1968.037

[GRAPHIC] [TIFF OMITTED] T1968.038

[GRAPHIC] [TIFF OMITTED] T1968.039

[GRAPHIC] [TIFF OMITTED] T1968.040

[GRAPHIC] [TIFF OMITTED] T1968.041

[GRAPHIC] [TIFF OMITTED] T1968.042

[GRAPHIC] [TIFF OMITTED] T1968.043

[GRAPHIC] [TIFF OMITTED] T1968.044

[GRAPHIC] [TIFF OMITTED] T1968.045

[GRAPHIC] [TIFF OMITTED] T1968.046

[GRAPHIC] [TIFF OMITTED] T1968.047

[GRAPHIC] [TIFF OMITTED] T1968.048

[GRAPHIC] [TIFF OMITTED] T1968.049

[GRAPHIC] [TIFF OMITTED] T1968.050

[GRAPHIC] [TIFF OMITTED] T1968.051

[GRAPHIC] [TIFF OMITTED] T1968.052

[GRAPHIC] [TIFF OMITTED] T1968.053

[GRAPHIC] [TIFF OMITTED] T1968.054

[GRAPHIC] [TIFF OMITTED] T1968.055

[GRAPHIC] [TIFF OMITTED] T1968.056

[GRAPHIC] [TIFF OMITTED] T1968.215

[GRAPHIC] [TIFF OMITTED] T1968.216

[GRAPHIC] [TIFF OMITTED] T1968.217

[GRAPHIC] [TIFF OMITTED] T1968.218

[GRAPHIC] [TIFF OMITTED] T1968.219

[GRAPHIC] [TIFF OMITTED] T1968.220

[GRAPHIC] [TIFF OMITTED] T1968.221

[GRAPHIC] [TIFF OMITTED] T1968.222

  

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
